                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




          AGREED-UPON PROCEDURES FOR CORPORATION
              FOR NATIONAL AND COMMUNITY SERVICE
                       GRANTS AWARDED TO
                Colorado Governor’s Commission
                      on Community Service




                         OIG REPORT 11-20




                         Prepared by:

                 COTTON & COMPANY LLP
                  635 Slaters Lane, 4th Floor
                  Alexandria, Virginia 22314




This report was issued to Corporation management on September 12, 2011. Under
the laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
March 12, 2012 and complete its corrective actions by September 12, 2012.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                   Office   or Inspector General

                                 NATIOONAL&
                                 COMMUNITY
                                 SERVICE ...............
                                      September 12, 2011

TO :           John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grr~ts Management

FROM:          Stuart Axenfeld   KU:O* ~
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-20, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Colorado Governor's Commission on
               Community Service (Serve Colorado)


Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Cotton &
Company LLP (Cotton). The contract required Cotton to conduct its procedures in accordance
with generally accepted government attestation standards.

Cotton is responsible for the attached report, dated September 7, 2011, and conclusions
expressed therein. The agreed-upon procedures, unlike an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to express
opinions on Serve Colorado's Consolidated Schedule of Award Costs or the Schedules of
Award and Claimed Costs for individual awards, conclusions on the effectiveness of internal
controls, or compliance with laws, regulations and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by March 12, 2012. Notice of final action is due by September 12, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment

cc:     Toya Nelson, Executive Director, Serve Colorado
        Lindsay Morgan Tracy, Commission Chair, Serve Colorado
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
        Kim Mansaray, Acting Chief Operating Officer
        Claire Moreno, Audit Liaison, CNCS
        Dianne Ray, Acting State Auditor, State of Colorado
        Michael Gillespie, Partner, Cotton & Company LLP



                   1201 New York Avenue, NW  *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                        Senior Corps * AmeriCorps * Learn and Serve America
                              OFFICE OF INSPECTOR GENERAL
                             AGREED-UPON PROCEDURES FOR
                    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                  GRANTS AWARDED TO
                  COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE


                                                         CONTENTS


Section                                                                                                                     Page

Executive Summary........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                8

Schedule A: Schedule of Claimed and Questioned Costs Mile High Youth Corps
            Award No. 06ACHCO001 ..........................................................................                  9

Schedule B: Schedule of Claimed and Questioned Costs Mile High Youth Corps
            Award No. 06AFHCO001........................................................................... 14

Schedule C: Schedule of Claimed and Questioned Costs Mile High Youth Corps
            Award No. 09RCHCO002 .......................................................................... 20

Schedule D: Schedule of Claimed and Questioned Costs Southern Ute Community
            Action Programs Award No. 06AFHCO001................................................ 25

Schedule E: Schedule of Questioned Costs Colorado Youth Corps Association
            Award No. 06ESHCO001 .......................................................................... 29

Schedule F: Schedule of Questioned Costs Colorado Youth Corps
            Association Award No. 09ESHCO001 ....................................................... 32

Schedule G: Schedule of Claimed and Questioned Costs Colorado Youth Corps
            Association Award No. 09RFHCO001 ....................................................... 34

Schedule H: Schedule of Claimed and Questioned Costs Award No. 07CAHCO001 .... 38

Exhibit B: Compliance Results ....................................................................................... 44

Appendices

A: Colorado Governor’s Commission on Community Service Response to Draft Report
B: Corporation for National and Community Service’s Response to Draft Report
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
(AUPs) to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
assistance provided to the Colorado Governor’s Commission on Community Service (GCCS).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $260,021,
education awards of $73,660, accrued interest awards of $1,694, and administrative fees of
$2,017. A questioned cost is an alleged violation of a provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of
funds or a finding that, at the time of testing, includes costs not supported by adequate
documentation. Detailed results of our AUP on claimed costs are presented in Exhibit A,
Consolidated Schedule of Claimed and Questioned Costs, and the supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. Grantees receiving Education Award program grants are eligible to
receive a fixed administrative fee for each eligible member enrolled. The fee is funded at the
amount per-full time equivalent specified in the award. These award amounts are not funded by
Corporation grants and, thus, are not included in claimed costs. As part of our AUP and using
the same criteria used for the grantee’s claimed costs, we determined the effect of our findings
on education and accrued interest award eligibility and the fixed administrative fees.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B, Compliance Results.

1. GCCS and three subgrantees claimed unallowable and unsupported costs.

2. GCCS, subgrantee, and subgrantee service location financial management systems did not
   account for costs in accordance with Federal and state requirements.

3. GCCS and one subgrantee did not have controls to ensure that claimed Federal and match
   costs were adequately supported, compliant with applicable regulations, and properly
   calculated.

4. Two subgrantees did not comply with AmeriCorps requirements for criminal history
   checks and National Sex Offender Public Registry (NSOPR) searches.

5. One subgrantee did not demonstrate that it conducted a criminal history check on a
   member, and three subgrantees did not conduct criminal history and NSOPR searches
   in a timely manner.

6. One subgrantee did not have controls to ensure that members performed allowable service
   activities.

7. Three subgrantees did not accurately record all timesheet hours, did not have procedures to
   verify member activities and timesheet accuracy, and timesheets did not always support
   member eligibility for education awards.
                                             1
8. One subgrantee did not comply with AmeriCorps citizenship eligibility requirements.

9. Three subgrantees did not demonstrate that some members received performance
   evaluations, and some end-of-term evaluations did not meet AmeriCorps requirements.

10. Three subgrantees did not complete all member enrollment and exit forms and enter them
    into the My AmeriCorps Portal (Portal) in accordance with AmeriCorps requirements.

11. GCCS and three subgrantees did not follow certain AmeriCorps requirements.

12. GCCS did not demonstrate that unemployment insurance and worker’s compensation
    benefits provided to members were required by Colorado state law.

13. GCCS did not follow its procedures to obtain and review subgrantee Office of Management
    and Budget (OMB) Circular A-133 audit reports. It did not have procedures to reconcile
    expenditures in subgrantee OMB Circular A-133 audit reports, and it did not perform such
    reconciliations.

AGREED-UPON PROCEDURES SCOPE

We performed the AUPs detailed in the OIG’s Agreed-Upon Procedures for Corporation Awards
to Grantees (including Subgrantees) program, dated April 2010. Our procedures covered
testing of the following AmeriCorps Competitive, Formula, Education Award, American
Recovery and Reinvestment Act (ARRA), Administrative, Professional Development and
Training (PDAT), and Disability grants:

                                                                                    Award
   Grant Program          Award No.        Award Period         AUP Period          Totals
   AmeriCorps Grants
   Competitive           06ACHCO001       08/15/06-12/31/09   09/01/08-12/31/09   $2,627,099
   Formula               06AFHCO001       09/01/06-08/31/12   09/01/08-09/30/10   $7,789,184
   Education Award       06ESHCO001       08/15/06-12/31/09   09/01/08-12/31/09    $118,100
   Competitive           09ACHCO001       09/01/09-08/31/12   09/01/09-09/30/10   $1,286,680
   Education Award       09ESHCO001       09/01/09-08/31/12   09/01/09-09/30/10      $92,358
   ARRA-Competitive      09RCHCO002       06/01/09-12/31/10   06/01/09-09/30/10    $832,831
   ARRA-Formula          09RFHCO001       05/01/09-09/30/10   05/01/09-09/30/10    $514,073
   GCCS Grants
   Administrative        07CAHCO001       01/01/07-06/30/10   07/01/08-06/30/10    $693,784
   PDAT                  08PTHCO001       01/01/08-12/31/10   07/01/08-06/30/10    $412,165
   Administrative        10CAHCO001       01/01/10-12/31/12   01/01/10-06/30/10    $326,112
   Disability            10CDHCO001       01/01/10-12/31/12   01/01/10-06/30/10     $93,109

OIG’s AUP program included:

      Obtaining an understanding of GCCS’s operations, programs, and subgrantee
       monitoring process.

      Reconciling GCCS’s claimed Federal grant costs to its accounting system.

                                             2
      Testing subgrantee member files to verify that records support eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Testing GCCS’s compliance and a sample of subgrantees with selected AmeriCorps
       provisions and award terms and conditions.

      Testing GCCS’s claimed Federal grant costs and a sample of subgrantees to ensure
       that:

          AmeriCorps grants were properly recorded in GCCS’s general ledger and
           subgrantee records.

          Costs were allowable and properly documented in accordance with applicable
           OMB circulars, grant provisions, award terms, and conditions.

We performed testing from October 2010 through March 2011at GCCS and its three
subgrantees:

      Colorado Youth Corps Association (CYCA)
      Mile High Youth Corps (MHYC)
      Southern Ute Community Action Programs (SUCAP)

BACKGROUND

The Corporation

The Corporation supports national and community service programs that provide an
opportunity for participants to engage in full- or part-time service. The Corporation funds
service opportunities that foster civic responsibility and strengthen communities. It also
provides educational opportunities for those who have made a commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). AmeriCorps, the largest of
the initiatives, is funded through grants to states and territories with Commissions, grants to
states and territories without Commissions, and National Direct funding to organizations.
Grantees recruit and select volunteers who must qualify to earn a living allowance and/or
education awards.

Colorado Governor’s Commission on Community Service

GCCS was established by an Executive Order in December 1993, in response to the
National and Community Service Trust Act of 1993, which mandated the establishment of a
state commission for the purpose of selecting and supporting AmeriCorps programs within
the state. GCCS is under the Colorado Office of Lieutenant Governor. It serves as the focal
point for implementing AmeriCorps programs through subgrants, with funding from the
Corporation.

GCCS receives multiple awards from the Corporation, including AmeriCorps Competitive,
Formula, Education Award, ARRA, Administrative, PDAT, and Disability grants. AmeriCorps
grants are annual awards passed through the GCCS to eligible subgrantees, including
                                               3
CYCA, MHYC, and SUCAP. These subgrantees recruit and select members who then earn
living allowances and education awards.

Colorado Youth Corps Association

CYCA develops and maintains a statewide network of conservation programs for youth
participants. Members are involved in service projects to maintain and enhance public
lands. CYCA had eight service locations throughout Colorado during the AUP period:

   1.   Larimer County Youth Conservation Corps
   2.   Mile High Youth Corps-Denver
   3.   Mile High Youth Corps-Colorado Springs
   4.   Rocky Mountain Youth Corps
   5.   Southwest Conservation Corps-Four Corners
   6.   Southwest Conservation Corps-Los Valles
   7.   Weld County Youth Conservation Corps (WCYCC)
   8.   Western Colorado Conservation Corps

Mile High Youth Corps

MHYC’s goal is to improve communities and the lives of youth by putting young people to
work in neighborhoods, public parks, and open spaces. Its’ projects include environmental
restoration, protection, and conservation; energy conservation; affordable housing; and
community improvement projects. It assigned members to its Denver and Colorado Springs
offices, as well as five other service locations during the AUP period:

   1.   Larimer County Youth Conservation Corps (LCYCC)
   2.   Rocky Mountain Youth Corps (RMYC)
   3.   Southwest Conservation Corps-Four Corners (SCCFC)
   4.   Southwest Conservation Corps-Los Valles (SCCLV)
   5.   Western Colorado Conservation Corps (WCCC)

Southern Ute Community Action Programs

SUCAP is a federation of entities seeking to address a number of youth, family, and
community development needs on the Southern Ute Indian Reservation region in
southwestern Colorado. AmeriCorps members at SUCAP are involved in implementing an
information survey, drug and alcohol prevention programs, engaging youth in civic activities,
and implementing youth obesity programs.

EXIT CONFERENCE

The contents of this report were discussed with GCCS and Corporation representatives on
May 6, 2011. We summarized GCCS’s comments in appropriate sections of the final report
and have included their comments verbatim as Appendix A. The Corporation intends to
respond to all findings and recommendations in its management decision at a later date
(see Appendix B).




                                              4
September 7, 2011


Office of Inspector General
Corporation for National and Community Service

                           INDEPENDENT ACCOUNTANTS’ REPORT ON
                            APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees) program, dated April
2010. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to GCCS for the awards
detailed below.

This AUP engagement was performed in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures, either for
the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                                     Award
   Grant Program           Award No.        Award Period         AUP Period          Totals
   AmeriCorps Grants
   Competitive           06ACHCO001       08/15/06-12/31/09   09/01/08-12/31/09   $2,627,099
   Formula               06AFHCO001       09/01/06-08/31/12   09/01/08-09/30/10   $7,789,184
   Education Award       06ESHCO001       08/15/06-12/31/09   09/01/08-12/31/09    $118,100
   Competitive           09ACHCO001       09/01/09-08/31/12   09/01/09-09/30/10   $1,286,680
   Education Award       09ESHCO001       09/01/09-08/31/12   09/01/09-09/30/10      $92,358
   ARRA-Competitive      09RCHCO002       06/01/09-12/31/10   06/01/09-09/30/10    $832,831
   ARRA-Formula          09RFHCO001       05/01/09-09/30/10   05/01/09-09/30/10    $514,073
   GSSC Grants
   Administrative        07CAHCO001       01/01/07-06/30/10   07/01/08-06/30/10     $693,784
   PDAT                  08PTHCO001       01/01/08-12/31/10   07/01/08-06/30/10     $412,165
   Administrative        10CAHCO001       01/01/10-12/31/12   01/01/10-06/30/10     $326,112
   Disability            10CDHCO001       01/01/10-12/31/12   01/01/10-06/30/10      $93,109

We performed testing of these AmeriCorps program awards at GCCS and three of its
subgrantees. We selected samples of labor, benefits, and other direct costs at GCCS and
the three subgrantees that were reported by GCCS on the following Federal Financial
                                             5
Reports (FFR): September 30 and December 31, 2008; March 31, June 30, September 30,
and December 31, 2009; and March 31, June 30, and September 30, 2010.

We also tested grant compliance requirements by sampling the 59 members from CYCA,
MHYC, and SUCAP, as shown below. As requested by the OIG, we reviewed copies of the
sampled CYCA and MHYC members at the CYCA and MHYC offices located in Denver.
We performed all applicable testing procedures in the AUP program for each sampled
member.

                          CYCA                     MHYC                   SUCAP
                    Total    Sampled         Total    Sampled        Total    Sampled
     PY            Members Members          Members Members         Members Members
     2008-2009       180        7             101        7             0         0
     2009-2010       129        9              77        7             9         9
     ARRA            193        9             235       11             0         0
     Total           502       25             413       25             9         9


RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $260,021. A questioned cost is an alleged
violation of a provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards $73,660, accrued interest awards of $1,694, and
administrative fees of $2,017. Participants who successfully complete terms of service
under AmeriCorps grants are eligible for education awards and repayment of student loan
interest accrued during their service terms from the Corporation’s National Service Trust.
Grantees receiving Education Award program grants are eligible to receive a fixed
administrative fee for each eligible member enrolled. The fees are funded at the amount per
full-time equivalent member specified in the award. These amounts are not funded by
Corporation grants and thus are not included in claimed costs. As part of our AUP, and
using the same criteria as claimed costs, we determined the effect of our findings on
education and accrued interest award eligibility and the fixed administrative fees.

Detailed results of our AUPs on claimed costs are in Exhibit A and the supporting
schedules. Results of testing grant compliance are summarized in Exhibit B. We were not
engaged to and did not perform an examination, the objective of which would be expression
of an opinion on the subject matter. Accordingly, we do not express such an opinion. Had
we performed other procedures, other matters might have come to our attention that would
have been reported.




                                               6
This report is intended solely for the information and use of the OIG, Corporation, GCCS,
and U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.


COTTON & COMPANY LLP



Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                            7
                                                                                                        EXHIBIT A
                         COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE
                        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                        CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                    Federal Costs                        Questioned
                                                               Education   Admin                 Accrued
Grant No.              Awarded         Claimed      Questioned  Awards      Fees                 Interest     Schedule
06ACHCO001
   MHYC              $1,833,300      $1,318,932        $45,322       $12,311             $0         $110              A
   Others               793,799         601,245              0             0              0            0
Total                $2,627,099      $1,920,177        $45,322       $12,311             $0         $110
06AFHCO001
   MHYC               $422,513        $294,728         $20,216       $13,339             $0           $0              B
   SUCAP                258,062          69,635          1,914         4,725              0        1,043              D
   Others             7,108,609       2,446,145              0             0              0            0
Total                $7,789,184      $2,810,508        $22,130       $18,064             $0       $1,043
06ESHCO001
   CYCA                $100,000         $73,507              $0       $6,456          $810             $0             E
   Others                18,100          14,880               0            0             0              0
                                                1
Total                  $118,100         $88,387              $0       $6,456          $810             $0

09ACHCO001           $1,286,680        $185,224              $0            $0            $0            $0
09ESHCO001
   CYCA                  $86,370        $11,036              $0       $9,500        $1,207             $0             F
   Others                  5,988          1,872               0            0             0              0
                                                2
Total                    $92,358        $12,908              $0       $9,500        $1,207             $0
09RCHCO002
   MHYC                $832,831        $522,641        $17,966       $15,103             $0         $541              C
09RFHCO001
   CYCA                 $91,392         $68,746        $68,746       $12,226             $0            $0          G
   Others               422,681         373,490              0             0              0             0
Total                  $514,073        $442,236        $68,746       $12,226             $0            $0
07CAHCO001             $693,784        $380,859       $105,857             $0            $0            $0             H
08PTHCO001             $412,165        $265,628              $0            $0            $0            $0
10CAHCO001             $326,112        $128,106              $0            $0            $0            $0
10CDHCO001               $93,109        $14,212              $0            $0            $0            $0
Totals                                                $260,021       $73,660        $2,017        $1,694


     1
         This was the payment amount drawn down from the Department of Health and Human Services Payment
         Management System as of December 31, 2009. Subgrantees received a $400 administrative fee in PY 2006-
         2007 and a $600 administrative fee in PYs 2007-2008 and 2008-2009 for each eligible full-time member
         enrolled in the program and a prorated administrative fee for each eligible less than full-time member.
     2
         This was the payment amount drawn down from the Department of Health and Human Services Payment
         Management System as of September 30, 2010. Subgrantees received a $600 administrative fee in PY 2009-
         2010 for each eligible full-time member enrolled in the program and a prorated administrative fee for each
         eligible less than full-time member.
                                                             8
                                                                                SCHEDULE A

               COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                               MILE HIGH YOUTH CORPS
                              AMERICORPS COMPETITIVE
                              AWARD NO. 06ACHCO001

                                                                Amount         Notes
      Claimed Federal Costs Prior PYs                          $769,089
      Claimed Federal Costs PY 2008-2009                         549,843
      Total Claimed Federal Costs                             $1,318,932
      Questioned PY 2008-2009 Federal Costs:
        National Service Criminal History Checks                 $28,482          1
        Unallowable Labor Costs, Fundraising                       7,582          2
        Unallowable Member Unemployment Insurance                  7,895          3
        Subtotal                                                 $43,959
        Administrative Costs                                       1,363          4
        Total Questioned Federal Costs                           $45,322
      Questioned Education Awards:
        National Service Criminal History Checks                 $12,311          1
      Questioned Accrued Interest Awards                            $110          5


1. MHYC did not ensure that National Service Criminal History Checks conducted on
   members complied with AmeriCorps regulations. MHYC conducted checks on members
   assigned to its offices, but relied on its service locations to conduct checks for members
   assigned to those locations. MHYC and its service locations conducted these checks
   using third-party vendors, but did not ensure that these vendors checked the state
   criminal history databases recognized by the Corporation and the United States
   Department of Justice NSOPR.

   If a vendor does not search the recognized state criminal databases and NSOPR, a
   grantee or subgrantee is required to obtain an alternative search protocol from the
   Corporation to use the third-party vendor. Southwest Conservation Corps (SCC), the
   headquarters for MHYC’s SCCFC and SCCLV service locations submitted a request for
   an alternative search protocol to the Corporation. The Corporation denied this request.
   SCC submitted a second request, but the Corporation has not provided a final ruling on
   that request. MHYC’s remaining service locations did not submit alternative search
   protocol requests to the Corporation.

   Criteria

   45 Code of Federal Regulations (CFR) § 2540.202, What two search components of the
   National Service Criminal History Check must I satisfy to determine an individual’s
   suitability to serve in a covered position?, states:
                                              9
       Unless the Corporation approves an alternative screening protocol, in
       determining an individual’s suitability to serve in a covered position, you are
       responsible for conducting and documenting a National Service Criminal
       History Check, which consists of the following two search components:

       (a) State criminal registry search. A search (by name or fingerprint) of the
       State criminal registry for the State in which your program operates and the
       State in which the individual resides at the time of application; and

       (b) National Sex Offender Public Registry. A name -based search of the
       Department of Justice (DOJ) National Sex Offender Public Registry
       (NSOPR).

The Corporation’s National Service Criminal History Check Resource Center website
describes the requirements for conducting National Service Criminal History checks.
Specifically, Frequently Asked Questions, National Service Criminal History Checks,
Paragraph 11.1, I purchase criminal history checks from a vendor. Do I need to request
an alternative search protocol (ASP)?, states:

       You need an ASP to use a vendor that is not checking the designated
       statewide criminal history registries recognized by the Corporation. It is your
       responsibility to fully understand what checks your vendor conducts and what
       sources it uses for criminal history information. If you are using a vendor to
       perform the sex offender NSOPR search, the vendor must use
       www.nsopr.gov as its source. Review the vendor’s material in depth to
       identify which state registries the vendor uses and whether the vendor
       conducts statewide checks or something less than statewide (e.g. county-of-
       residence checks). If your vendor isn’t using the Corporation recognized
       registry, you will have to request approval of an ASP and explain why the
       results you obtain from the vendor are substantially equivalent or better than
       searching the registry database(s) recognized by the Corporation.

MHYC representatives stated that they believed they complied with Corporation
regulations for National Service Criminal History Checks because they underwent
annual site visits from GCCS which did not identify any instances of noncompliance.
Additionally, MHYC noted that GCCS’s report for its June 10, 2010 monitoring visit
stated that it had conducted an evaluation of MHYC’s program policies and procedures
regarding criminal background checks and found that all of MHYC’s member systems
and regulations for criminal background checks complied with Corporation and Federal
rules and regulations. MHYC representatives also stated that background check
requirements were not specifically addressed during the OIG’s ARRA financial
management systems review and fraud prevention training session, and during
Corporation-sponsored conferences. Finally, MHYC stated that, between September
2009 and July 2010, it had limited communications with GCCS regarding the Serve
America Act regulations.

In our original sample of members for this award, we found that five of seven sampled
PY 2008-2009 members had inadequate State Criminal History Checks and five of
seven sampled PY 2008-2009 members had inadequate NSOPR searches. After the
exit conference, MHYC provided copies of NSOPR searches it conducted in May 2011
                                          10
   on the five sampled PY 2008-2009 MHYC members whose original NSPOR searches
   were conducted using third-party vendors and did not comply with Corporation
   regulations. However, MHYC did not provide documentation demonstrating that the
   recognized state criminal registries were checked for these five members or that it had
   obtained approval from the Corporation to use the third-party vendors.

   We questioned member living allowance and benefits (member costs) and education
   awards of the five members without documentation demonstrating that recognized state
   criminal registries were checked. As described in the table below, we questioned
   member costs and education awards for five sampled PY 2008-2009 MHYC members
   (Member Nos. 2, 3, 5, 6, and 7). See Compliance Finding 4 (Exhibit B).

                               Inadequate          Questioned   Questioned
                             State Criminal         Member      Education
                PY           History Checks          Costs       Awards
                2008-2009           5                $28,482     $12,311

   GCCS’s Response: It did not concur with the questioned member costs and supports
   MHYC’s request for reconsideration of the questioned education awards. It stated that
   MHYC had demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed above, the National Service Criminal History
   Check is comprised of two components, a state criminal history search of the state
   criminal history databases recognized by the Corporation and NSOPR searches. After
   the exit conference, MHYC provided copies of NSOPR searches it conducted in May
   2011 on five sampled PY 2008-2009 MHYC members whose original National Service
   Criminal History Checks were conducted using third-party vendors and did not comply
   with Corporation regulations. While MHYC subsequently provided NSOPR searches it
   had conducted on five sampled PY 2008-2009 members with inadequate NSOPR
   searches, it did not provide documentation demonstrating that it had conducted criminal
   history checks using the state criminal databases recognized by the Corporation for the
   five members with inadequate state criminal history checks. Additionally, MHYC did not
   provide documentation that it had obtained Corporation approval of an ASP request to
   use the third-party vendors who conducted the criminal history checks for these
   members. The Corporation should disallow and recover the questioned member costs
   and education awards.

2. MHYC claimed salary costs and Federal Insurance Contributions Act taxes (personnel
   costs) for the portion of time its Development Associate spent performing fundraising
   activities. The Development Associate stated that she spent about 15 to 20 percent of
   her time on fundraising, but believed the fundraising was allowable, because it was for
   MHYC’s AmeriCorps program. MHYC representatives also stated that they believed
   these costs were allowable because the Development Associate position was an
   approved budget line item, and fundraising costs were not questioned during prior audits
   and GCCS monitoring visits. Staff funded with Corporation grants cannot fundraise even
   to support their AmeriCorps programs. We questioned $7,582 ($37,909 of claimed PY
   2008-2009 personnel costs for the Development Associate x 20 percent). See
   Compliance Findings 1 and 3 (Exhibit B).



                                              11
   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
   Selected Items of Cost, Paragraph 17, Fundraising and investment management costs,
   states that costs of organized fundraising, including financial campaigns, endowment
   drives, solicitation of gifts and bequests, and similar expenses incurred solely to raise
   capital or obtain contributions are unallowable.

   State of Colorado Governor’s Commission on Community Service Grant Agreement with
   Mile High Youth Corps (dated July 2008) paragraph XVI.s. Financial and Uniform
   Administrative Requirements states that contractors shall comply with Federal cost
   principles, statutory and administrative provisions, which may be found in the
   AmeriCorps provisions, and are provided to the contractor by the State.

   GCCS’s Response: It concurred that $7,582 of questioned costs were unallowable.

   Accountants’ Comments: The Corporation should recover the $7,582 of unallowable
   costs and related administrative costs. It should ensure that GCCS adjusts its FFR for
   these costs.

3. MHYC claimed $7,895 of unemployment insurance for its members but GCCS was
   unable to demonstrate that member unemployment insurance costs were required by
   Colorado state law. MHYC representatives stated that they followed internal procedures
   which they believed to be in compliance with state law and that these costs were
   approved by the Commission in its budget. We questioned $7,895 of Federal costs.
   See Compliance Findings 1 and 12 (Exhibit B).

   Criteria

   AmeriCorps State and National Policy Frequently Asked Questions, Paragraph C.63, Is
   an AmeriCorps member eligible for state unemployment insurance if he or she is
   released from service?, states:

              An AmeriCorps member’s eligibility for state unemployment insurance is a
              matter of state law that is determined on a state-by-state basis. AmeriCorps
              grantees should consult their own state unemployment agency to determine
              the eligibility of members in their state for unemployment insurance.
              Payment into unemployment systems is not an allowable cost unless required
              by state law.

   GCCS’s Response: It did not concur with these questioned costs. As discussed in its
   response to Compliance Finding 12, it will provide the Corporation with several
   documents related to member eligibility for unemployment insurance, including a copy of
   a letter from the Colorado Department of Labor and Employment that declares Colorado
   AmeriCorps members are eligible for unemployment insurance.

   Accountants’ Comments: The grantee did not provide us with a copy of the ruling it
   received from the Colorado Department of Labor and Employment about member
   eligibility for unemployment insurance. The Corporation should verify receipt of this
   ruling.
                                               12
4. MHYC claimed administrative costs of 3.1 percent in PY 2008-2009. Questioned costs
   in Notes 1 through 3 above resulted in $1,363 ($43,959 x 3.1 percent) of unallowable
   administrative costs in PY 2008-2009. See Compliance Finding 1 (Exhibit B).

   GCCS’s Response: It concurred that the $1,363 of administrative costs were
   unallowable.

   Accountants’ Comments: GCCS’s agreement that $1,363 of administrative costs were
   unallowable is inconsistent with its response to Note 1. The $1,363 of questioned
   administrative costs includes $883 ($28,482 x 3.1 percent) of administrative costs
   related to the questioned member costs in Note 1. The Corporation should calculate
   and seek to recover the appropriate amount of administrative costs related to disallowed
   costs. It should also ensure that GCCS adjusts its FFR for these costs.

5. The Corporation made accrued interest payments for student loans to one MHYC
   member whose education award was questioned in Note 1 above. We questioned
   accrued interest of $110 for one PY 2008-2009 member (Member No. 6). See
   Compliance Finding 4 (Exhibit B).

   Criteria

   45 CFR § 2529.10. Under what circumstances will the Corporation pay interest that
   accrues on qualified student loans during an individual's term of service in an approved
   AmeriCorps position or approved Silver Scholar position?, (a) Eligibility, states that the
   Corporation will pay interest that accrues on an individual’s qualified student loan only if
   the member successfully completes a term of service in an approved AmeriCorps
   position.

   GCCS’s Response: GCCS did not directly respond to the questioned accrued interest
   awards. However, as discussed in its response to Note 1 and Compliance Finding 4, it
   did not concur with the questioned member costs and supports MHYC’s request for
   reconsideration of the questioned education awards. It stated that MHYC had
   demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed in Note 1 and Compliance Finding 4, we do
   not agree with GCCS’s statement that MHYC had demonstrated compliance and
   necessary corrective action. The Corporation should disallow and recover the $110 of
   questioned accrued interest payments.




                                              13
                                                                                  SCHEDULE B

               COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                               MILE HIGH YOUTH CORPS
                                AMERICORPS FORMULA
                              AWARD NO. 06AFHCO001

                                                               PY2009-2010       Notes
      Claimed Federal Costs                                     $294,728
      Questioned Federal Costs:
        National Service Criminal History Checks                  $17,355          1
        Unallowable Labor Costs, Fundraising                        2,562          2
        Subtotal                                                  $19,917
        Administrative Costs                                          299          3
        Total Questioned Federal Costs                            $20,216
      Questioned Education Awards:
        National Service Criminal History Checks                  $10,976          1
        Timekeeping Discrepancies and Unsigned Timesheet                0          4
        Unsigned Timesheets and Math Error                         $2,363          5
        Total Questioned Education Awards                         $13,339


1. MHYC did not ensure that National Service Criminal History Checks conducted on
   members complied with AmeriCorps regulations. MHYC conducted checks on members
   assigned to its offices, but relied on its service locations to conduct checks for members
   assigned to those locations. MHYC and its service locations conducted these checks
   using third-party vendors, but did not ensure that these vendors checked the state
   criminal history databases recognized by the Corporation and NSOPR.

   If a vendor does not search the recognized state criminal databases and NSOPR, a
   grantee or subgrantee is required to obtain an alternative search protocol from the
   Corporation to use the third-party vendor. SCC, the headquarters for two of MYHC’s
   service locations, submitted an alternative search protocol to the Corporation. The
   Corporation denied SCC's first alternative request and has not provided a final ruling on
   its second request. MHYC’s remaining service locations did not submit alternative
   search protocol requests to the Corporation.

   Criteria

   45 CFR § 2540.202 What two search components of the National Service Criminal
   History Check must I satisfy to determine an individual’s suitability to serve in a covered
   position?, requires grantees to conduct state criminal history checks and NSOPR
   searches, unless the Corporation approves an alternative screening protocol. See
   Schedule A, Note 1 for the complete criteria.

   MHYC representatives stated that they believed they complied with Corporation
   regulations for National Service Criminal History Checks because they received annual
                                              14
   site visits from GCCS, which did not identify any instances of noncompliance. MHYC
   representatives also stated that background check requirements were not specifically
   addressed during the OIG’s ARRA financial management systems review and fraud
    prevention training session, and during Corporation sponsored conferences. Finally,
   MHYC stated that between September 2009 and July 2010, it had limited
   communications with GCCS regarding the Serve America Act regulations.

   In our original sample of members for this award, we found that seven of seven sampled
   PY 2009-2010 members had inadequate state criminal history checks and six of seven
   sampled PY 2009-2010 members had inadequate NSOPR searches. After the exit
   conference, MHYC provided copies of NSOPR searches it conducted in May 2011 on
   the six sampled PY 2009-2010 MHYC members (Member Nos. 16-19, 20, and 23)
   whose NSOPRs were conducted using third party vendors and did not comply with
   Corporation regulations. However, MHYC only provided copies of the NSOPRs and did
   not provide documentation demonstrating that the recognized state criminal registries
   were checked for the seven members with inadequate state criminal history checks or
   that it had obtained approval from the Corporation to use the third party vendors.

   We questioned member costs and education awards of members without documentation
   demonstrating that recognized state criminal registries were checked. As described in
   the table below, we questioned member costs and education awards for 7 sampled PY
   2009-2010 MHYC members (Member Nos. 16-20 and 22-23). See Compliance Finding
   4 (Exhibit B).

                              Inadequate          Questioned   Questioned
                            State Criminal         Member      Education
               PY           History Checks          Costs       Awards
               2009-2010           7               $17,355      $10,976

   GCCS’s Response: GCCS did not concur with the questioned member costs and
   supports MHYC request for reconsideration of the questioned education awards. It
   stated that MHYC had demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed above, the National Service Criminal History
   Check is comprised of two components, a state criminal history search of the state
   criminal history databases recognized by the Corporation and NSOPR searches. While
   MHYC subsequently provided NSOPR searches it had conducted on six sampled PY
   2009-2010 members with inadequate NSOPR searches, it did not provide
   documentation demonstrating that it had conducted criminal history checks using the
   state criminal databases recognized by the Corporation for the seven members with
   inadequate state criminal history checks. Additionally, MHYC did not provide
   documentation that it had obtained Corporation approval of an ASP request to use the
   third party vendors who conducted the criminal history checks for these members. The
   Corporation should disallow and recover the questioned member costs and education
   awards.

2. MHYC claimed personnel costs for the portion of time the Development Associate spent
   performing fundraising activities. The Development Associate stated that she spent
   about 15 to 20 percent of her time on fundraising, but believed the fundraising was
   allowable, because it was for MHYC’s AmeriCorps program. MHYC representatives
   also stated that they believed these costs were allowable because the Development
                                             15
   Associate Position was an approved budget line item; fundraising costs were not
   questioned during prior audits and GCCS monitoring visits. Staff funded by Corporation
   grants cannot fundraise even to support their AmeriCorps programs. We questioned
   $2,562 ($12,810 of claimed PY 2009-2010 personnel costs for the Development
   Associate x 20 percent). See Compliance Findings 1 and 3 (Exhibit B).

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
   Selected Items of Cost, Paragraph 17. Fundraising and investment management costs,
   See Schedule A, Note 2, for the complete criteria.

   State of Colorado Governor’s Commission on Community Service Grant Agreements
   with Mile High Youth Corps (December 30, 2009) Paragraph 21. Colorado Special
   Provisions states grantees shall comply with all applicable Federal, State law, rules, and
   regulations in effect.

   GCCS’s Response: GCCS concurred that $2,562 of questioned costs were
   unallowable.

   Accountants’ Comments: The Corporation should recover the $2,562 of unallowable
   costs and related administrative costs. It should also ensure that GCCS adjusts its FFR
   for these costs.

3. MHYC claimed administrative costs of 1.5 percent in PY 2009-2010. Questioned costs
   Notes 1 through 2 resulted in $299 ($19,917 x 1.5 percent) of unallowable administrative
   costs in PY 2009-2010. See Compliance Finding 1 (Exhibit B).

   GCCS’s Response: It concurred that the $299 of administrative costs were unallowable.

   Accountants’ Comments: GCCS’s agreement that $299 of administrative costs were
   unallowable is inconsistent with its response to Note 1. The $299 of questioned
   administrative costs includes $260 ($17,355 x 1.5 percent) of administrative costs
   related to the questioned member costs in Note 1. The Corporation should calculate
   and seek to recover the appropriate amount of administrative costs related to disallowed
   costs.

4. Timesheet hours for one sampled PY 2009-2010 member who was exited in October
   2010 did not agree with hours certified in the Portal and did not support the member’s
   eligibility for an education award. Hours certified in the Portal were 937, but the
   member’s timesheets supported 842 hours. Representatives from the member’s service
   location, SCCFC, stated that this difference was due an error it discovered in January
   2011, as it was preparing copies of the member’s file for our review.

   SCCFC attempted to qualify the member for an education award by adding 74 hours of
   previously unrecorded service for member travel to the member’s June through October
   2010 timesheets. The addition of these hours would have increased total timesheet
   hours to 916 hours and qualified the member for an education award. SCCFC
   considered these hours allowable, and stated that they were not originally recorded on
   the member’s timesheets, because the member and the member's supervisor were
   unaware of all activities that could be counted as service. We did not include these
                                             16
hours in our calculation of total service hours, because the member had not certified
them. We also deducted 38 hours from the member’s August 21-27, 2010, timesheet
because the member did not sign the timesheet.

After excluding the 74 hours added to the member‘s timesheets and deducting the 38
hours from the unsigned timesheet, the remaining hours were insufficient to qualify the
member for an education award. The education award for this member is already
questioned in Note 1 above. See Compliance Finding 7 (Exhibit B).

                                      Timesheet Hours                      Questioned
                  Member                                        Hours      Education
     PY            No.        Total     Unsigned   Adjusted    Required     Awards
     2009-2010      22         842         38        804         900         Note 1

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
Subsection C.4., Timekeeping, requires grantees to keep time-and-attendance records
for all AmeriCorps members to document their eligibility for in-service and post-service
benefits. Time-and-attendance records must be signed and dated by both the member
and an individual who supervises the member.

According to 45 CFR § 2522.220 (a) (2) Part-time service, for a part time member to be
eligible for an education award they must complete a term of service of at least 900
hours.

AmeriCorps requirements address policy, but do not address specific timesheet
procedures. It is, however, good business practice to check the accuracy of hours
recorded on timesheets.

MHYC did not have procedures to verify the member activities or timesheet accuracy.
Without procedures to verify member activities or timesheet accuracy, the potential
exists that members may perform prohibited activities or may receive education awards
to which they are not entitled. See Compliance Finding 7 (Exhibit B).

GCCS’s Response: GCCS did not provide a specific response. As discussed in
GCCS’s response to Compliance Finding 7, it stated that MHYC had stated that two of
the four members whose education awards were questioned in Schedule B, Notes 4 and
5, and Schedule C, Note 5, earned enough hours to be eligible for his or her education
award. MHYC’s service locations confirmed that the members completed the
questioned hours. Supporting documentation will be sent to the Corporation for
verification.

Accountants’ Comments: GCCS did not identify which two members earned enough
hours to be eligible for his or her education award and did not provide us with copies of
the documentation that will be sent to the Corporation. The Corporation should verify
the receipt of this information and should determine if it is sufficient to support the
members’ eligibility for the education awards. Additionally, the Corporation should
disallow and, if already used, recover education awards made to the two members who
did not earn enough hours to be eligible.

                                          17
5. We reviewed three crew timesheets (showing time for all members assigned to a work
   crew) for one sampled PY 2009-2010 MHYC member, and none were signed by the
   member (Member No. 20). The member did not sign the August 22-28, August 28-
   September 4, and September 5-11, 2010, crew timesheets. While reviewing these
   timesheets, we noted that one non-sampled PY 2009-2010 member also did not sign
   these timesheets (Member No. 21). We deducted service hours reported on the
   timesheets for both the sampled and non-sampled PY 2009-2010 members whose
   timesheets were missing member signatures.

   In addition, we noted a math error on the August 8-14, 2010, timesheet of the sampled
   PY 2009-2010 member (Member No. 20). The member’s timesheet showed a weekly
   total of 51 hours, but the member only served 11 hours during the week. After deducting
   hours from unsigned timesheets and the math error, the remaining hours did not qualify
   the members for education awards.

   MHYC did not have procedures to verify the member activities or timesheet accuracy.
   AmeriCorps requirements address policy, but do not address specific timesheet
   procedures. It is, however, good business practice to check the accuracy of hours
   recorded on timesheets.

   Without procedures to verify member activities or timesheet accuracy, the potential
   exists that members may perform prohibited activities or may receive education awards
   to which they are not entitled. We questioned the education award of $2,363 for
   Member No. 21. The education award for Member No. 20 is already questioned in Note
   1 above. See Compliance Finding 7 (Exhibit B).

                                     Timesheet Hours                          Questioned
                    Member            Unsigned/                   Hours       Education
       PY            No.       Total  Math Error Adjusted        Required      Awards
       2009-2010      20         907    186          721           900          Note 1
       2009-2010      21       1,015    142          873           900          $2,363
       Total                                                                    $2,363


   Criteria

   2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection C.4.,Timekeeping , requires grantees to keep time-and-attendance records
   for all AmeriCorps members to document their eligibility for in-service and post-service
   benefits. Time-and-attendance records must be signed and dated by both the member
   and an individual who supervises the member.

   According to 45 CFR § 2522.220 (a) (2), Part-time service, for a part time member to be
   eligible for an education award they must complete a term of service of at least 900
   hours.

   GCCS’s Response: GCCS did not provide a specific response. As discussed in
   GCCS’s response to Compliance Finding 7, it stated that MHYC had stated that two of
   the four members whose education awards were questioned in Schedule B Notes 4 and
   5 and Schedule C Note 5 earned enough hours to be eligible for his or her education
   award. MHYC’s service locations confirmed that the members completed the
                                            18
questioned hours. Supporting documentation will be sent to the Corporation for
verification.

Accountants’ Comments: GCCS did not identify which two members earned enough
hours to be eligible for his or her education award and did not provide copies of the
documentation that will be sent to the Corporation. The Corporation should verify the
receipt of this information and should determine if the documentation is sufficient to
support the members’ eligibility for the education awards. Additionally, the Corporation
should disallow and, if already used, recover education awards made to the two
members who did not earn enough hours to be eligible for education awards.




                                          19
                                                                                  SCHEDULE C

               COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                MILE HIGH YOUTH CORPS
                       AMERICAN RECOVERY AND REINVESTMENT ACT
                                     COMPETITIVE
                              AWARD NO. 09RCHCO002

                                                                 ARRA           Notes
       Claimed Federal Costs                                    $522,641
       Questioned Federal Costs:
         National Service Criminal History Searches               $15,073         1
         Unallowable Labor Costs, Fundraising                       1,959         2
         Over Claimed Living Allowance                                210         3
         Subtotal                                                 $17,242
         Administrative Costs                                         724         4
         Total Questioned Federal Costs                           $17,966
       Questioned Education Awards:
         National Service Criminal History Checks                 $12,740         1
         Unsigned Timesheets                                        2,363         5
         Total Questioned Education Awards                        $15,103
       Questioned Accrued Interest Awards                           $541          6


1. MHYC did not ensure that National Service Criminal History Checks conducted on
   members complied with AmeriCorps regulations. MHYC conducted checks on members
   assigned to its offices, but relied on its service locations to conduct checks for the
   members assigned to those locations. MHYC and its service locations conducted these
   checks using third-party vendors, but did not ensure that these vendors checked the
   state criminal history databases recognized by the Corporation and NSOPR. MHYC and
   its service locations were unaware of the Corporation’s requirements for vendor criminal
   history checks.

   If a vendor does not search the recognized state criminal databases and NSOPR, a
   grantee or subgrantee is required to obtain an alternative search protocol from the
   Corporation to use the third-party vendor. SCC, the headquarters for two of MHYC’s
   service locations, submitted an alternative search protocol to the Corporation. The
   Corporation denied SCC's first alternative request and has not provided a final ruling on
   its second request. MHYC’s remaining service locations did not submit alternative
   search protocol requests to the Corporation.

   Criteria

   45 CFR § 2540.202 What two search components of the National Service Criminal
   History Check must I satisfy to determine an individual’s suitability to serve in a covered
   position?, requires grantees to conduct state criminal history checks and NSOPR

                                              20
   searches, unless the Corporation approves an alternative screening protocol. See
   Schedule A, Note 1 for the complete criteria.

   MHYC representatives stated that they believed they complied with Corporation
   regulations for National Service Criminal History Checks because it received annual site
   visits from GCCS and GCCS did not identify any instances of noncompliance. MHYC
   representatives also stated that background check requirements were not specifically
   addressed during the OIG’s ARRA financial management systems review and fraud
   prevention training session, and during Corporation sponsored conferences. Finally,
   MHYC stated that between September 2009 and July 2010, it had limited
   communications with GCCS regarding the Serve America Act regulations.

   In our original sample of members for this award, we found that 10 of 11 sampled ARRA
   members had inadequate state criminal history checks and 8 of 11 sampled members
   had inadequate NSOPR searches. After the exit conference, MHYC provided copies of
   NSOPR searches it conducted in May 2011 on eight sampled ARRA MHYC members
   (Member Nos. 33-37, 43, and 54) whose original NSOPRs were conduct using third-
   party vendors and did not comply with Corporation regulations. However, MHYC only
   provided copies of the NSOPRs and did not provide documentation demonstrating that
   the recognized state criminal registries were checked for the ten members with
   inadequate state criminal history checks or that it had obtained approval from the
   Corporation to use the third party vendors.

   We questioned member costs and education awards of members without documentation
   demonstrating that the recognized state criminal registries were checked. As described
   in the table below, we questioned the member costs and education awards for 10
   sampled ARRA MHYC members (Member Nos. 33-38, 40, 42-43, and 54).See
   Compliance Finding 4 (Exhibit B).

                               Inadequate          Questioned   Questioned
                             State Criminal         Member      Education
               Program       History Checks          Costs       Awards
               ARRA                10               $15,073      $12,740

   GCCS’s Response: GCCS did not concur with the questioned member costs and
   supports MHYC request for reconsideration of the questioned education awards. It
   stated that MHYC had demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed above, the National Service Criminal History
   Check is comprised of two components, a state criminal history search of the state
   criminal history databases recognized by the Corporation and NSOPR searches. While
   MHYC subsequently provided NSOPR searches it had conducted on the eight sample
   members with inadequate NSOPR searches, it did not provide documentation
   demonstrating that it had conducted criminal history checks using the state criminal
   databases recognized by the Corporation for the 10 members with inadequate state
   criminal history checks. Additionally, MHYC did not provide documentation that it had
   obtained Corporation approval of an ASP request to use the third-party vendors who
   conducted the criminal history checks for these members.

2. MHYC claimed personnel costs for the portion of time the Development Associate spent
   performing fundraising activities. The Development Associate stated that she spent
                                              21
   about 15 to 20 percent of her time on fundraising, but believed the fundraising was
   allowable, because it was for MHYC’s AmeriCorps program. MHYC representatives
   also stated that they believed these costs were allowable because the Development
   Associate Position was an approved budget line item; fundraising costs were not
   questioned during prior audits and GCCS monitoring visits. Staff employees funded by
   Corporation grants cannot fundraise even for their AmeriCorps programs. We
   questioned $1,959 of salary and benefits ($9,796 of claimed ARRA personnel costs for
   the Development Associate x 20 percent). See Compliance Findings 1 and 3 (Exhibit
   B).

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B,
   Selected Items of Cost, Paragraph 17, Fundraising and Investment Management Costs ,
   See Schedule A, Note 2, for the complete criteria.

   State of Colorado Governor’s Commission on Community Service Grant Agreements
   with Mile High Youth Corps (dated May 29, 2009) Paragraph 21. Colorado Special
   Provisions states grantees shall comply with all applicable Federal, State law, rules, and
   regulations in effect.

   GCCS’s Response: GCCS concurred that $1,959 of questioned costs were
   unallowable.

   Accountants’ Comments: The Corporation should recover the $1,959 of unallowable
   costs and related administrative costs. It should also ensure that GCCS adjusts its FFR
   for these costs.

3. MHYC claimed Federal living allowance costs of $1,824 ($2,280 x 80 percent Federal
   share) for one MHYC ARRA member. The member actually received $1,629 ($2,036 x
   80 percent Federal share). MHYC claimed the budgeted amount of $2,280, but the
   member was only paid $2,036. We questioned $210 of member costs ($195 living
   allowance and $15 benefits). See Compliance Finding 11 (Exhibit B).

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A General
   Principles, Paragraph 2.1.g., Factors affecting allowability of costs, states that costs
   must be adequately documented.

   2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection F.1, Living Allowance Distribution, states that a program must not pay a
   living allowance on an hourly basis.

   GCCS’s Response: GCCS concurred that $210 of questioned costs were unallowable.
   As discussed in Compliance Finding 11, it has taken steps to ensure its programs are in
   full compliance with AmeriCorps provisions for living allowance and it will send
   verification of its corrective actions to the Corporation.



                                             22
   Accountants’ Comments: The Corporation should recover the $210 of unallowable
   costs and related administrative costs. It should also ensure that GCCS adjusts its FFR
   for these costs.

4. MHYC claimed administrative costs of 4.2 percent. Questioned costs in Notes 1 through
   3 above resulted in $724 ($17,242 x 4.2 percent) of unallowable administrative costs.
   See Compliance Finding 1 (Exhibit B).

   GCCS’s Response: It concurred that the $724 of administrative costs were unallowable.

   Accountants’ Comments: GCCS’s agreement that $724 of administrative costs were
   unallowable is inconsistent with its response to Note 1. The $724 of questioned
   administrative costs includes $633 ($15,073 x 4.2 percent) of administrative costs
   related to the questioned member costs in Note 1. The Corporation should calculate
   and seek to recover the appropriate amount of administrative costs related to disallowed
   costs.

5. We reviewed three crew timesheets (showing time for all members assigned to a work
   crew) for one sampled PY 2009-2010 MHYC member (Schedule B, Note 5) for August
   22-28, August 28-September 4, and September 5-11, 2010. While reviewing these
   timesheets, we noted that one non-sampled member (Member No. 41) assigned to
   Award No. 09RCHCO002 also did not sign these timesheets. We deducted service
   hours reported on the timesheets for a non-sampled PY 2009-2010 member whose
   timesheets were missing member signatures. After deducting hours from unsigned
   timesheets, the remaining hours did not qualify the member for education awards.

   MHYC did not have procedures to verify the member activities or timesheet accuracy.
   AmeriCorps requirements address policy, but do not address specific timesheet
   procedures. It is, however, good business practice to check the accuracy of hours
   recorded on timesheets.

   Without procedures to verify member activities or timesheet accuracy, the potential exists
   that members may perform prohibited activities or may receive education awards to which
   they are not entitled. We questioned the education award of $2,363 for Member No. 41.
   See Compliance Finding 7 (Exhibit B).

                                       Timesheet Hours                        Questioned
                    Member                                        Hours       Education
       Program       No.       Total    Unsigned    Adjusted     Required       Award
       ARRA           41        906      146           760         900          $2,363


   Criteria

   2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection C.4., Timekeeping, requires grantees to keep time-and-attendance records
   for all AmeriCorps members to document their eligibility for in-service and post-service
   benefits. Time-and-attendance records must be signed and dated by both the member
   and an individual who supervises the member.



                                             23
   According to 45 CFR § 2522.220 (a) (2), Part-time service, for a part time member to be
   eligible for an education award they must complete a term of service of at least 900
   hours.

   GCCS’s Response: GCCS did not provide a specific response. As discussed in
   GCCS’s response to Compliance Finding 7, it stated that MHYC had stated that two of
   the four members whose education awards were questioned in Schedule B, Notes 4 and
   5, and Schedule C, Note 5, earned enough hours to be eligible for his or her education
   award. MHYC’s service locations confirmed that the members completed the
   questioned hours. Supporting documentation will be sent to the Corporation for
   verification.

   Accountants’ Comments: GCCS did not identify which two members earned enough
   hours to be eligible for his or her education award and did not provide copies of the
   documentation that will be sent to the Corporation. The Corporation should verify the
   receipt of this information and should determine if the documentation is sufficient to
   support the members’ eligibility for the education awards. Additionally, the Corporation
   should disallow and, if already used, recover education awards made to the two
   members who did not earn enough hours to be eligible for education awards.

6. The Corporation made accrued interest payments for student loans to two MHYC
   members whose education awards were questioned in Note 1 above. As described in
   the table below, we questioned accrued interest for two members. See Compliance
   Finding 4 (Exhibit B).

                           Member     Accrued Interest        Reason for
              Program       No.         Questioned        Questioned Payments
              ARRA           33            $180                  Note 1
              ARRA           40             361                  Note 1

   Criteria

   45 CFR § 2529.10 Under what circumstances will the Corporation pay interest that
   accrues on qualified student loans during an individual's term of service in an approved
   AmeriCorps position or approved Silver Scholar position?, (a) Eligibility, states that the
   Corporation will pay interest that accrues on an individual’s qualified student loan only if
   the member successfully completes a term of service in an approved AmeriCorps
   position.

   GCCS’s Response: GCCS did not directly respond to the questioned accrued interest
   awards. However, as discussed in its response to Note 1 and Compliance Finding 4, it
   did not concur with the questioned member support costs and supports MHYC request
   for reconsideration of the questioned education awards. It stated that MHYC had
   demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed in Note 1 and Compliance Finding 4, we do
   not agree with GCCS’s statement that MHYC had demonstrated compliance and
   necessary corrective action. The Corporation should disallow and recover the
   questioned accrued interest payments.


                                              24
                                                                                SCHEDULE D

               COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                      SOUTHERN UTE COMMUNITY ACTION PROGRAMS
                                AMERICORPS FORMULA
                              AWARD NO. 06AFHCO001

                                                            PY 2009-2010       Notes
       Claimed Federal Costs                                   $69,635
       Questioned Federal Costs:
         Unsupported Costs                                        $1,406         1
         Improper Living Allowance Payments                          417         2
         Subtotal                                                 $1,823
         Administrative Costs                                         91         3
         Total Questioned Federal Costs                           $1,914
       Questioned Education Awards:
         Member Activities                                        $4,725         4
       Questioned Accrued Interest Awards                         $1,043         5



1. SUCAP claimed $1,406 of Federal costs not supported by its general ledger. SUCAP
   claimed total Federal costs of $69,635 on its August 2010 reimbursement request, but
   its’ accounting system supported $68,229 of Federal costs. In January 2011, as SUCAP
   was preparing for our site visit, it identified errors with these reimbursement requests
   and resubmitted them to GCCS. After these revisions, SUCAP’s accounting system
   supported Federal costs claimed.

              Description                              Original     Revised
              Federal cost reimbursement requests     $69,635       $68,222
              Federal cost accounting system           68,229        68,229
              Difference                               $1,406           $(7)

   On January 28, 20011, after this issue was initially discussed with SUCAP and GCCS
   representatives, SUCAP remitted a check to GCCS for the $1,406 of unsupported costs.
   We questioned the $1,406 of unsupported costs because SUCAP’s revisions were made
   after the AUP review period for costs and because GCCS did not demonstrate that it had
   adjusted its FFR for the unallowable costs. See Compliance Finding 2 (Exhibit B).

   Criteria

   According to 45 CFR § 2543.21, Standards for financial management systems,
   Subsection (b), recipient financial management systems must provide for accurate,
   current, and complete disclosure of financial results of each Federally-sponsored
   program.

   GCCS’s Response: GCCS did not concur with this issue and questioned costs.
                                              25
   Accountants’ Comments: The $1,406 of unsupported costs was questioned because
   GCCS did not demonstrate that it had adjusted its FFR for the unallowable costs. The
   claimed cost of $69,635 on Exhibit A is overstated by $1,406. The Corporation should
   verify that GCCS has made the necessary corrections. Further, this issue remains a
   compliance finding because these corrections were not made because of a new SUCAP
   procedure; the corrections were only identified during a review conducted to prepare for
   our visit.

2. SUCAP provided catch-up living allowance payments totaling $417 to (Member No. 55).
   This member received a biweekly living allowance of $342 paid over 18 pay periods;
   however the other half time member at SUCAP received a biweekly living allowance of $283
   paid over 22 pay periods. SUCAP stated that living allowance amounts were determined by
   dividing the gross living allowance by the estimated periods it would take members to
   complete the program. In addition, SUCAP was aware that living allowance could not be
   paid on an hourly basis but were not aware that the incremental living allowance could not
   be increased. We questioned $417. See Compliance Findings 1 and 11 (Exhibit B).

   Criteria

   2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection F.1, Living Allowance Distribution:, states:

              Grantees must not pay a living allowance on an hourly basis. Grantees
              should pay the living allowance in regular increments, such as weekly or bi-
              weekly, paying an increased increment only on the basis of increased living
              expenses such as food, housing, or transportation. Payments should not
              fluctuate based on the number of hours served in a particular time period…if
              a member is selected after the program’s start date, the grantee must provide
              regular living allowance payments from the member’s start date and may not
              increase the member’s living allowance incremental payment or provide a
              lump sum to make up any missed payments.

   GCCS’s Response: It concurred that the $417 of living allowance costs were
   unallowable. As discussed in Compliance Finding 11, it has taken steps to ensure its
   programs are in full compliance with AmeriCorps provisions for living allowance and it
   will send verification of its corrective actions to the Corporation.

   Accountants’ Comments: The Corporation should recover the $417 of unallowable
   costs. It should also ensure that GCCS adjusts its FFR for these costs.

3. SUCAP claimed administrative costs of 5 percent in PY 2009-2010. Questioned costs in
   Notes 1 and 2 resulted in $91($1,823 x 5 percent) of unallowable administrative costs in PY
   2009-2010. See Compliance Finding 1 (Exhibit B).

   GCCS’s Response: It concurred that the $91 of administrative costs were unallowable.

   Accountants’ Comments: The Corporation should recover the $91 of unallowable
   costs. It should also ensure that GCCS adjusts its FFR for these costs.


                                               26
4. One PY 2009-2010 member recorded service hours for activities unrelated to the
   member position. In September 2010, SUCAP and GCCS approved this member’s
   request to telecommute from her home in Wisconsin to complete her remaining service
   hours. According to an e-mail provided by SUCAP summarizing a conversation between
   the member and a GCCS staff member, the member was unable to complete her service
   assignment in Ignacio, Colorado, because her living allowance ended in mid-November,
   but she was not expected complete her service hours until December 31.

   The gap between the end of the member’s living allowance and completion of hours
   occurred because the member had several illnesses throughout the year and had fallen
   behind on her hours. GCCS stated in an e-mail to SUCAP that one complication of the
   telecommuting arrangement would be no onsite supervision. Therefore, GCCS
   recommended that the member keep detailed activity logs with her timesheets.

   We reviewed the member’s November and December 2010 timesheets and activity logs.
   The member recorded service hours for activities unrelated to her AmeriCorps position.
   According to SUCAP’s program application narrative, the member‘s position was to
   develop a capital campaign to build a new Head Start facility. SUCAP stated in its
   application that this position was not a fundraising position, but one that set the
   groundwork for a capital campaign.

   According to the member’s timesheets and activity logs, she spent the majority of her
   time searching and applying for jobs, attending job interviews, reading books on job
   interviews and time management, and other activities unrelated to her position
   description. Despite these facts, her service site supervisor and the AmeriCorps
   program coordinator approved the member’s timesheets.

   At least 173 timesheet hours were unrelated to the member’s position. Of these, 149
   were related to job searches and submitting job applications. The remaining 24 hours
   were for researching zoos and preparing for job interviews at zoos. Because the
   member listed multiple activities on some days, we were unable to calculate an exact
   number of unrelated hours. We deducted these hours from total hours certified in the
   Portal for this member. After deducting these hours, the remaining hours did not qualify
   the member for an education award. We questioned the member’s education award of
   $4,725. See Compliance Finding 6 (Exhibit B).

                                        Timesheet Hours                           Questioned
                     Member                                          Hours        Education
    PY                No.       Total     Deducted     Adjusted     Required        Award
    2009-2010          15       1,700      173          1,527        1,700          $4,725

   Criteria

   45 CFR § 2520.25, What direct service activities may AmeriCorps members perform?,
   states:

              (a) The AmeriCorps members you support under your grant may perform
              direct service activities that will advance the goals of your program, that will
              result in a specific identifiable service or improvement that otherwise would
              not be provided, and that are included in, or consistent with, your
              Corporation-approved grant application.
                                                  27
              (b) Your members' direct service activities must address local environmental,
              educational, public safety (including disaster preparedness and response), or
              other human needs.

              (c) Direct service activities generally refer to activities that
              provide a direct, measurable benefit to an individual, a group, or a
              community.

   GCCS’s Response: As discussed in its response to Compliance Finding 6, GCCS
   concurred with this finding but did not comment on the recommendations regarding the
   member’s education award.

   Accountants’ Comments: The Corporation should disallow and if already used,
   recover the education award made to this member.

5. The Corporation made accrued interest payments for student loans to the one SUCAP
   member whose education award was questioned in Note 4 above.

   Criteria

   45 CFR § 2529.10 Under what circumstances will the Corporation pay interest that
   accrues on qualified student loans during an individual's term of service in an approved
   AmeriCorps position or approved Silver Scholar position?, (a), states that the
   Corporation will pay interest that accrues on an individual’s qualified student loan only if
   the member successfully completes a term of service in an approved AmeriCorps
   position.

   As described in the table below, we questioned accrued interest for one member. See
   Compliance Finding 6 (Exhibit B).

                             Member     Accrued Interest        Reason for
                   PY         No.         Questioned        Questioned Payments
                2009-2010      15           $1,043            Non service hours

   GCCS’s Response: As discussed in its response to Compliance Finding 6, GCCS
   concurred with this finding but did not comment on the recommendations regarding the
   member’s accrued interest award.

   Accountants’ Comments: The Corporation should disallow and recover the $1,043 of
   questioned accrued interest payments.




                                                 28
                                                                                    SCHEDULE E

                 COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                              SCHEDULE OF QUESTIONED COSTS
                            COLORADO YOUTH CORPS ASSOCIATION
                           AMERICORPS EDUCATION AWARD PROGRAM
                                 AWARD NO. 06ESHCO001

                                                                PY 2008-2009      Notes
         Claimed Administrative Fees                               $73,507

         Questioned Administrative Fees                                $810         1

         Questioned Education Awards:
            National Service Criminal History Checks                 $6,456         1
            Unsigned timesheets                                           0         2
         Total Questioned Education Awards                           $6,456


1.   CYCA did not ensure that National Service Criminal History Checks conducted on
     members complied with AmeriCorps regulations. CYCA relied on its service locations to
     conduct checks for the CYCA members assigned to those service locations. Its service
     locations conducted these checks using third-party vendors, but did not ensure that
     these vendors checked the state criminal history databases recognized by the
     Corporation and NSOPR.

     If a vendor does not search the recognized state criminal databases and NSOPR, a
     grantee or subgrantee is required to obtain an alternative search protocol from the
     Corporation to use the third-party vendor. SCC, the headquarters for two of CYCA’s
     service locations, submitted an alternative search protocol to the Corporation. The
     Corporation denied SCC's first alternative request and has not provided a final ruling on
     its second alternative request. CYCA’s remaining service locations did not submit
     alternative search protocol requests to the Corporation.

     Criteria

     45 CFR § 2540.202 What two search components of the National Service Criminal
     History Check must I satisfy to determine an individual’s suitability to serve in a covered
     position?, requires grantees to conduct state criminal history checks and NSOPR
     searches, unless the Corporation approves an alternative screening protocol. See
     Schedule A, Note 1 for the complete criteria.

     We questioned education awards and administrative fees for six sampled PY 2008-2009
     members (Member Nos. 8-13) without documentation demonstrating that the recognized
     state criminal and NSOPR registries were checked.




                                                 29
                              Inadequate           Inadequate       Questioned        Questioned
                            Criminal History         NSOPR          Education        Administrative
            PY                  Checks              Searches         Awards             Fees
                                                                                             3
            2008-2009              6                    5             $6,456            $810

      CYCA representatives stated that these members were not required to have National
      Service Criminal History checks because they did not have recurring access to
      vulnerable populations. However, we continue to question the members’ education
      awards and related administrative fees because the members’ service locations had
      vulnerable populations and CYCA did not provide documentation to demonstrate that
      the members did not have recurring access to these vulnerable populations. See
      Compliance Finding 4 (Exhibit B).

      GCCS’s Response: GCCS supports CYCA’s request for reconsideration of the
      questioned education awards and administrative fees. It stated that CYCA had
      demonstrated compliance and necessary corrective action.

      Accountants’ Comments: As discussed above, the members’ education awards and
      related administrative fees were questioned because the members’ service locations
      had vulnerable populations and CYCA did not provide documentation to demonstrate
      that the members did not have recurring access to these vulnerable populations. The
      Corporation should disallow and recover the questioned member education awards and
      related administrative fees.

2. Some timesheets for two sampled PY 2008-2009 members were unsigned. CYCA and
   its service locations had inadequate procedures to ensure that members signed all
   timesheets. We deducted service hours from the timesheets that were missing member
   signatures. After deducting these hours, the remaining hours did not support minimum
   hours required for education award eligibility. We questioned education awards of
   $2,250 for these two members in Note 1 above. See Compliance Finding 7 (Exhibit B).

                                              Timesheet Hours                Hours         Questioned
                        Member                                              Required       Education
         PY              No.          Total    Deducted       Adjusted     For Award         Award
         2008-2009        11           320        40            280           300            Note 1
         2008-2009        13           497        59            438           450            Note 1

      Criteria

      2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
      Subsection C.4. Timekeeping, requires grantees to keep time-and-attendance records
      for all AmeriCorps members to document their eligibility for in-service and post-service
      benefits. Time-and-attendance records must be signed and dated by both the member
      and an individual who supervises the member.
3
    CYCA received a $600 fixed administrative fee for each eligible full-time member enrolled in its program.
    Questioned administrative fees of $360 for the three minimum time members were calculated by multiplying
    $600 by a full time equivalent of 0.2 specified in the application instructions (3 x $600 x 0.2=$360).
    Questioned administrative fees of $450 for three quarter time members were calculated by multiplying $600 by
    a full time equivalent of 0.25 specified in the application instructions (3 x $600 x 0.25=$450).

                                                        30
GCCS’s Response: As discussed in Compliance Finding 7, GCCS concurred there
were weaknesses in how timesheets were prepared and submitted. It did not comment
on the questioned education awards for these two members.

Accountants’ Comments: The Corporation should disallow, and if already used,
recover the education awards for these members.




                                      31
                                                                                  SCHEDULE F

               COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                            SCHEDULE OF QUESTIONED COSTS
                          COLORADO YOUTH CORPS ASSOCIATION
                         AMERICORPS EDUCATION AWARD PROGRAM
                               AWARD NO. 09ESHCO001

                                                              PY 2009-2010      Notes
       Claimed Administrative Fees                               $73,507

       Questioned Administrative Fees                              $1,207         1

       Questioned Education Awards:
          National Service Criminal History Checks                 $9,500         1
          Unsigned Timesheets                                           0         2
       Total Questioned Education Awards                           $9,500


1. CYCA did not ensure that National Service Criminal History Checks conducted on
   members complied with AmeriCorps regulations. CYCA relied on its service locations to
   conduct checks for the CYCA members assigned to those service locations. Its service
   locations conducted these checks using third-party vendors, but did not ensure that
   these vendors checked the state criminal history databases recognized by the
   Corporation and NSOPR.

   If a vendor does not search the recognized state criminal databases and NSOPR, a
   grantee or subgrantee is required to obtain an alternative search protocol from the
   Corporation to use the third-party vendor. SCC, the headquarters for two of CYCA’s
   service locations, submitted an alternative search protocol to the Corporation. The
   Corporation denied SCC's first alternative request and has not provided a final ruling on
   its second alternative request. CYCA’s remaining service locations did not submit
   alternative search protocol requests to the Corporation.

   Criteria

   45 CFR § 2540.202 What two search components of the National Service Criminal
   History Check must I satisfy to determine an individual’s suitability to serve in a covered
   position?, requires grantees to conduct state criminal history checks and NSOPR
   searches, unless the Corporation approves an alternative screening protocol. See
   Schedule A, Note 1 for the complete criteria.

   We questioned education awards and administrative fees for the members without
   documentation demonstrating that the recognized state criminal and NSOPR registries
   were checked. As described in the table below, we questioned the education awards
   and administrative fees for nine sampled PY 2009-2010 CYCA members (Member Nos.
   24-32). See Compliance Finding 4 (Exhibit B).



                                               32
                               Inadequate           Inadequate       Questioned        Questioned
                             Criminal History         NSOPR          Education        Administrative
             PY                  Checks              Searches         Awards              Fees
                                                                                               4
             2009-2010              9                    7             $9,500           $1,207

       GCCS’s Response: GCCS supports CYCA’s request for reconsideration of the
       questioned education awards and administrative fees. It stated that CYCA had
       demonstrated compliance and necessary corrective action.

       Accountants’ Comments: As discussed above, the members’ education awards and
       related administrative fees were questioned because the members’ service locations
       had vulnerable populations and CYCA did not provide documentation to demonstrate
       that the members did not have recurring access to these vulnerable populations. The
       Corporation should disallow and recover the questioned member education awards and
       related administrative fees.

2. Some timesheets for one sampled PY 2009-2010 member were unsigned. CYCA and
   its service locations had inadequate procedures to ensure that members signed all
   timesheets. We deducted service hours from the timesheets that were missing member
   signatures. After deducting these hours, the remaining hours did not support minimum
   hours required for education award eligibility. The education award for this member is
   already questioned in Note 1 above. See Compliance Finding 7 (Exhibit B).

                                              Timesheet Hours                 Hours         Questioned
                         Member                                              Required       Education
         PY               No.         Total     Deducted      Adjusted      For Award         Award
         2009-2010         32          352        145           207            300            Note 1

       Criteria

       2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
       Subsection C.4., Timekeeping, requires grantees to keep time-and-attendance records
       for all AmeriCorps members to document their eligibility for in-service and post-service
       benefits. Time-and-attendance records must be signed and dated by both the member
       and an individual who supervises the member.

       GCCS’s Response: As discussed in Compliance Finding 7, GCCS concurred there
       were weaknesses in how timesheets were prepared and submitted. It did not comment
       on the questioned education awards for these two members.

       Accountants’ Comments: The Corporation should disallow, and if already used,
       recover the education awards for these members.

4
    CYCA received a $600 fixed administrative fee for each eligible full-time member enrolled in its program.
    Questioned administrative fees of $889 for the seven minimum time members were calculated by multiplying
    $600 by the minimum time member weighted average specified in the application instructions (7 x $600 x
    0.2117=$889). Questioned administrative fees of $318 for two quarter time members were calculated by
    multiplying $600 by the quarter time weighted average specified in the application instructions (2 x $600 x
    0.2646=$318)..
                                                        33
                                                                               SCHEDULE G

                 COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                           COLORADO YOUTH CORPS ASSOCIATION
                         AMERICAN RECOVERY AND REINVESTMENT ACT
                                        FORMULA
                                AWARD NO. 09RFHCO001

                                                                ARRA          Notes
       Claimed Federal Costs                                    $68,746
       Questioned Federal Costs:
         Financial Management System                            $68,746         1
       Questioned Education Awards:
         National Service Criminal History Checks               $11,226         2
          Missing Criminal History Check                          1,000         3
          Unsigned Member Timesheet                                   0         4
          Total Questioned Education Awards                     $12,226


1. CYCA did not account for costs claimed under this award in accordance with
   AmeriCorps regulations and State of Colorado requirements. When requested to
   provide an accounting report supporting expenses claimed under this award, CYCA
   provided a report from its automated accounting system. This report showed expenses
   as administrative, fundraising, and program, but it did not distinguish between expenses
   attributable and not attributable to this grant, including the other four Federal awards
   shown on its 2009 Single Audit report. CYCA’s Executive Director stated that a unique
   account code was not established for this award in CYCA’s accounting system, because
   CYCA normally received fixed-amount awards, and the ARRA award was a one-time
   award.

   To support costs claimed under this award, CYCA also provided copies of spreadsheets
   that summarized costs reported on CYCA’s reimbursement requests submitted to
   GCCS. We could not, however, reconcile these spreadsheets back to the accounting
   reports provided. Because CYCA’s accounting system did not support claimed costs,
   we questioned all $68,746 of Federal costs claimed for this award. See Compliance
   Finding 1 and 2 (Exhibit B).

   Criteria

   State of Colorado Governor’s Commission on Community Service Grant Agreement with
   Colorado Youth Corps Association, Paragraph 21, Section G, Segregation of Costs,
   states:

              Contractor shall segregate obligations and expenditures of ARRA funds from
              other funding. No part of funds made available under the American Recovery
              and Reinvestment Act of 2009, Pub. L. 111-5, may be comingled with any


                                              34
              other funds or used for a purpose other than that of making payments for
              costs allowable under the ARRA.

   2009 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection B.,
   Financial Management Standards, further states:

              The grantee must maintain financial management systems that include
              standard accounting practices, sufficient internal controls, a clear audit trail,
              and written cost allocation procedures, as necessary. Financial management
              systems must be capable of distinguishing expenditures attributable to this
              grant from expenditures not attributable to this grant. The systems must be
              able to identify costs by programmatic year and by budget category and to
              differentiate between direct and indirect costs or administrative costs.

   GCCS’s Response: As discussed in its response to Compliance Finding 2, GCCS
   concurred that CYCA did not adequately account for its costs under this award but did
   not concur with the questioned costs. CYCA provided GCCS with alternative supporting
   documentation for the claimed costs. The supporting documentation for these costs
   included timesheets, spreadsheets, receipts, and other supporting documentation. It will
   send this documentation for verification.

   Accountants’ Comments: The Corporation should ensure that the documentation
   provided to support CYCA’s claimed costs under this award is allowable, adequately
   documented, and allocable.

2. CYCA did not ensure that National Service Criminal History Checks conducted on
   members complied with AmeriCorps regulations. CYCA relied on its service locations to
   conduct checks for the CYCA members assigned to those service locations. Its service
   locations conducted these checks using third-party vendors, but did not ensure that
   these vendors checked the state criminal history databases recognized by the
   Corporation and NSOPR.

   If a vendor does not search the recognized state criminal databases and NSOPR, a
   grantee or subgrantee is required to obtain an alternative search protocol from the
   Corporation to use the third-party vendor. SCC, the headquarters for two of CYCA’s
   service locations, submitted an alternative search protocol to the Corporation. The
   Corporation denied SCC's first alternative request and has not provided a final ruling on
   its second alternative request. CYCA’s remaining service locations did not submit
   alternative search protocol requests to the Corporation.

   Criteria

   45 CFR § 2540.202 What two search components of the National Service Criminal
   History Check must I satisfy to determine an individual’s suitability to serve in a covered
   position?, requires grantees to conduct state criminal history checks and NSOPR
   searches, unless the Corporation approves an alternative screening protocol. See
   Schedule A, Note 1 for the complete criteria.

   We questioned education awards for the members without documentation demonstrating
   that the recognized state criminal and NSOPR registries were checked. As described in

                                                 35
   the table below, we questioned the education awards for eight sampled PY 2009-2010
   CYCA members (Member Nos. 44-47 and 49-52).


                                Inadequate        Inadequate    Questioned
                              Criminal History      NSOPR       Education
                 Program          Checks           Searches       Awards
                 ARRA                8                 6         $11,226

   CYCA representatives stated that one ARRA member was not required to have National
   Service Criminal History checks because the member did not have recurring access to
   vulnerable populations. However, we continue to question the members’ education
   awards and related administrative fees because the member’s service locations had
   vulnerable populations and CYCA did not provide documentation to demonstrate that the
   member did not have recurring access to these vulnerable populations. See
   Compliance Finding 4 (Exhibit B).

   GCCS’s Response: GCCS supports CYCA’s request for reconsideration of the
   questioned education awards and administrative fees. It stated that CYCA had
   demonstrated compliance and necessary corrective action.

   Accountants’ Comments: As discussed above, the members’ education awards and
   related administrative fees were questioned because the members’ service locations
   had vulnerable populations and CYCA did not provide documentation to demonstrate
   that the members did not have recurring access to these vulnerable populations. The
   Corporation should disallow and recover the questioned member education awards and
   related administrative fees.

3. CYCA did not demonstrate that a criminal history check was conducted for one sampled
   ARRA member. The member signed an authorization form allowing the service location
   to conduct the check, but the member’s file did not contain documentation to
   demonstrate that a check was conducted. CYCA stated that this member’s service
   location required the member to undergo criminal history and national sex offender
   searches, but this member was not subject to Corporation requirements because the
   member did not have recurring access to vulnerable populations and was enrolled prior
   to the October 1, 2009, effective date requiring National Service Criminal History checks
   for all members. We questioned the education award of $1,000 for the member
   (Member No. 48) because the member’s service location had vulnerable populations
   and CYCA did not provide documentation to demonstrate that the member did not have
   recurring access to these vulnerable populations. See Compliance Finding 5 (Exhibit B).

   Criteria

   45 CFR § 2540.200, To whom must I apply suitability criteria relating to criminal history?,
   Requires suitability criteria to be applied to individuals applying for or serving in a
   covered position (member or grant-funded employee) and involving access to vulnerable
   populations (children, persons age 60 and older, or individuals with disabilities) on or
   after November 23, 2007.

   45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR
   check on an individual in a covered position?, states that criminal registry checks are to
                                             36
   be conducted on individuals who enrolled or were hired by the program after November
   23, 2007.

   45 CFR § 2540.205, What documentation must I maintain regarding a National Service
   Criminal History Check for a covered position?, requires grantees to maintain results of
   checks unless prohibited by state law and to document in writing that results were
   considered when selecting members for the program.

   GCCS’s Response: As discussed in Compliance Finding 5, GCCS concurred with this
   finding but did not comment on the questioned education award for this member.

   Accountants’ Comments: The Corporation should disallow, and if already used,
   recover the education awards for this member.

4. Some timesheets for two sampled ARRA members were unsigned. CYCA and its
   service locations had inadequate procedures to ensure that members signed all
   timesheets. We deducted service hours from the timesheets that were missing member
   signatures. After deducting these hours, the remaining hours did not support minimum
   hours required for education award eligibility. The education awards for these two
   members are included in questioned education awards in Note 2 above. See
   Compliance Finding 7 (Exhibit B).

                                     Timesheet Hours           Hours       Questioned
                  Member                                      Required     Education
     Program       No.       Total    Deducted    Adjusted   For Award       Award
     ARRA           49        350       120         230         300          Note 2
     ARRA           50        307       119         188         300          Note 2

   Criteria

   2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection C.4, Timekeeping. requires grantees to keep time-and-attendance records
   for all AmeriCorps members to document their eligibility for in-service and post-service
   benefits. Time-and-attendance records must be signed and dated by both the member
   and an individual who supervises the member.

   GCCS’s Response: As discussed in Compliance Finding 7, GCCS concurred there
   were weaknesses in how timesheets were prepared and submitted. It did not comment
   on the questioned education awards for these two members.

   Accountants’ Comments: The Corporation should disallow, and if already used,
   recover the education awards for these members.




                                             37
                                                                               SCHEDULE H

             COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE

                    SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          STATE ADMINISTRATIVE AWARD
                            AWARD NO. 07CAHCO001


                                                                   Amount         Notes
Claimed Federal Costs Prior Years                                  $288,866
Claimed Federal Costs in AUP Period                                 380,859
Claimed Federal Costs for Award                                    $669,725
Claimed Match Costs for Award                                      $897,810
Total Claimed Project Cost (Federal and Match)                    $1,567,535
Less Questioned Match Costs:
   Unallowable match Public Service Announcements                  $326,020         1
   Unsupported consultant services                                      500         2
   Unsupported labor and supplies, VISTA sites                       59,213         3
   Unsupported labor costs, legal and accounting services            33,000         4
   Unsupported labor costs and accounting services                    5,330         5
   Unsupported labor costs, Lt. Governor (CYs 2007-2008)              9,828         6
   Unsupported labor costs, Lt. Governor (CY 2009)                    5,909         7
Subtotal                                                           $439,800
Net Allowable Total Costs                                         $1,127,735
Eligible Federal Costs ($1,127,735 x 50%)                            563,868
Claimed Federal Costs                                                669,725
Questioned Federal Costs                                           $105,857         8



1.    GCCS claimed amounts as match for in-kind radio Public Service Announcements
     (PSAs) created, paid for, and delivered to radio and television stations by the
     Corporation, as follows:

        $184,716 for PSAs played on radio stations in Colorado from January through
         December 2009 for a Martin Luther King Day service event.

        $141,304 for PSAs played on television stations throughout Colorado and for the
         Heros campaign.

     GCCS did not include PSA costs in its approved grant budget and did not obtain a
     budget change or match waiver from its Corporation Grants Officer to claim these
     costs. Further, documentation provided by GCCS indicated the PSAs were
     produced and delivered directly to the radio and television stations by the
     Corporation. GCCS did not provide any documentation to show that it contacted the
     radio and televisions stations and requested that they air the PSAs.

                                            38
   Criteria

   2009 Provisions for State Administrative, Program Development and Training, and
   Disability Placement Grants, Section D.5.c, Approvals of Programmatic and Budget
   Changes, states that the Corporation’s Grants Officers are the only officials who
   have authority to change grant requirements. Grants Officers execute written
   amendments or changes to the grant, and grantees should not assume approvals
   unless documentation from the Corporation’s Grants Office has been received.

   Corporation’s Frequently Asked Questions Using Public Service Announcements as
   Match, Question 5. Sometimes the Corporation produces and distributes PSAs and
   they are placed on stations in my area. Can I include the value of the airtime for
   those PSAs on my grant?, states grantees can generally not claim the value of
   airtime as match if the PSA were aired at the Corporation’s request. However, if the
   grantees have contacted the local stations requesting that they play the PSAs, the
   grantee may count the value of airtime as match.

   According to GCCS representatives, they claimed these costs when GCCS had
   difficulty raising matching funds as the result of economic downturn and because it
   does not receive State of Colorado funds. GCCS relies almost exclusively on in-kind
   support to achieve the required match. In March 2010, it submitted a match waiver
   request to the Corporation for its 2010 administrative grant, requesting Corporation
   approval to claim PSAs as match on its 2010 award. The Corporation approved
   GCCS’s request. This approval did not, however, cover its prior state administrative
   award. We questioned $326,020 of unallowable match costs. GCCS
   representatives also stated that they had contacted the radio and televisions stations
   requesting that they play the PSAs, but that they were still looking for the
   documentation. See Compliance Finding 3 (Exhibit B).

2. GCCS claimed $500 of consulting services for an individual who assisted in a
   Community Needs Assessment on June 13, 2008. This expense was supported on
   GCCS’s Receipt Voucher for In-Kind Contributions form. This form was signed by
   the contributor who provided the consulting services, but was not dated and showed
   an estimated $500 in-kind contribution value. The form indicated that this
   contribution was for travel and consultation services, but no documentation was
   provided to show how the $500 was derived or how much of the contribution was for
   consulting services or travel costs. We questioned $500 of unsupported costs. See
   Compliance Finding 3 (Exhibit B).

   Criteria

   45 CFR § 2541.240 (a)(7)(C)(1), Volunteer services, states that unpaid services
   provided to a grantee by individuals will be valued at rates consistent with those
   ordinarily paid for similar work in the grantee’s organization. If the grantee does not
   have employees performing similar work, the rates are to be consistent with those
   ordinarily paid by other employers for similar work in the same labor market.

   Further, 45 CFR § 2541.240 (a)(7)(C)(2),Employees of other organizations, states
   that when an employer other than the grantee or cost-type contractor furnishes free
                                          39
   services for an employee in the employee’s normal line of work, the services will be
   valued at the employee’s regular rate of pay exclusive of the employee’s fringe
   benefits and overhead costs. If the services are in different line of work, they are to
   be valued in accordance with the above paragraph.

3. GCCS claimed $59,213 of match labor and operating costs (rent, computer, copy
   machine, fax machine, telephone, printer, office supplies, and travel) from its VISTA
   sites. The labor costs were for supervising AmeriCorps VISTA members, and the
   operating costs were to maintain Colorado VISTA programs for Calendar Year 2009.
   These costs were included in GCCS’s approved budget and were supported by
   GCCS’s Receipt Voucher for In-Kind Contributions forms. The forms were signed,
   but not dated, by VISTA site supervisors.

   Spreadsheets summarizing amounts claimed accompanied these forms. GCCS did
   not, however, obtain supervisor timesheets, documentation supporting the value of
   supervisor labor costs, and invoices for operating costs, because it was unaware that
   it needed to obtain this documentation.

   Criteria

   45 CFR § 2541.240, (b)(6), Records, states that costs and third-party in-kind
   contributions used to meet a cost-sharing or matching requirements must be
   verifiable from grantee records. These records must show how the value placed on
   third-party in-kind contributions was derived. Further, to the extent feasible,
   volunteer services must be supported by the same methods that the organization
   uses to support the allocability of regular personnel costs.

   We questioned $59,213 of unsupported costs. See Compliance Finding 3 (Exhibit
   B).

4. GCCS claimed $33,000 of match labor from the State of Colorado Department of
   Personnel and Administration for Calendar Year 2008. These costs were supported
   by GCCS’s Receipt Voucher for In-Kind Contributions form, which was signed, but
   not dated, by the Controller of the Colorado Department of Administration. A
   spreadsheet dated January 18, 2011, which summarized the amount of labor costs
   by division, accompanied the form. It showed labor costs of $1,838 for legal services
   to review contracts and legal information and labor costs of $31,162 for accounting
   services provided to GCCS. The spreadsheet also identified the names of
   employees whose labor costs were claimed, estimates of hours and percentage
   worked by each employee, as well as their annual and hourly salaries. Timesheets
   to support these costs were not provided. GCCS stated that it had only recently
   become aware of the requirement to keep timesheets.

   Criteria

   45 CFR § 2541.240 (b)(6), Records. states that costs and third-party in-kind
   contributions used to meet a cost-sharing or matching requirement must be verifiable
   from the grantee records.



                                          40
   45 CFR § 2541.200 (b)(6) Source documentation, states that accounting records
   must be supported by source documentation, such as payrolls and time-and-
   attendance records.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B, Selected items of Cost, paragraph, 8.h., Support of salaries and
   wages, requires salary distributions based on personnel activity reports for
   employees working on multiple activities. These must be signed by each employee
   and account for all time worked.

   We questioned $33,000 of unsupported costs. See Compliance Finding 3 (Exhibit
   B).

5. GCCS claimed $5,330 of match labor costs provided from the State of Colorado
   Governor’s Office in Calendar Year 2007. These costs were supported by GCCS’s
   Receipt Voucher for In-Kind Contributions form. A spreadsheet summarized the
   amount of labor costs accompanied the form and showed the following:

      $2,000 for processing payment vouchers and grant maintenance,
      $1,650 for processing payroll, benefits support, and leave tracking,
      $1,680 for grant review, grant processing, spending authority maintenance, and
       voucher approval.

   The spreadsheet also identified the names of the employees whose labor costs were
   claimed, estimated percentage, and annual salaries. Timesheets for these
   employees were not provided.

   Criteria

   The criteria in Note 4 above apply:

      45 CFR § 2541.240 (b)(6) Records.
      45 CFR § 2541.200 (b)(6) Source Documentation.
      OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
       Governments, Attachment B, Selected Items of Cost, paragraph, 8.h. support of
       salaries and wages.

   We questioned $5,330 of unsupported costs. See Compliance Finding 3 (Exhibit B).

6. GCCS claimed $9,828 of match labor costs for the Lt. Governor’s participation at
   events in Calendar Years 2007 and 2008. These costs were supported by GCCS’s
   Receipt Voucher for In-Kind Contributions form signed and dated by the Lt.
   Governor. A spreadsheet summarizing the amount of labor costs and an hourly rate
   also accompanied the form. The spreadsheet showed the following:

      20 hours for Colorado Cares Day participation and oversight,
      39 hours for direct GCCS participation and activities, including the October,
       Service Conference, AmeriCorps launch, certificates, letters, and
       acknowledgements,
      40 hours for meetings with the chief of staff regarding GCCS’s budget, oversight,
       and planning.
                                         41
       Timesheets to support these hours were not provided.

       Criteria

       The criteria in Note 4 above apply:

          45 CFR § 2541.240 (b)(6) ) Records,
          45 CFR § 2541.200 (b)(6) Source Documentation,
          OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
           Governments, Attachment B, paragraph, 8.h. Support of salaries and wages.

       We questioned $9,828 of unsupported costs. See Compliance Finding 3 (Exhibit B).

    7. GCCS claimed $5,909 of match labor costs for the Lt. Governor’s participation at
       events in Calendar Year 2009. These costs were supported by GCCS’s Receipt
       Voucher for In-Kind Contributions form signed but not dated by the Lt. Governor. A
       note on the form described the activities performed, number of hours, and an hourly
       rate, as follows:

          18 hours for Colorado Cares Day participation and oversight,
          41 hours for direct GCCS participation and activities,
          40 hours for meetings with the chief of staff regarding GCCS budget, oversight,
           and planning.

       Timesheets to support these hours were not provided.

       Criteria

       The criteria in Note 4 above apply:

          45 CFR § 2541.240 (b)(6) Records,
          45 CFR § 2541.200 (b)(6) Source Documentation,
          OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
           Governments, Attachment B, paragraph, 8.h. Support of salaries and wages

       We questioned $5,909 of unsupported costs. See Compliance Finding 3 (Exhibit B).

    8. We deducted questioned match costs from total project costs to arrive at net
       allowable costs. We then calculated eligible Federal costs by multiplying net
       allowable costs by the 50-percent Federal share for state administrative awards.
       Finally, we deducted eligible Federal costs from claimed Federal costs. We
       questioned $105,857 of unallowable Federal costs.

       Criteria

       2009 Provisions for State Administrative, Program Development, and Training, and
       Disability Placement Grants, Section D, Subsection 8, Match Requirements for State
       Administrative Grants states the Federal share will not exceed 50 percent of such
       costs in the fifth year or any subsequent year of operation of the Commission.
,
                                             42
GCCS’s Response to Notes 1 through 8: GCCS did not concur with this finding.
As discussed in its response to compliance Finding 3, it believes it has adequate
alternative match documentation to support the questioned Federal and match costs
and to demonstrate compliance.

Accountants’ Comments on Notes 1 through 8: The Corporation should ensure
that the documentation provided to support GCCS’s claimed Federal and match
costs under this award is allowable, adequately documented, and allocable.




                                    43
                                                                                     EXHIBIT B

                 COLORADO GOVERNOR’S COMMISSION ON COMMUNITY SERVICE
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                                 COMPLIANCE RESULTS

Our AUPs identified the compliance findings described below.

Finding 1.      GCCS and three subgrantees claimed unallowable and unsupported
                costs.

Notes to Schedules A-H describe questioned costs of $260,021, which are summarized on
Exhibit A. A questioned cost is an alleged violation of provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure of
funds or a finding that, at the time of testing, such cost was not supported by adequate
documentation.

Recommendations: We recommend that the Corporation:

   1a.       Calculate and seek to recover the appropriate amount of disallowed costs based
             on our questioned Federal costs;

   1b.       Calculate and seek to recover administrative costs related to the disallowed
             costs; and

   1c.       Require GCCS to adjust its FFRs for the disallowed costs.

GCCS’s Response: In many cases, GCCS concurs with the findings, and in several
instances, it believes that that adequate documentation exists to support the questioned costs
and to demonstrate compliance. Its’ detailed comments and corrective action steps are
summarized in the notes to Schedules A-H and summarized in the related findings.

Accountants’ Comments: We continue to make the recommendations stated above. Our
comments are summarized in the notes to Schedules A-H and summarized in the related
findings.

Finding 2.      GCCS, subgrantee, and subgrantee service location financial management
                systems did not account for costs in accordance with Federal and state
                requirements.

As described below, GCCS, CYCA, MHYC, and SUCAP did not adequately account for and
report Federal and match costs.

CYCA and SUCAP Federal Costs

         CYCA

As discussed in Schedule G, CYCA did not account for costs claimed under Award No.
09RFHCO001 in accordance with AmeriCorps regulations and State of Colorado
requirements. To support costs claimed under this award, CYCA provided accounting
reports and spreadsheets that summarized costs reported on the CYCA’s reimbursement
                                               44
requests submitted to GCCS. We could not, however, reconcile the spreadsheets back to
the accounting reports provided.

When requested to provide an accounting report supporting expenses claimed under this
award, CYCA provided a report from its automated accounting system. The report showed
expenses as administrative, fundraising, and program, but it did not distinguish between
expenses attributable to this grant and those not attributable, including four other Federal
awards that were identified in its 2009 Single Audit report. CYCA’s Executive Director
stated that a unique account code was not established in its automated accounting system
for Award No. 09RFHCO001, because it normally received fixed-amount awards and the
ARRA award was a one-time award.

Using the spreadsheets subsequently provided by CYCA, we sampled personnel costs
claimed by CYCA on its October 2009 reimbursement request. CYCA over-claimed
personnel costs for its Executive Director for the October 1-15, 2009 pay period. It claimed
80 percent of the Executive Director’s personnel costs, but the director’s timesheet
supported a 49 percent share. CYCA’s Executive Director stated that this difference was
due to an error.

As discussed in Schedule G, because CYCA’s accounting system did support claimed
costs, we questioned all $68,746 of Federal costs claimed for this award.

Criteria

45 CFR § 2543.21, Standards for financial management systems, Subsection (b), Recipient
financial management systems, states that grantees must provide accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

2009 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection B. Financial
Management Standards further states that grantees must maintain financial management
systems that include standard accounting practices, sufficient internal controls, a clear audit
trail, and written cost allocation procedures, as necessary. Financial management systems
must be capable of distinguishing expenditures attributable to and not attributable to a grant.

State of Colorado Governor’s Commission on Community Service Grant Agreement with
Colorado Youth Corps Association, Paragraph 21.G., Segregation of Costs, states:

           Contractor shall segregate obligations and expenditures of ARRA funds from
           other funding. No part of funds made available under the American Recovery
           and Reinvestment Act of 2009, Pub. L. 111-5, may be comingled with any other
           funds or used for a purpose other than that of making payments for costs
           allowable under the ARRA.

           SUCAP

SUCAP’s November 2009 through August 2010 reimbursements were included in the AUP
review period. During this period, SUCAP claimed $1,406 of Federal costs that were not
supported by its general ledger. SUCAP claimed total Federal costs of $69,635 on its
August 2010 reimbursement request but its accounting system supported $68,229 of
Federal costs. In January 2011, as SUCAP was preparing for our site visit, it identified
errors with these reimbursement requests and resubmitted them to GCCS. As described in
                                               45
the following table, after these revisions, SUCAP’s accounting system supported Federal
costs claimed on the reimbursement requests.

              Description                             Original      Revised
              Federal costs reimbursement requests    $69,635       $68,222
              Federal costs accounting system          68,229       $68,229
              Difference                               $1,406            $(7)

As discussed in Schedule D, on January 28, 2011, SUCAP remitted a check to GCCS for
the $1,406 of unsupported costs. We questioned the $1,406 of unsupported costs because
SUCAP’s revisions were made after the AUP review period for costs and because these
costs are included in the $69,635 of claimed costs on Exhibit A. In addition, GCCS did not
demonstrate that it had adjusted its FFR for the unallowable costs.

Criteria

45 CFR § 2543.21, Standards for financial management systems, subsection (b), Recipient
financial management systems, states that grantees must provide accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

MHYC Federal and Match Costs

           MHYC

MHYC used a spreadsheet to account for its Federal and match costs as well as those of its
service locations. It reported costs on separate spreadsheet tabs for each service site, and all
spreadsheets were consolidated into one spreadsheet. MHYC referred to this spreadsheet as
its consolidated billings spreadsheet, and it was the basis for reimbursement requests submitted
to the GCCS.

 We reconciled Federal and match costs shown on the billing spreadsheet to reimbursement
requests submitted to GCCS. We identified some variances in Federal staff travel, member
travel, staff training, and member training categories on the ARRA award (Award No.
09RCHCO002), but these differences netted out to zero. We identified a $12,698 difference in
match costs shown on the billing spreadsheet and the June 2010 reimbursement request
submitted to GCCS. The billings spreadsheet supported match costs of $1,013,614, but MHYC
reported match costs of $1,026,312 to GCCS. MHYC attributed this difference to estimates.
We did not identify any differences in Federal and match costs for the other two awards.

We reconciled Federal costs from the billing spreadsheet to MHYC’s automated accounting
system. For the ARRA award, MHYC’s June 2010 reimbursement was the last reimbursement
request in the AUP review period. As shown in the table below, we calculated a $16,287
variance between MHYC automated accounting system and the billing spreadsheet:




                                              46
                                                        Automated
                                         Billing        Accounting
         Description                  Spreadsheet         System         Variances
         Personnel Fringe Benefits        $8,293           $7,724            $569
         Living Allowance               131,404           121,904           9,500
         Member Benefits                  18,523           12,305           6,218
         Total                         $158,220          $141,933         $16,287


MHYC stated that variances were caused by estimates, and that the numbers would reconcile
at the end of its calendar year when all quarterly and final adjustments had been made. We
reviewed its year-end numbers and verified that these differences had been resolved.

We then attempted to reconcile Federal member costs reported on the billing spreadsheet for
MHYC’s service locations to supporting accounting records. MHYC claimed $852,231 of
Federal and match member costs on its three awards during the AUP period, as shown below:

                                                   Federal and
                               Award No.           Match Costs
                               06ACHCO001           $335,144
                               09RCHCO002            316,481
                               06AFHCO001            200,606
                               Total                $852,231


MHYC’s supporting documentation for these costs was a spreadsheet that showed members
start dates, end dates, and budgeted living allowance amount and the Federal percentage used
to calculate Federal cost. Match costs were determined by multiplying total member costs by
the match percentage. Because MHYC’s billings were based on a budget estimate, we
requested that MHYC request its service locations to provide reports from their accounting
systems that show actual living allowance and member benefit costs. MHYC stated that it could
not provide this documentation, because service location accounting systems were not set up to
accommodate this. However, we noted while reviewing documentation supporting MHYC’s
June 2009 reimbursement request that it had obtained a payroll report from SCC showing actual
amounts paid to members in June 2009.

As an alternative procedure, we reviewed W-2 forms for the sampled members to determine if
claimed living allowance costs were reasonable. Most of the members received a living
allowance in excess of the amounts claimed by MHYC. Therefore, it appeared that the living
allowance costs claimed by MHYC were not overstated.

We also noted that some Federal costs claimed in June 2010 were coded to other MHYC
programs and were not identified as expenses for the AmeriCorps program. MHYC
representatives stated that its personnel were often not aware of the funding source of the
projects to which they were assigned, and that its finance office determines the final allocation
of costs.

We attempted to reconcile match costs to MHYC’s accounting system. MHYC identifies some
expenditures as AmeriCorps match costs but does not have an account for AmeriCorps match
costs in its accounting system. In addition, we identified weakness in how MHYC accounted for
match costs, as described below:


                                              47
          MHYC accumulates personnel match costs for over 20 employees using spreadsheets.
           During the AUP period, it claimed $949,322 of personnel match costs. It calculated
           salary costs by multiplying the bi-weekly salary amount by an effort percentage. Before
           Calendar Year 2010, effort percentages used to calculate $731,065 of personnel match
           costs were based on budgeted percentages, even though MHYC’s contract with GCCS
           required it to maintain timesheets. MHYC began using timesheets in Calendar Year
           2010, after it was informed by the OIG during its ARRA audit and in an OIG report dated
           June 30, 2010, that timesheets were required to support match salaries.

           We identified one instance, however, in which MHYC billed more personnel costs than
           were supported by an employee’s timesheet. In June 2010, MHYC claimed 60 percent
           of an employee’s salary on the ARRA award, but the employee’s timesheet supported
           58 percent. MHYC based the 60-percent figure used to allocate the employee’s salary
           on a percentage of AmeriCorps members supervised. MHYC did not consider this
           difference material.

          MHYC calculated its program operating match costs by first printing monthly profit-and-
           loss statements from its automated accounting system for its energy and land
           conservation programs. Next, it summed expenses from certain cost categories to arrive
           at a total amount of supplies, training, travel, and other program operating costs. Finally,
           it calculated the AmeriCorps portion of the expenses by multiplying these by the
           percentage of AmeriCorps members (AmeriCorps members/total members) who were
           assigned to the projects. We identified one instance in which MHYC claimed an
           expense as a Federal expense and included it in the calculation of match costs. MHYC
           stated that this was an error.

Criteria

2009 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection B. Financial
Management Standards states that grantees must maintain financial management systems
that include standard accounting practices, sufficient internal controls, a clear audit trail, and
written cost allocation procedures, as necessary. Financial management systems must be
capable of distinguishing expenditures attributable to and not attributable to a grant.

State of Colorado Governor’s Commission on Community Service Grant Agreement with
Mile High Youth Corps (dated July 2008) paragraph XVI.v., Required Financial
Documentation, states:

           All costs charged to the contract must be documented. For example, the
           Contractor must maintain signed time and attendance records for each and every
           individual employee and payroll documents approved by the Contractor’s
           Program Manager or other Contractor designated official, as approved by the
           State. Individual time distribution records shall be maintained for allocating an
           employee’s salary between this contract and other funding sources.

State of Colorado Governor’s Commission on Community Service Grant Agreement with
Mile High Youth Corps (dated December 30, 2009), Exhibit A, Statement of Work,
Paragraph E., Administrative Requirements, states that grantees must maintain properly
segregated books of state grant funds, matching funds, and other funds associated with
the work. They also must prepare detailed documents showing all receipts and
expenditures.
                                                  48
           MHYC Service Locations

MHYC did not ensure that the financial management systems of its service locations (LCYCC,
RMYC, SCCFC, SCCLV, and WCCC) complied with Federal and state requirements. MHYC’s
Finance Director stated that its service locations did not have separate account codes in their
accounting systems for Federal AmeriCorps expenses, match AmeriCorps expenses, and the
ARRA award.

MHYC did not think it was in a position to tell the service locations how to account for their costs
because the service locations were separate nonprofit and government organizations. Instead,
it required each service location to sign service-site agreements outlining the responsibilities of
MHYC and the service locations. One of the responsibilities of the service locations was to
ensure that they complied with all rules and regulations.

Criteria

2009 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection B. Financial
Management Standards., states that grantees must maintain financial management systems
that include standard accounting practices, sufficient internal controls, a clear audit trail, and
written cost allocation procedures, as necessary. Financial management systems must be
capable of distinguishing expenditures attributable to and not attributable to a grant.

Reporting of GCCS and Subgrantee Match Costs

GCCS did not have adequate procedures to accurately account for and report match costs. It
used spreadsheets to accumulate match costs reported by subgrantees and match of its state
administrative awards. We identified the following:

          GCCS did not retain spreadsheets used to calculate match costs claimed on
           FFRs. As a result, it could not identify specific transactions that comprised the
           $615,720 of match costs it reported for State Administrative Award No.
           07CAHCO001 during the AUP period and had to recreate the spreadsheets for
           AmeriCorps Award Nos. 06AFHCO001 and 06ACHCO001.

          We identified a $200,496 variance between GCCS’s spreadsheet and match
           costs reported on the FFR for Award No. 06AFHC001 during the AUP period. Its
           spreadsheet supported expenditures of $2,173,454, but it claimed $2,373,950 on
           the FFR. This difference was found in the September 30, 2009, and March 31,
           2010 periods. For the period ending September 30, 2009, the GCCS
           spreadsheet showed total recipient share of $545,772, but actual expenditures
           for the period totaled $345,772. In addition, the March 31, 2010, reconciliation
           spreadsheet showed total recipient share of $91,423, but actual expenditures for
           the period totaled $90,927.

          The reconciliation prepared for Award No. 06ACHCO001 match costs did not
           reconcile to match costs claimed on the GCCS’s FFRs. During the AUP period,
           it claimed $1,869,476 of match expenditures, but its reconciliation spreadsheet
           only showed $1,242,726. The reconciliation prepared by GCCS for Award No.
           06ACHCO001 was prepared through September 30, 2009, but GCCS claimed
           match costs through December 31, 2009.
                                                 49
Criteria

45 CFR § 2541.240 (b)(6) Records, states that costs and third-party in-kind contributions
used to meet a cost-sharing or matching requirement must be verifiable from grantee
records.

45 CFR § 2541.200 (b)(6) Source Documentation, states that accounting records must be
supported by source documentation, such as payroll and time-and-attendance records.

Recommendations: We recommend that the Corporation:

    2a.    Ensure that GCCS develops reconciliation controls to accurately account for and
           report match costs on its FFR and retains documentation of match costs claimed
           on each FFR submitted to the Corporation;

    2b.    Verify that GCCS implements reconciliation controls to accurately account for
           and report match costs and retains documentation to support match costs
           claimed on FFRs submitted to the Corporation;

    2c.    Ensure that GCCS requires all of its subgrantees and subgrantee service
           locations to review applicable regulations and develop controls to ensure that
           their financial management systems for accounting and reporting Federal and
           match costs are timely, accurate and complete.

    2d.    Verify that financial management systems implemented by GCCS’s subgrantees,
           and subgrantee service locations include standard accounting practices,
           sufficient internal controls, a clear audit trail, and follow a written cost allocation
           procedures;

    2e.    Verify that financial management systems implemented by GCCS, subgrantees,
           and subgrantee service locations are capable of distinguishing Federal and
           match expenditures attributable to these grants from expenditures not
           attributable to these grants, identifying costs by program year and budget
           category, and differentiating between direct and indirect costs or administrative
           costs; and

    2f.    Verify living allowance costs claimed are based on amounts MHYC paid to
           members and not based on budgeted living allowance amounts.

GCCS’s Response: Its responses follow:

CYCA Federal Costs

GCCS concurred that CYCA did not adequately account for its costs under this award but
did not concur with the questioned costs. CYCA provided GCCS with alternative supporting
documentation for the claimed costs. The supporting documentation included timesheets,
spreadsheets, receipts, and other supporting documentation. It will send this documentation
to the Corporation for verification. In addition, CYCA has changed its accounting system for
the tracking of income and expenses. It now requires more detail and uses classifications
for specific fund sources. It also has worked with its independent auditor, Board of
                                               50
Directors, and bookkeeper to implement these changes to train staff. In the future, GCCS
will confirm that separate accounting systems are in place for any grants that may require a
separate system.

SUCAP Federal Costs

GCCS did not concur with this issue and the questioned costs.

MHYC Costs and Service Locations

On August 1, 2011, GOCS implemented OnCorps reports, a web-based software program,
which will serve as a tool for program reporting and GCCS monitoring. It will use this
program to increase reporting accuracy and its ability to assess program information. GCCS
stated that this system would provide its programs with a system that ensures compliance
with federal regulations.

Reporting of GCCS and Subgrantee Match Costs

GCCS worked with its fiscal staff to establish reconciliation controls to verify and report
match costs and retain uniform documentation. In addition, it implemented a new match
tracking system, with new policies, procedures and internal controls.

Accountants’ Comments:

CYCA Federal Costs

The Corporation should ensure that the documentation provided to support CYCA’s claimed
costs under this award is allowable, adequately documented, and allocable.

SUCAP Federal Costs

The $1,406 of unsupported costs were questioned because GCCS did not demonstrate that
it had adjusted its FFR for the unallowable costs. The Corporation should verify that GCCS
has made the necessary corrections. Further, this issue remains a compliance finding
because these corrections were not made because of a new SUCAP procedure; the
corrections were only identified during a review conducted to prepare for our visit.

MHYC Costs and Service Locations

We continue to make the recommendations stated above. GCCS did not explain how
OnCorps reports would be used to ensure that the financial management systems of MHYC
and its service locations comply with Federal and state requirements. The Corporation
should ensure that the recommendations have been implemented.

Reporting of GCCS and Subgrantee Match Costs

GCCS did not provide documentation or explain how its new match tracking system would
be used to accurately account for and report match costs. The Corporation should verify
that the new match tracking system has been implemented by GCCS and is working as
intended.

                                              51
Finding 3.        GCCS and one subgrantee did not have controls to ensure that claimed
                  Federal and match costs were adequately supported, compliant with
                  applicable regulations, and properly calculated.

GCCS

GCCS did not have controls to ensure that claimed match costs were adequately supported
and compliant with applicable regulations. GCCS claimed unallowable and unsupported
match costs on its State Administrative awards. Several of the unallowable and
unsupported transactions were identified in a previous OIG report on awards to GCCS (OIG
Report No. 05-04).

Award No. 07CAHCO001

          As discussed in Schedule H, we questioned $326,020 of radio and television PSA
           costs claimed by GCCS as match. These PSAs were created, paid for, and
           delivered to media stations by the Corporation. GCCS did not include PSA costs as
           match in its approved grant budget, and did not obtain a budget change or match
           waiver from its Corporation Grants Officer to claim these costs. Further,
           documentation provided by GCCS indicated the PSAs were produced and delivered
           directly to the radio and television stations by the Corporation. However, GCCS did
           not provide any documentation to show that it had contacted the radio and television
           stations and requested that they play the PSAs.

           GCCS claimed these costs when economic conditions created difficulties in raising
           matching funds and because it does not receive State of Colorado funds. GCCS
           relies almost exclusively on in-kind support to achieve the required match. In March
           2010, it submitted a match waiver request to the Corporation for its 2010
           administrative grant. In that request, GCCS requested Corporation approval to claim
           PSAs as match on its 2010 award. The Corporation approved GCCS’s request, but,
           the waiver request did not cover its prior state administrative award. GCCS
           representatives also stated that they contacted the radio and televisions stations
           requesting that they play the PSAs but they were still looking for the documentation.

Criteria

2009 Provisions for State Administrative, Program Development, and Training, and Disability
Placement Grants, Section D.5.c., Approvals of Programmatic and Budget Changes, states
that the Corporation’s Grants Officers are the only officials who have authority to change
grant requirements. Grants Officers will execute written amendments or changes to a grant,
and grantees should not assume approvals have been granted unless they receive
documentation from the Corporation’s Grants Office.

Corporation’s Frequently Asked Questions Using Public Service Announcements as Match,
Question 5. Sometimes the Corporation produces and distributes PSAs and they are placed
on stations in my area. Can I include the value of the airtime for those PSAs on my grant?
states grantees can generally not claim the value of air time as match if the PSA were aired
at the Corporation’s request. However, if the grantees have contacted the local stations
requesting that they play the PSAs, the grantee may count the value of airtime as match.


                                                52
          As discussed in Schedule H, we questioned $500 of consulting services for an
           individual who assisted in a Community Needs Assessment on June 13, 2008. This
           expense was supported by GCCS’s Receipt Voucher for In-Kind Contributions form.
           This form was signed by the contributor who provided the consulting services, but
           was not dated and showed an estimated $500 value of the in-kind contribution.
           According to the form, this contribution was for travel and consultation services. No
           documentation was provided to show how the $500 was derived or amount of travel
           costs. A similar condition was found in OIG Report No. 05-04.

Criteria

45 CFR § 2541.240 (a)(7)(C)(1), Volunteer services, states that unpaid services provided to
a grantee by individuals will be valued at rates consistent with those ordinarily paid for
similar work in the grantee’s organization. If the grantee does not have employees
performing similar work, the rates will be consistent with those ordinarily paid by other
employers for similar work in the same labor market.

Further, 45 CFR § 2541.240 (a)(7)(C)(2), Employees of other organizations, states that
when an employer other than the grantee or cost-type contractor furnishes free services, the
services will be valued at the employee’s regular rate of pay, exclusive of fringe benefits and
overhead costs. If the services are in different line of work, the services will valued in
accordance with the above paragraph.

          As discussed in Schedule H, we questioned $59,213 of unsupported match labor
           and operating costs (rent, computer, copy machine, fax machine, telephone, printer,
           office supplies, and travel) from GCCS’s VISTA sites. The labor costs were for
           supervision of AmeriCorps VISTA members, and the operating costs were to
           maintain Colorado VISTA programs for Calendar Year 2009. These costs were
           included in GCCS’s approved budget and were supported by GCCS’s Receipt
           Voucher for In-Kind Contributions forms, which were signed, but not dated by
           supervisors at the VISTA sites. Spreadsheets summarizing costs claimed also
           accompanied these forms.

           GCCS did not provide supervisor timesheets, documentation supporting the value of
           supervisor labor costs, and invoices for operating costs, because GCCS was
           unaware that it needed to obtain this documentation. A similar condition was found
           in OIG Report No. 05-04.

Criteria

45 CFR § 2541.240 (b)(6) Records, states that costs and third-party in-kind contributions
used to meet a cost-sharing or matching requirement must be verifiable from grantee
records.

          As discussed in Schedule H, we questioned $38,330 ($33,000+$5,330) of
           unsupported match labor from the State of Colorado Department of Personnel and
           Administration for Calendar Years 2007 and 2008, as discussed below. A similar
           condition was identified in OIG Report No. 05-04. These costs were supported by
           GCCS’s Receipt Voucher for In-Kind Contributions form.


                                                 53
       Calendar Year 2007. A spreadsheet summarizing the amount of labor costs
        accompanied the form. It showed the following:

        o   $2,000 for processing payment vouchers and grant maintenance,
        o   $1,650 for processing payroll, benefits support, and leave tracking,
        o   $1,680 for grant review, grant processing, spending authority maintenance,
            and voucher approval.

        The spreadsheet also identified the names of the employees whose labor costs
        were claimed, estimated percentage of effort, and annual salaries. But no
        timesheets were provided to support these costs.

       Calendar Year 2008. The form was signed but not dated by Controller of the
        Colorado Department of Administration. A spreadsheet dated January 18, 2011,
        which summarized the amount of labor costs by division, accompanied the form.
        It showed that $1,838 of labor costs was for legal services to review contracts
        and legal information, and $31,162 of labor costs was for accounting services
        provided to GCCS.

        The spreadsheet also identified the names of the employees whose labor costs
        were claimed, estimates of hours and percentage worked by each employee, as
        well as their annual and hourly salaries. No timesheets were provided to support
        these costs. GCCS stated that had recently become aware of the requirement to
        keep timesheets.

   As discussed in Schedule H, we questioned $15,737 ($9,828+$5,909) of match
    labor costs for the Lt. Governor’s participation at events in Calendar Years 2007,
    2008, and 2009. A similar condition was found in OIG Report No. 05-04.

       Calendar Years 2007 and 2008. Costs of $9,828 were supported by GCCS’s
        Receipt Voucher for In-Kind Contributions form signed and dated by the Lt.
        Governor. A spreadsheet summarizing the amount of labor costs and an hourly
        rate accompanied the form. Hours were identified as follows:

        o   20 hours for Colorado Cares Day participation and oversight;
        o   39 hours for direct GCCS participation and activities, including the October
            Service Conference, AmeriCorps launch, certificates, letters, and
            acknowledgements; and
        o   40 hours for meetings with the chief of staff regarding GCCS budget,
            oversight, and planning.

        Timesheets were not provided to support these hours.

       Calendar Year 2009. GCCS claimed $5,909 of match labor costs for the Lt.
        Governor’s participation at events. These costs were supported by GCCS’s
        Receipt Voucher for In-Kind Contributions form signed, but not dated, by the Lt.
        Governor. A note on the form described activities performed, number of hours,
        and an hourly rate. Hours were identified as follows:

        o   18 hours for Colorado Cares Day participation and oversight;

                                          54
              o   41 hours for direct GCCS participation and activities; and
              o   40 hours for meetings with the chief of staff regarding GCCS budget,
                  oversight, and planning.

              Timesheets were not provided to support these hours.

Criteria

45 CFR § 2541.240 (b)(6) Records, states that costs and third-party in-kind contributions
used to meet a cost-sharing or matching requirement must be verifiable from grantee
records.

45 CFR § 2541.200 (b)(6) Source Documentation, states that accounting records must be
supported by source documentation, such as payroll and time-and-attendance records.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment B, Selected Items of Cost, Paragraph, 8.h., Support of salaries and wages,
requires salary distributions based on personnel activity reports for employees working on
multiple activities. These must be signed by each employee and account for all time
worked.

Award No. 10CAHCO001

GCCS claimed $45,766 of match costs on its June 30, 2010, FFR. We requested that GCCS
provide supporting documentation for all of these expenses. GCCS originally provided a
spreadsheet summarizing match costs claimed by category. The spreadsheet total equaled the
amount claimed on the June 30, 2010, FFR. We requested that GCCS provide a detailed listing
of transactions for the $45,766 claimed. This second spreadsheet showed total match
expenditures of $47,500 through October 2010, but total match expenditures through June 30,
2010, were $44,209, or $1,557 less than reported on the June 30, 2010 FFR. GCCS explained
that, while it was preparing the detail listing of transactions, it identified some transactions that
were not adequately supported and replaced them with new transactions.

We reviewed replacement transactions and identified two transactions that were not adequately
supported.

          GCCS claimed a $275 registration fee for its attendance at the Fall 2010
           Internship and Job Fair held at the University of Colorado Denver Career Center
           on October 13, 2010. GCCS provided an e-mail showing the registration amount
           and an e-mail expressing its desire to attend the event. It did not, however,
           provide any documentation to show that it actually registered and attended the
           event.

          GCCS claimed $1,161 of labor costs for an Office of the Lt. Governor intern who
           worked on the state service conference and Colorado Cares Day. GCCS
           provided copies of the intern’s July and August 2010 timesheets, which
           supported 29 hours, and a copy of the in-kind contributions form that showed a
           $20.85 hourly rate. GCCS did not provide any other documentation to show how
           this rate was derived. GCCS was unable to locate the intern’s September
           timesheet and could not support the remaining $556 [$1,161-605 (29 hours x
           $20.85)].
                                                55
Criteria

45 CFR § 2541.240 (b)(6) Records, states that costs and third-party in-kind contributions
used to meet a cost-sharing or matching requirement must be verifiable from grantee
records.

45 CFR § 2541.200 (b)(6) Source Documentation, states that accounting records must be
supported by source documentation, such as payroll and time-and-attendance records.

MHYC

MHYC did not have controls to ensure that claimed Federal and match costs were adequately
supported and compliant with applicable regulations, as described below:

          As discussed in Schedules A through C, we questioned $12,103 of Federal
           personnel costs for the portion of time the Development Associate spent
           performing fundraising activities. This individual stated that she spent about 15
           to 20 percent of her time on fundraising, but believed the fundraising was
           allowable, because it was for MHYC’s AmeriCorps program. MHYC
           representatives also stated that they believed these costs were allowable
           because the Development Associate Position was an approved budget line item;
           fundraising costs were not questioned during prior audits and GCCS monitoring
           visits.

          As discussed in Finding 2, MHYC claimed costs in Calendar Year 2009 for its
           personnel and those of its service locations that were not supported by
           timesheets. MHYC began using timesheets in Calendar Year 2010, after it was
           informed by the OIG during its ARRA audit and in a report dated June 30, 2010,
           that timesheets were required to support match salaries.

          As discussed in Finding 2, MHYC did not obtain actual documentation to support
           Federal and match member costs for its service locations. Instead, it claimed
           budgeted amounts of member costs.

          MHYC claimed as match other program operating costs provided by its service
           locations. Some of the costs allocation methodologies provided by the service
           locations indicated that costs claimed were estimates and not allocations of
           actual costs.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
Items of Cost, Paragraph 17, Fundraising and investment management costs, states that
costs of organized fundraising, including financial campaigns, endowment drives, solicitation
of gifts and bequests, and similar expenses incurred solely to raise capital or obtain
contributions are unallowable.

45 CFR § 2543.23 Cost Sharing or matching, subsection (a) states that costs and third-party in-
kind contributions used to meet a cost sharing or matching requirement for nonprofit
organizations must be verifiable from the records of grantees.
                                                56
45 CFR § 2541.240 (b)(6) Records, states that costs and third-party in-kind contributions
used to meet a cost-sharing or matching requirement for state and local governments must
be verifiable from grantee records.

State of Colorado Governor’s Commission on Community Service Grant Agreement with
Mile High Youth Corps (dated July 2008) paragraph XVI.s. Financial and Uniform
Administrative Requirements states that contractors shall comply with Federal cost
principles, statutory and administrative provisions, which may be found in the AmeriCorps
provisions, and are provided to the contractor by the State.

State of Colorado Governor’s Commission on Community Service Grant Agreements with
Mile High Youth Corps (dated May 29, 2009 and December 30, 2009) Paragraph 21.
Colorado Special Provisions states grantees shall comply with all applicable Federal, State
law, rules, and regulations in effect.

Recommendations: We recommend that the Corporation:

   3a.     Ensure that GCCS reviews applicable regulations and develops controls to
           ensure that claimed Federal and match costs are allowable, adequately
           documented, and allocable in accordance with applicable costs principles and
           regulations;

   3b.     Verify implementation of GCCS’s controls for Federal and match costs;

   3c.     Ensure that GCCS trains all of its subgrantees and service locations on
           applicable OMB cost circulars and applicable financial management regulations;

   3d.     Verify that GCCS has provided training on applicable OMB cost circulars and
           applicable financial management regulations to all of its subgrantees and
           subgrantee service locations;

   3e.     Ensure that GCCS requires all of its subgrantees and subgrantee service
           locations to develop controls to ensure that claimed Federal and match costs are
           allowable, adequately documented, and allocable in accordance with applicable
           costs principles and regulations; and

   3f.     Verify implementation of controls for Federal and match costs at all of GCCS’s
           subgrantees and service locations.

GCCS’s Response: Its responses follow:

GCCS Administrative Match Costs

It stated that while its systems, policies, and controls have improved significantly over the
past several years, continued improvements and corrective action implementation steps are
needed to ensure that all claimed state administration match to federal grants comply with
required regulations and OMB cost principles. In addition, it made significant progress and
continues make significant progress to ensure that in-kind support is budgeted, captured,
documented, recorded, and verified.

                                             57
MHYC Federal and Match Costs

GCCS’s corrective actions include the following:

      Continuous communication with its programs regarding rules and regulations;
       regarding match and acceptable documentation;
      Improved technical assistance and support, with updated policies and procedures;
      Improved desk and on-site compliance monitoring; and
      Implementation of the OnCorps system.

GCCS discussed rules and regulations related to this finding at its program managers
training held in August 2011.

Accountants’ Comments: We do not agree with GCCS’s statement that its systems,
policies, and controls had improved significantly over the past several years. As discussed
in Schedule H, GCCS claimed $439,800 of unallowable match costs on its state
administrative award. In addition, several of the unallowable and unsupported transactions
were identified in a previous OIG report on awards to GCCS (OIG Report No. 05-04), issued
in January 2005.

GCCS did not explain how it would ensure that it, its subgrantees, and service locations
would develop controls to ensure that claimed Federal and match costs are allowable,
adequately documented, and allocable in accordance with applicable cost principles and
regulations. The Corporation should ensure that GCCS has implemented the
recommendations.

Finding 4.    Two subgrantees did not comply with AmeriCorps requirements for
              criminal history checks and NSOPR searches.

CYCA and MHYC did not ensure that National Service Criminal History Searches conducted
on members complied with AmeriCorps regulations. Both organizations were aware that
criminal history checks and NSOPR searches were required, but neither was aware of the
Corporation’s requirements for vendor-conducted checks and searches.

During the AUP period, CYCA’s members served at eight service locations; one of these
was MHYC; MHYC’s members served at MHYC and five other service locations (LCYCC,
RMYC, SCCFC, SCCLV, and WCYCC). In addition, CYCA and MHYC had five common
service locations.

CYCA relied on its service locations to conduct searches on members assigned to each
service locations. MHYC conducted searches on members assigned to its offices, but relied
on its service locations to conduct searches on members assigned to each service location.
MHYC and the service locations conducted these searches using third-party vendors, but
they did not ensure that these vendors checked the recognized state criminal history
database and NSOPR. In addition, MHYC and CYCA did not obtain the required alternative
search protocol from the Corporation to use the third-party vendors.

As a result, CYCA and MHYC could not demonstrate that certain sampled members
received national service criminal history searches that complied with Corporation
requirements.

                                             58
Criteria

45 CFR § 2540.202 What two search components of the National Service Criminal History
Check must I satisfy to determine an individual's suitability to serve in a covered position?
requires grantees to conduct state criminal history checks and NSOPR searches, unless the
Corporation approves an alternative screening protocol.

Frequently Asked Questions, National Service Criminal History Checks, states that grantees
are required to fully understand the checks its vendor conducts and sources it uses for
criminal history information and review the vendor’s materials to verify compliance. If third-
party vendors do not conduct searches through Corporation-recognized sources and
NSOPR, they must obtain approved search protocol from the Corporation.

We discussed this issue with MHYC and CYCA. MHYC representatives stated that they
believed they complied with Corporation regulations for National Service Criminal History
Checks because it received annual site visits from GCCS and GCCS did not identify any
instances of noncompliance. Additionally, MHYC noted that GCCS’s report for its June 10,
2010 monitoring visit stated that it had conducted an evaluation of MHYC’s program policies
and procedures regarding criminal background checks and found that all of MHYC’s
member systems and regulations for criminal background checks complied with Corporation
and Federal rules and regulations. MHYC representatives also stated that background
check requirements were not specifically addressed during the OIG’s ARRA financial
management systems review and fraud prevention training session, and during Corporation
sponsored conferences. Finally, MHYC stated that between September 2009 and July
2010, it had limited communications with GCCS regarding the Serve America Act
regulations.

MHYC stated that it changed its procedures for conducting national service criminal history
searches on members serving at its offices and implemented revised procedures in
September or October 2010. It now conducts national service criminal history searches in-
house instead of relying on a third- party vendor. Conducting the searches in-house
eliminates the need to verify that the vendors are checking correct databases.

After discussing this issue with CYCA, it provided the following:

          Copy of an e-mail that WYCC service locations received from its criminal history
           search vendor, Intermountain Backgrounds Inc., on January 26, 2011.
           Intermountain’s representative stated that all of its in-state and out-of-state
           searches include NSOPR. Intermountain’s representative also stated that it
           obtains local sex-offender lists, because the Colorado Bureau of Investigation
           (CBI) database recognized by the Corporation for state criminal history checks
           does not include juveniles on its site.

          Copies of e-mails its SCC service locations submitted to the Corporation
           concerning use of its third-party criminal-history-check vendor, IntelliCorp. SCC
           is also a service location of MHYC and a subgrantee of another Corporation
           grantee, The Corps Network. On March 3, 2010, SCC submitted an ASP request
           to the Corporation, requesting approval to use IntelliCorp as its criminal history
           check provider. This request was denied by the Corporation, and SCC submitted
           a new ASP to the Corporation on January 6, 2011. It requested that the
           Corporation approve the use of its current background check vendor, HR Plus,
                                                 59
       for states where checking the central depository was not feasible for SCC. As of
       February 1, 2011, the Corporation had received SCC’s ASP request, but had not
       made a final decision on it.

      Copy of an undated letter from LCYCC’s third-party vendor, Tandem Select
       (formerly Premier Employment Screening Services). This vendor stated the
       following:

             It uses the Colorado Statewide repository, which houses criminal records
              from every county in Colorado except Denver County. It searches
              Denver County’s records through Denver County Clerk of Courts office.

             Its’ Sex Offender and National Scan product uses a database that houses
              records from thousands of public information resources nationwide,
              including sex offender registry information directly from individual public
              registry websites of each state.

             Its’ criminal records come from a variety of sources such as courts,
              corrections departments, and public safety departments, but the exact
              resources searched vary by state.

We considered this letter to be inadequate documentation, because the vendor did not state
that it checked the criminal history databases recognized by the Corporation or NSOPR.

As described below, we questioned member costs and education awards of members
without documentation demonstrating that the recognized state criminal and NSOPR
registries were checked. Because CYCA’s PY 2008-2009 and 2009-2010 members were in
CYCA’s Education Award Program, we also questioned the associated fixed administrative
fee that CYCA received for each eligible member. We questioned $2,017.

We did not question the education award for the one sampled WYCC member because the
e-mail from the vendor indicated that the required databases were searched. We also did
not question education awards and member costs for three MHYC members (two PY 2008-
2009 members and one ARRA member) because the members did not have recurring
access to vulnerable populations and because the members enrolled prior to the October 1,
2009, effective date requiring National Service Criminal History checks for all members.

CYCA representatives stated that seven sampled members (six PY 2008-2009 members
and one ARRA member) were not required to have National Service Criminal History checks
because the members did not have recurring access to vulnerable populations. However,
we questioned the members’ education awards because the members’ service location had
vulnerable populations and CYCA did not provide documentation to demonstrate that the
members did not have recurring access to the vulnerable populations.

We originally found that 19 sampled MHYC members had inadequate NSOPR checks.
However, after the exit conference, MHYC provided copies of NSOPR searches it
conducted in May 2011 on the 19 sampled PY 2008-2009, PY 2009-2010, and ARRA
members whose original National Service Criminal History Checks were conducted using
third party vendors and whose NSOPRs did not comply with Corporation regulations.
However, because MHYC only provided copies of the NSOPRs and did not provide
documentation demonstrating that the recognized state criminal registries were checked or
                                            60
that it had obtained approval from the Corporation to use the third-party vendors. The
amount of questioned member costs and education awards did not change.

Details of instances, questioned member costs, questioned education awards, and
questioned administrative fees follow:

                  Inadequate      Inadequate    Questioned     Questioned
                State Criminal      NSOPR        Member        Education      Questioned
       Site     History Checks     Searches       Costs          Awards       Admin Fees
       MHYC           22               0         $60,910        $36,027             $0
       CYCA           23              18              $0        $27,182         $2,017

Recommendations: We recommend that the Corporation:

   4a.        Disallow and, if already used, recover education awards made to members with
              questioned education awards;

   4b.        Disallow and recover the appropriate amount of fixed fees provided for members
              with questioned education awards;

   4c.        Disallow and recover, the appropriate amount of accrued interest awards made
              to members with questioned education awards;

   4d.        Provide guidance to GCCS to ensure that all of its subgrantees and subgrantee
              service location conduct member criminal history and NSOPR checks using
              databases recognized by the Corporation or alternative screening protocol
              requests are submitted to the Corporation as required; and

   4e.        Verify that GCCS has implemented effective criminal history check procedures at
              all of its subgrantees and subgrantee service locations.

GCCS’s Response: It did not concur with this finding or with the $60,910 of questioned
member costs, the $63,209 ($36,027+ $27,182) of questioned member education awards,
and $2,017 of questioned administrative fees. It supports the requests of MHYC and CYCA
for reconsideration of the questioned education awards. In addition, it stated that MHYC
had demonstrated compliance and necessary corrective action.

GCCS stated that it would perform the following corrective actions:

        Continuous communication with its programs regarding rules and regulations as they
         evolve;
        Monthly training and technical assistance conference calls with program managers;
        Improved technical assistance and support, with updated policies and procedures;
        Improved desk and on-site compliance monitoring; and

GCCS stated that it would also discuss rules and regulations related to this finding at its
program managers training held in August 2011 and would continue to work with the
Corporation and subgrantees to ensure policies and procedures are in place.

Accountants’ Comments: We do not agree with GCCS’s statement that MHYC and CYCA
had demonstrated compliance and necessary corrective action and continue to make the
                                               61
recommendations stated above. The Corporation should verify implementation of the
corrective actions and ensure that they are working as intended.

Finding 5.        One subgrantee did not demonstrate that it conducted a criminal
                  history check on a member, and three subgrantees did not conduct
                  criminal history and NSOPR searches in a timely manner.

CYCA did not demonstrate that a criminal history check was conducted for one sampled
ARRA member. The member signed an authorization form allowing the service location to
conduct the criminal history check, but the member’s file did not contain any documentation
to demonstrate that a check was conducted. CYCA stated that this member’s service
location required the member to undergo criminal history and national sex offender searches
but this member was not subject to Corporation requirements because the member did not
have recurring access to vulnerable populations and was enrolled prior to the October 1,
2009, effective date requiring National Service Criminal History checks for all members. As
discussed in Schedule G, we questioned the education award of $1,000 for the member
because the member’s service location had vulnerable populations and CYCA did not
provide documentation to demonstrate that the member did not have recurring access to the
vulnerable populations.

Criteria

45 CFR § 2540.205, What documentation must I maintain regarding a National Service
Criminal History Check for a covered position? requires grantees to maintain results of
checks unless prohibited by state law and to document in writing that results were
considered when selecting members for the program.

All three subgrantees did not conduct criminal history checks and NSOPR searches until after
the members started service. Details follow:

                                                                          Days to
           Description                   SUCAP      MHYC      CYCA        Perform
           PY 2008-2009
           Vendor Criminal History and
           Sex Offender Checks              0         3          4          2-31
           NSOPR                            0         0          1            3
           PY 2009-2010
           Vendor Criminal History and
           Sex Offender Checks              0         5          7         1-219
           Criminal History Checks          9         0          0         4-113
           NSOPR                            9         1          1         2-388
           ARRA
           Vendor Criminal History and
           Sex Offender Searches            0         4          3          2-63

CYCA stated that the four PY 2008-2009 members’ service locations required the members
to undergo criminal history and national sex offender searches but these members were not
subject to Corporation requirements because they did not have recurring access to
vulnerable populations and were enrolled prior to the October 1, 2009, effective date
requiring National Service Criminal History checks for all members. However, we continue
                                             62
to note these late instances because the members’ service locations had vulnerable
populations and CYCA did not provide documentation to demonstrate that the member did
not have recurring access to the vulnerable populations.

In addition, SUCAP did not conduct the NSOPR search for one grant-funded staff employee
in a timely manner. It performed the NSOPR search for this employee 32 days after the
expense was recorded in its general ledger. The expense was recorded in the general
ledger on March 5, 2010, but the NSOPR search was not conducted until April 6, 2010.

Criteria

45 CFR § 2540.202 What two search components of the National Service Criminal History
Check must I satisfy to determine an individual's suitability to serve in a covered position?
requires grantees to conduct state criminal history checks and NSOPR searches, unless the
Corporation approves an alternative screening protocol.

45 CFR § 2540.200 What suitability criteria must I apply to a covered position? requires
suitability criteria to be applied to individuals applying for or serving in a covered position
(member or grant-funded employee) and involves recurring access to vulnerable
populations (children, persons age 60 and older, or individuals with disabilities).

45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR
check on an individual in a covered position?, states that criminal registry checks are to be
conducted on individuals who enrolled or were hired by the program after November 23,
2007. For all other covered individuals, the checks must be conducted on an individual who
enrolls in or is hired by a program on or after October 1, 2009.

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
G.1., Recordkeeping, states that grantees must maintain records sufficient enough to
establish that each member was eligible to participate, and that the member successfully
completed all requirements.

The failure to obtain criminal history checks for members with substantial recurring contact
with children and vulnerable populations before a member’s start date could present a
danger to the individuals being served by the members.

Recommendations: We recommend that the Corporation:

    5a.    Disallow and, if already used, recover education award made to member with a
           questioned education award;

    5b.    Provide guidance to GCCS to ensure that all of its subgrantees and subgrantee
           service locations conduct, and maintain documentation to support that criminal
           history and NSOPR searches were conducted on individuals in covered
           positions, databases recognized by Corporation were checked, and alternative
           screening protocol requests are submitted to the Corporation as required by
           AmeriCorps provisions; and

    5c.    Verify that GCCS has implemented effective criminal history and NSOPR search
           procedures at all of its subgrantees and service locations.

                                                63
GCCS’s Response: GCCS concurred with this finding but did not comment on the
recommendation to disallow and, if already used, recover the education award made to the
one member. Its corrective actions include the following:

      Continuous communication with its programs regarding rules and regulations as they
       evolve;
      Monthly training and technical assistance conference calls with program managers;
      Improved technical assistance and support, with updated policies and procedures;
      Improved desk and on-site compliance monitoring; and
      GCCS will discuss rules and regulations related to this finding at its program
       managers training held in August 2011.

Accountants’ Comments: The Corporation should disallow, and if already used, recover
the education award made to the one CYCA member whose education award was
questioned. The Corporation should verify implementation of the corrective actions and
ensure that they are working as intended.

Finding 6.    One subgrantee did not have controls to ensure that members performed
              allowable service activities.

One PY 2009-2010 member recorded service hours for activities unrelated to the member
position. In September 2010, SUCAP and GCCS approved this member’s request to
telecommute from her home in Wisconsin to complete her remaining service hours. According
to an email provided by SUCAP summarizing a conversation between the member and a GCCS
staff member, the member was unable to complete her service assignment in Ignacio, CO,
because her living allowance ended in mid-November, but she was not expected to complete
her service hours until December 31, 2010.

The gap between the end of the member’s living allowance and completion of hours
occurred because the member had several illnesses throughout the year and had fallen
behind on her hours. GCCS stated in an email to SUCAP that one complication of the
telecommuting arrangement would be no onsite supervision. Therefore, GCCS
recommended that the member keep detailed activity logs with her timesheets.

We reviewed the member’s November and December 2010 timesheets and activity logs.
The member recorded service hours for activities unrelated to her AmeriCorps position.
According to SUCAP’s program application narrative, the member‘s position was to develop
a capital campaign to build a new Head Start facility. SUCAP stated in its application that
this position was not a fundraising position, but a position that set the groundwork for a
capital campaign.

We reviewed the member’s timesheets and activity logs. She spent the majority of her time
searching and applying for jobs, attending job interviews, reading books on job interviews
and time management, and other activities unrelated to her position description. Even
though these activities were unrelated to the member’s position, her service site supervisor
and the AmeriCorps program coordinator approved the member’s timesheets.

At least 173 timesheet hours were unrelated to the member’s position. Of these, 149 were
related to job searches and submitting job applications. The remaining 24 hours were for
researching zoos and preparing for job interviews at zoos. Because the member listed
multiple activities on some days, we were unable to calculate an exact number of unrelated
                                             64
hours. We deducted these hours from total hours certified in the Portal for this member.
After deducting these hours, the remaining hours did not qualify the member for an
education award. As discussed in Schedule D, we questioned the member’s (Member No.
15) education award of $4,725.


                                     Timesheet Hours                         Questioned
                  Member                                        Hours        Education
     PY            No.       Total    Deducted     Adjusted    Required        Award
     2009-2010      15       1,700     173          1,527       1,700          $4,725

Criteria

45 CFR § 2520.25 What direct service activities may AmeriCorps members perform?
identifies allowable service activities, which include activities that advance program goals,
provide a specific identifiable, measurable service or improvement that otherwise would not
be provided, and that are included in or consistent with the Corporation-approved grant
application.

Recommendations: We recommend that the Corporation:

    6a.    Disallow and, if already used, recover the education award made to the member
           who did not perform allowable service activities;

    6b.    Disallow and recover the appropriate amount of accrued interest awards made to
           members with questioned education awards;

    6c.    Require GCCS to strengthen its monitoring procedures to ensure that all of its
           subgrantees and subgrantee service locations implement procedures to ensure
           that members perform only allowable service activities; and

    6d.    Verify GCCS’s implementation of policies and procedures.

GCCS’s Response: GCCS concurred with this finding but did not comment on the
recommendation to disallow and, if already used, recover the education award and accrued
interest awards made to the member. It has strengthened its compliance and monitoring
procedures to ensure compliance with all applicable rules and regulations regarding
acceptable activities. Beginning August 15, 2011, its programs will be requested list all
prohibited activities in the member contract. GCCS will discuss the rules and regulations
related to this finding, including the requirements of 45CFR § 2520.25 What direct service
activities may AmeriCorps members perform? at its August 2011, program managers
training.

Accountants’ Comments: The Corporation should disallow and, if already used, recover
the education award and accrued interest awards made to the member. While it is
important to ensure that members are aware of AmeriCorps prohibited activities, including
all prohibited activities in the member contract, this would not have prevented the condition
described above from occurring because the activities performed by the member did not
meet the definitions of prohibited activities described in 45CFR § 2520.65 What activities are
prohibited in AmeriCorps subtitle C programs? GCCS stated that it would discuss the rules
and regulations related to this finding, including the requirements of 45CFR § 2520.25 at its
                                              65
August 2011, program managers training. GCCS should also discuss these requirements
with members at pre-service orientation.

The Corporation should verify that this issue was discussed at the August 2011 program
managers training. In addition, it should verify the implementation of GCCS’s strengthened
compliance and monitoring procedures and verify that they are working as intended.

Finding 7.        Three subgrantees did not accurately record all timesheet hours, did
                  not have procedures to verify member activities and timesheet
                  accuracy, and timesheets did not always support member eligibility for
                  education awards.

We tested timesheets for 59 members. As described below, timesheet hours were not always
accurately recorded in the Portal and we identified weaknesses in how timesheets were
prepared.

Accuracy of Timesheet Hours

          Timesheet hours did not agree with hours certified in Portal for two sampled PY
           2009-2010 SUCAP members.

          Timesheet hours did not agree with hours certified in Portal for 14 sampled MHYC
           members (6 PY 2008-2009 members, 2 PY 2009-2010 members, and 6 ARRA
           members).

          Timesheet hours did not agree with hours reported in Portal for 7 sampled CYCA
           members (3 PY 2008-2009 members, 2 PY 2009-2010 members, and 2 ARRA
           members).

SUCAP, MHYC, and CYCA did not have procedures to verify timesheet accuracy. Without
procedures to verify timesheet accuracy, the potential exists for members to earn service hours
for activities that are prohibited or not related to the program. As a result, members could
receive education awards to which they are not entitled.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.4., Timekeeping, requires grantees to keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
Time-and-attendance records must be signed and dated by both the member and an
individual who supervises the member.

AmeriCorps requirements address policy, but do not address specific timesheet procedures.
It is, however, good business practice to check the accuracy of hours recorded on
timesheets.

Unsigned Timesheets and Math Errors

          Timesheet hours for one sampled PY 2009-2010 MHYC member who was exited in
           October 2010 did not agree with hours certified in the Portal and did not support the
           member’s eligibility for an education award. Hours certified in the Portal for this
                                                 66
    member were 937, but the member’s timesheets supported 842 hours.
    Representatives from the member’s service location, SCCFC, stated that this
    difference was due to an error it discovered in January 2011 as it was preparing
    copies of the member’s file for our review.

    SCCFC attempted to qualify the member for an education award by adding 74 hours
    of previously unrecorded service for member travel to the member’s June through
    October 2010 timesheets. The addition of these hours would have increased total
    timesheet hours to 916 hours and qualified the member for an education award.
    SCCFC believed these hours were allowable, and stated that they were not originally
    recorded on the member’s timesheets, because neither the member nor the
    member's supervisor were aware of all activities that could be counted as service.
    We did not include these hours in our calculation of total service hours, because the
    member did not certify these hours. We also deducted 38 hours from the member’s
    August 21-27, 2010, timesheet because the member did not sign the timesheet.

    After excluding the 74 hours added to the member‘s timesheets and deducting the
    38 hours from the unsigned timesheet, the remaining hours were insufficient to
    qualify the member for an education award, as follows:

                        Member            Timesheet Hours             Hours
           PY            No.        Total   Unsigned Adjusted        Required
           2009-2010      22         842       38         804          900

    We discussed in Schedule B, Note 4, and questioned in Note 1 the member’s $2,363
    education award.

   Three timesheets for one sampled PY 2009-2010 MHYC member were missing the
    member’s signatures. The member did not sign the August 22-28, August 28-
    September 4, and September 5-11, 2010, crew timesheets. The member’s service
    location had one timesheet that was completed by all members assigned to a work
    crew. In addition, this member had a math error on his August 8-14, 2010,
    timesheet. The member’s timesheet showed a weekly total of 51 hours, but the
    member only served 11 hours during the week.

    While reviewing the August 22-28, August 28-September 4, and September 5-11,
    2010, crew timesheets, we noted that three non-sampled members (two PY 2009-
    2010 members and one ARRA member) also did not sign these timesheets. We
    deducted service hours for timesheets that were missing member signatures and
    contained a math error. After deducting these hours, the remaining hours did not
    qualify the one sampled PY 2009-2010 member and two non-sampled members (1
    from PY 2009-2010 and 1 ARRA member) for education awards.

                        Member             Timesheet Hours           Hours
           PY            No.       Total     Deducted Adjusted      Required
           2009-2010      20        907        186         721        900
           2009-2010      21       1,015       142         873        900
           ARRA           41        906        146         760        900



                                           67
           Education award of $2,363 for Member No. 20 are questioned in Schedule B, Note 1,
           and education awards of $4,726 for Member Nos. 21 and 41 are questioned in
           Schedule B, Note 5, and Schedule C, Note 5.

          Timesheets for five sampled CYCA members (two PY 2008-2009 members, one PY
           2009-2010 member, and two ARRA members) were not signed. CYCA and its service
           locations did not have adequate procedures to ensure that members signed all
           timesheets. We deducted service hours from unsigned timesheets. After deducting
           these hours, remaining hours did not support minimum hours required for education
           award eligibility. We questioned education awards for two PY 2008-2009 members
           (Member Nos. 11 and 13) in Schedule E, one PY 2009-2010 member (Member No. 32)
           in Schedule F, and two PY 2009-2010 members (Member Nos. 49 and 50) in Schedule
           G.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.4., Timekeeping, requires grantees to keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
Time-and-attendance records must be signed and dated by both the member and an
individual who supervises the member.

According to 45 CFR § 2522.220 (a) (2), What are the required terms of service for
AmeriCorps participants? states to be eligible for an education award:

          Part time members must complete a term of service of at least 900 hours;
          Quarter time members must complete a term of service of at least 450 hours; and
          Minimum time members must complete a term of service of at least 300 hours.

We noted weaknesses in timekeeping procedures. A summary of timesheet discrepancies
by subgrantee follows:

                                                     SUCAP        MHYC          CYCA
    Member and supervisor signature not dated           9            8            9
    Member signature not dated                          0            0            1
    12 to 24 hours in a day                             3            0            0
    Pencil Used                                         2            0            0
    White-out used to make corrections                  1            0            0
    Corrections not initialed                           4           12            5

Criteria

AmeriCorps requirements address policy, but do not address specific timesheet procedures.
It is, however, good business practice to check the accuracy of hours recorded on
timesheets. As a result, accountability is maintained, and timesheets are consistent with
member and management intentions.

Recommendations: We recommend that the Corporation:

    7a.       Disallow and, if already used, recover education awards made to members who
              did not serve the minimum required service hours;
                                                68
   7b.      Require GCCS to strengthen its monitoring procedures to ensure that hours
            certified in the Portal for members at all of its subgrantees and service locations
            are supported by timesheets;

   7c.      Require GCCS to strengthen its monitoring procedures to ensure that member
            timesheets at all of its subgrantees and service locations are signed by members
            and supervisors;

   7d       Require GCCS to strengthen its monitoring procedures to ensure all of its
            subgrantees and subgrantee service locations maintain accurate timesheets and
            timesheets consistent with member and management intentions;

   7e.      Verify implementation of GCCS’s strengthened monitoring procedures for
            member timesheets.

GCCS’s Response: GCCS concurred with the finding of weaknesses in how timesheets
were prepared and submitted but, as described below, it did not comment on the
recommendation to disallow, and if already used, recover education awards made to the
members who did not service the minimum required service hours.

        GCCS commented on the education awards of the four MHYC members whose
         education awards were questioned in Schedule B Notes 4 and 5 and Schedule C
         Note 5. It stated that MHYC had stated that two of the four members whose
         education awards were questioned in these notes had earned enough hours to be
         eligible for his or her education award. MHYC’s service locations confirmed that the
         members completed the questioned hours. Supporting documentation will be sent to
         the Corporation for verification; and
        GCCS did not comment on the education awards of the five CYCA members whose
         education awards were questioned in Schedule E Note 2, Schedule F, Note 2, and
         Schedule G Note 4.

As a corrective action, GCCS adopted a statewide, uniform system to ensure compliance with
all timekeeping requirements across all programs and their service locations. Beginning August
1, 2011, OnCorps will become the official timekeeping system of record for the Colorado
AmeriCorps* State program. It would encourage AmeriCorps State programs to use OnCorps
for member timesheets. It will require programs that are unable to use OnCorps effectively due
to logistics to obtain approval for alternative timekeeping methods. It will discourage its
programs from using other supplemental timekeeping methods such as time clocks or additional
site based timesheets in addition to OnCorps because of the potential of contradictory or
incomplete information.

Accountants’ Comments: GCCS did not identify which two MHYC members earned
enough hours to be eligible for his or her education award and did not provide copies of the
documentation that will be sent to the Corporation. The Corporation should verify the
receipt of this information and should determine if the documentation is sufficient to support
the members’ eligibility for the education awards. Additionally, the Corporation should
disallow and, if already used, recover education awards made to the two members who did
not earn enough hours to be eligible for education awards.


                                               69
GCCS did not explain how the OnCorps system would be used to ensure that member hours
would be accurately recorded in the Portal. Additionally, GCCS did not explain how it would
ensure that member hours from programs that do not use OnCorps would be accurately
recorded in the Portal. GCCS stated that it would discourage its programs using supplemental
timekeeping methods in addition to OnCorps because of potential of contradictory or incomplete
information. However, because many of GCCS’s programs require members to camp at remote
locations for several days or weeks, these members would need to maintain supplemental
timekeeping information to account for their hours.

The Corporation should verify implementation of the OnCorps system and ensure it is working
as intended.

Finding 8.      One subgrantee did not comply with AmeriCorps citizenship eligibility
                requirements.

Two PY 2009-2010 SUCAP members did not have proper citizenship documentation. Files
for the two members had only copies of driver’s licenses and Social Security cards. SUCAP
stated that it was unaware that documentation requirements on the I-9 form did not satisfy
the citizenship documentation requirement listed in the CFR.

Criteria

45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps participant?
states that every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States.

2009 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
G.1., Recordkeeping, states that grantees must maintain records sufficient enough to
establish that each member was eligible to participate are maintained.

Driver’s licenses and Social Security cards do not establish citizenship. The failure to verify
citizenship before a member’s start date could result in enrolling ineligible members who are
not citizens, nationals, or lawful permanent residents. After we discussed this issue with
SUCAP and GCCS representatives, SUCAP provided copies of citizenship documentation
for these members. Therefore, we did not question education awards and member costs.

Recommendations: We recommend that the Corporation:

    8a.      Require GCCS to strengthen its procedures to ensure that all of its subgrantees
             comply with AmeriCorps requirements for citizenship verification; and

    8b.      Verify that GCCS implements procedures to ensure that citizenship verification
             documentation is retained in the member files at all of its subgrantees.

GCCS’s Response: GCCS concurred with this finding and took corrective actions. Its
corrective actions include improved verification procedures during monitoring visits, as well
as training, and technical assistance. It discussed this issue at its August 2011 program
managers training.

Accountants’ Comments: The Corporation should verify the implementation of GCCS’s
corrective actions and verify that this issue was discussed at its August 2011 program
                                              70
managers training. In addition, the Corporation should ensure that GCCS’s corrective
actions are working as intended.

Finding 9.    Three subgrantees did not demonstrate that some members received
              performance evaluations, and some end-of-term evaluations did not
              meet AmeriCorps requirements.

SUCAP, MHYC, and CYCA could not demonstrate that some sampled members received
mid-term and end-of-term performance evaluations. In addition, the end-of-term evaluations
for some members at all three subgrantees did not indicate if the members had completed
the required number of service hours for education award eligibility. The numbers of
instances for each situation are shown below:

      Description                                SUCAP        MHYC         CYCA
      PY 2008-2009
      End-of-term evaluation missing               0            2            3
      Mid-term evaluation missing                  0            0            0
      End-of-term missing required hours           0            5            4
      PY 2009-2010
      End-of-term evaluation missing               3            2            2
      Mid-term evaluation missing                  4            0            0
      End-of-term missing required hours           7            4            6
      ARRA
      End-of-term evaluation missing               0            0            3
      Mid-term evaluation missing                  0            0            0
      End-of-term missing required hours           0            7            5
      Total
      End-of-term evaluation missing               3             4            8
      Mid-term evaluation missing                  4             0            0
      End-of-term missing required hours           7            16           15


SUCAP, MHYC, and CYCA were unaware of the requirement that end-of-term evaluations
are required to include the final number of hours completed by members. MHYC stated that
it became aware of the requirement after the start of our agreed-upon procedures review
and it would begin modifying its final evaluations to comply with AmeriCorps provisions.
CYCA representatives stated that certifications of total hours are also captured on the
AmeriCorps exit paperwork, which is signed, by both the member and supervisor.

SUCAP stated that it had difficulties obtaining end-of-term evaluations from its service
location supervisors and members, and MHYC stated that one member did not have an
end-of-term evaluation, because she left the program early. CYCA representatives did not
believe the end-of-term evaluations were late and stated that 45 CFR § 2522.220(d), does
not stipulate when the end-of-term evaluation must be conducted. CYCA representatives
also stated that an end-of-term evaluation was conducted for one PY 2009-2010; however,
the member and supervisor did not sign the evaluation. CYCA representatives also stated
that one PY 2008-2009 member did not have an end-of-term evaluation because the
member left for compelling personal circumstances and 45 CFR § 2522.230 does not state
an end-of-term evaluation is required for members who are released for compelling personal
                                            71
circumstances. CYCA representatives also stated that after leaving the program the
member was not available to return to the service location to complete a final performance
evaluation.

End-of-term evaluations are required for all members including members released for
compelling personal circumstances. Mid-term and end-of-term evaluations are necessary to
ensure that members are eligible for additional service terms and education awards, and
that grant objectives have been met.

Criteria

45 CFR § 2522.220(d), Participant performance review, states that a participant is not
eligible for a second or additional term of service and/or for an AmeriCorps education award
without mid-term and end-of-term evaluations. An end-of-term performance evaluation must
assess if the participant:

          Completed the required number of hours to be eligible for the education award;

          Satisfactorily completed assignments, tasks, or projects; and

          Met any other performance criteria that had been clearly communicated both
           orally and in writing at the beginning of the term of service.

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
G.1., Recordkeeping, states that grantees must maintain records sufficient enough to
establish that each member was eligible to participate.

We identified other issues with mid- and end-of-term evaluations. The number of instances
for each situation is shown in the table below.

                                                       SUCAP        MHYC        CYCA
        Mid-Term Evaluation
        Supervisor signature missing                     0             1           0
        Member and Supervisor signature missing          2             1           1
        End-of-Term Evaluations
        Member and supervisor signature missing          0             2           0
        Member signature missing                         0             7           2
        Supervisor signature missing                     0             0           2
        Signed prior to completing service               2             0           7

It is good business practice to ensure that members and supervisors sign mid and end-of-
term evaluations. As a result, accountability is maintained, and evaluations are consistent
with member and management intentions.

Recommendations: We recommend that the Corporation:

    9a.       Require GCCS to strengthen its monitoring procedures to ensure that mid-term
              and end-of-term evaluations are received by members at all of its subgrantees
              and subgrantee service locations;


                                                  72
   9b.     Require GCCS to strengthen its monitoring procedures to ensure that the mid-
           term and end-of-term evaluations are signed by members and supervisors at all
           of its subgrantees and subgrantee service locations;

   9c.     Require GCCS to strengthen its monitoring procedures to ensure that end-of-
           term evaluations are signed by members and supervisors, at all of its
           subgrantees and subgrantee service locations, after the members have
           completed service;

   9d.     Require GCCS to strengthen its monitoring procedures to ensure that end-of-
           term evaluations used by all of its subgrantees and subgrantee service locations
           include the requirement to assess whether the member has completed the
           required number of hours to be eligible for the education award; and

   9e.     Verify implementation of GCCS’s procedures for member evaluations.

GCCS’s Response: GCCS and its subgrantees took corrective actions to ensure that
programs comply with the AmeriCorps regulations and provisions for performance
evaluations. GCCS strengthened its desk and site based monitoring procedures to ensure
compliance. It will continue to share best practices with programs and will conduct training
on performance evaluation requirements at its August 2011 program managers training. Its
subgrantees have begun working with their service locations to modify final evaluations to
comply with AmeriCorps regulations and provisions.

Accountants’ Comments: The Corporation should verify the implementation of GCCS’s
corrective actions and strengthened procedures for member evaluations. In addition, the
Corporation should ensure that they are working as intended.

Finding 10.   Three subgrantees did not complete all member enrollment and exit
              forms and enter them into the Portal in accordance with AmeriCorps
              requirements.

Three subgrantees did not enter some member enrollment and exit forms into Portal within 30
days after members started or ended their service terms. The numbers of late instances for
each situation are shown below:

                                                                              Days to
    Description                   SUCAP           MHYC          CYCA          Approve
    Enrollment Forms
    PY 2008-2009                     0              6              3            31-99
    PY 2009-2010                     4              0              1           32-120
    ARRA                             0              1              0             32
    Total                            4              7              4
    Exit Forms
    PY 2008-2009                     0              2              3           33-137
    PY 2009-2010                     1              0              0             35
    ARRA                             0              3              1            32-56
    Total                            1              5              4



                                             73
Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.1., Notice to the Corporation’s National Service Trust, states that grantees must notify the
Corporation’s National Service Trust within 30 days of a member’s selection for, completion of,
suspension from, or release from a term of service.

Without timely completion and submission of enrollment and exit forms, the Corporation cannot
maintain accurate member records. Failure to report such changes within 30 days may result in
sanctions to the grantee. This may also affect the member’s eligibility to receive an education
award.

In addition, we noted other compliance issues with member forms:

The files for all nine PY 2009-2010 SUCAP members did not have hard copies of
enrollment forms and the files for all seven PY 2009-2010 SUCAP members who had
exited the program did not have hard copies of exit forms. GCCS representatives stated
that guidance issued by the Corporation stated that programs were no longer required to
retain hard copies of member enrollment and exit forms.

MyAmeriCorps Frequently Asked Questions (dated October 2, 2009), Miscellaneous,
Are we still required to retain paper copies of the enrollment and exit form?, states

           If both the member and the program certify an enrollment or exit form in the
           portal, you are not required to retain paper copies of the enrollment and exit form.
           The My AmeriCorps portal serves as the system of record for enrollment and exit
           forms certified by member and program. If the program certifies on behalf of the
           member, you should retain a paper copy of the paper form signed by the
           member.

However, without the exit form we were unable to verify that the education award
eligibility certification, which is an element of the exit form, was complete for the seven
PY 2009-2010 SUCAP members who had exited the program. The Corporation’s
program officer for Colorado stated that the Corporation’s Office of Information
Technology has assured the Corporation that it can retrieve member certifications but
the process is currently burdensome and a change request has been submitted to
produce a user-friendly report that tracks members’ certifications.

Two CYCA members (one PY 2008-2009 member and one PY 2009-2010 member) recorded
service hours on their timesheets before their enrollment start dates in Portal. A note placed in
the file for PY 2008-2009 member stated that the member’s enrollment date was an error. We
calculated hours served before enrollment and deducted those hours from hours certified in
Portal. After deducting those hours, the remaining hours still qualified the members for
education awards.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
G.1. Recordkeeping, states that grantees must maintain records sufficient enough to
establish that each member was eligible to participate.

                                                 74
45 CFR § 2543.53, (b), Financial records, states that supporting documents, statistical
records, and all other records pertinent to an award must be retained for a period of 3 years
from the date of submission of the final expenditure report (now known as the Federal
Financial Report [FFR]).
.
2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.6., Member Exit, states that for a member to receive a post-service education award from the
National Service Trust, the grantee must certify to the National Service Trust that the member is
eligible to receive the education benefit.

Recommendations: We recommend that the Corporation:

   10a. Revise its Frequently Asked Questions document to ensure that all grantees and
        subgrantees retain hard copies of member enrollment and exit forms until the date
        submitted is shown in the portal.

   10b. Require GCCS to strengthen its monitoring procedures to ensure that member
        enrollment and exit forms at of its subgrantees and subgrantee service locations are
        submitted with 30 days of the start and within 30 days of the completion of each
        member’s service; and

   10c. Verify the implementation of GCCS’s monitoring procedures for ensuring that all of its
        subgrantees and subgrantee service locations complete member forms and member
        forms are submitted within 30 days of the start or completion of service.

GCCS’s Response: GCCS concurred with this finding and took corrective actions to
ensure subgrantee compliance with Corporation requirements for the submission of member
enrollment and exit forms. On August 1, 2011, it implemented the use of the OnCorps
reports system, which includes a member management checklist.

Accountants’ Comments: GCCS did not explain how the OnCorps reports system would be
used to comply with Corporation requirements for the submission of member enrollment and
exit forms. The Corporation should verify the implementation of this system, ensure that it is
working as intended and revise its Frequently Asked Questions.

Finding 11.    GCCS and three subgrantees did not follow certain AmeriCorps
               requirements.

GCCS and three subgrantees did not comply with AmeriCorps requirements relating to pre-
service orientation training, training and fundraising, member contracts, living allowances, and
reporting.

Pre-Service Orientation Training

SUCAP did not provide documentation to demonstrate all PY 2009-2010 members received
orientation covering AmeriCorps requirements. Each SUCAP member receives an orientation
session at the service location, but SUCAP does not conduct an AmeriCorps orientation for all
members. Member supervisors documented the orientation sessions using the New Employee
Orientation Supervisor Checklist. We reviewed the checklists. It was used for all new employee
orientations, but none of the topics mentioned the AmeriCorps program. A similar issue was

                                              75
also identified by GCCS during its May 2010 monitoring visit. GCCS stated that SUCAP did not
have a sign-in sheet for the dates, times, and locations of training.

We interviewed six members at SUCAP and asked them if they attended orientation training.
Two of the members stated that they attended orientation training after starting service; three
stated that they did not attend orientation training, and one member could not recall receiving an
orientation.

Both MHYC and CYCA provided agendas for pre-service orientation trainings held, but
could not provide sign-in sheets to support that sampled members attended pre-service
orientation training. As an alternative procedure, we examined the timesheets of sampled
members to determine if the members recorded their attendance at pre-service orientation
training on the timesheets. We were unable to verify that 21 sampled MHYC members and
23 sampled CYCA members attended pre-service orientation, because the members did not
record their attendance at orientation on their timesheets.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
D.3., Supervision, states that the grantee must conduct an orientation for members and comply
with any pre-service orientation or training required by the Corporation.

Without proper orientation, members may not be knowledgeable to properly fulfill program
requirements, know their member rights and responsibilities, prohibited activities, Drug-Free
Workplace Act requirements, suspension and termination from service, grievance procedures,
sexual harassment, and other non-discrimination issues. In addition, members may not be
capable of performing tasks required in their assigned project positions, including specific
training in a particular field and background information on the community served.

Training and Fundraising

All three subgrantees did not have procedures to ensure that no more than 20 percent of
the aggregate of all AmeriCorps member service hours was spent on training activities. In
addition, all three subgrantees did not have procedures to ensure that no more than 10 percent
of the aggregate of all AmeriCorps member service hours was spent on fundraising activities.

During GCCS’s May 2010 monitoring visit, it noted that SUCAP did not have a written policy
for ensuring compliance with the 20-percent limitation and could not provide training
documentation. SUCAP stated that its members were asked to document training and
fundraising hours in the activity description box on timesheets, but often failed to do so.

MHYC did not believe it needed a procedure to track these hours because, it could
determine that each member was under the limits by looking at timesheets. MHYC stated
that it recently implemented a new requirement that requires each service location to submit
member training hours to the program quarterly. CYCA also did not track the number of
service hours that all of its members spent participating in training activities, and stated that
its members should not be participating in fundraising activities.

Without tracking training and fundraising hours, members may exceed the maximum
limitations specified by AmeriCorps regulations.

                                               76
Criteria

45 CFR § 2520.50, How much time may AmeriCorps members in my program spend in
education and training activities?, states that no more than 20 percent of the aggregate of all
AmeriCorps member service hours in a program year, as reflected in the member enrollment in
the National Service Trust, may be spent in education and training activities.

45 CFR § 2520.45, How much time may an AmeriCorps member spend fundraising? states that
an AmeriCorps member may spend no more than 10 percent of his or her originally agreed-
upon term of service, as reflected in the member enrollment in the National Service Trust,
performing fundraising activities.

Member Contracts

As discussed below, CYCA did not have monitoring procedures to ensure member contracts
included all required stipulations, member contracts were retained, members signed contracts,
and members signed contracts before starting service.

          The contract for one PY 2008-2009 member who served at the SCCLV service
           location did not include minimum eligibility requirements or acceptable member
           conduct.

          The contract for one ARRA member who served at the SCCLV service location
           did not include minimum eligibility requirements or a position description.

CYCA did not have a standard member contract for its members. Instead, it relied on its service
locations to use their own member contracts and ensure that all member contracts contained all
required stipulations. CYCA representatives stated that the AmeriCorps provisions do not list
minimum eligibility requirements as required contract stipulations. However, minimum eligibility
requirements are requirements developed by the grantee or subgrantee. These requirements
are listed stipulations in the AmeriCorps provisions.

The contract for one PY 2009-2010 member who served at the SCCFC service location
did not include a code of conduct, prohibited activities, Drug Free Workplace Act
requirements, suspension and termination rules, circumstances to be released for
cause, and grievance procedures. CYCA representatives stated that the copy of the file
provided for our review was missing pages and they provided a copy of the full member
contract.

All three subgrantees did not have procedures to ensure that members signed member
contracts before starting service. One PY 2008-2009 CYCA member who served at WCYCC
did not have a signed member contract. In addition, all PY 2009-2010 SUCAP members, three
sampled MHYC members, and one sampled CYCA member started service before signing the
member contracts, as shown below:




                                                77
                                                                         Number of
           Program              SUCAP          MHYC         CYCA           Days
           PY 2008-2009           0             1             0              17
           PY 2009-2010           9             0             0            1-300
           ARRA                   0             2             0            5-17

Failure to have members sign member agreements with all required elements before serving
could result in members being unaware of their duties, rights, and responsibilities.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
D.2, Member Contracts, states that grantees must require each member to sign a contract
that includes at a minimum:

          Member position description;

          Requirements developed by the grantee or subgrantee, including requirements to
           complete a term of service, requirements to be eligible for an education award, and
           standards of conduct;

          Prohibited activities;

          Requirements under the Drug-Free Workplace Act ;

          Suspension and termination rules;

          Circumstances under which a member may be released for cause and grievance
           procedures; and

          Other requirements as established by the grantee.

Further, grantees should ensure that member contracts are signed before members start
service so that members are fully aware of their rights and responsibilities.

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
G.1. Recordkeeping, states that grantees must maintain records sufficient enough to
establish that each member was eligible to participate.

Living Allowances

SUCAP and MHYC did not comply with AmeriCorps provisions regarding payment of
member living allowances.

          SUCAP pro-rated the first stipend payment to four PY 2009-2010 members and
           increased the incremental amount of living allowance paid to one PY 2009-2010
           member who started service late. One PY 2009-2010 member received a $417
           increase. SUCAP stated that living allowance amounts were determined by dividing
           the gross living allowance by the estimated periods it would take members to
           complete the program. In addition, SUCAP was aware that living allowance could
           not be paid on an hourly basis, but were unaware that incremental living allowances
                                                78
           could not be increased. As discussed in Schedule D, we questioned $417 of
           increased living allowance payments to this member.

          One PY 2008-2009 MHYC member, one PY 2009-2010 MHYC member serving at
           MHYC’s CYCC service location, and two ARRA members serving at MHYC were
           paid on an hourly basis. MHYC was unaware of this, because it billed the budgeted
           living allowance for each member. As discussed in Schedule C, we questioned $210
           of living allowance and benefits for one of the ARRA members because the actual
           living allowance paid to the member was less than the budget amount claimed by
           MHYC.

          Three MHYC members (one PY 2009-2010 member and two ARRA members)
           received reduced stipends while they participated in training. According to the
           member position descriptions, they received a living allowance of $310 per week for
           regular service and $192 for the week they participated in training.

          MHYC pro-rated the last living allowance payment to one sampled PY 2008-2009
           member. The member received two full living allowance payments of $481 and a
           pro-rated living allowance payment of $385.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
F.1., Living Allowance Distribution, states:

           Grantees must not pay a living allowance on an hourly basis. Grantees should
           pay the living allowance in regular increments, such as weekly or bi-weekly,
           paying an increased increment only on the basis of increased living expenses
           such as food, housing, or transportation. Payments should not fluctuate based
           on the number of hours served in a particular time period…if a member is
           selected after the program’s start date, the grantee must provide regular living
           allowance payments from the member’s start date and may not increase the
           member’s living allowance incremental payment or provide a lump sum to make
           up any missed payments.

Reporting

GCCS did not submit FFRs in accordance with applicable regulations. As shown in the
table below, GCCS submitted five reports late.

           Award No.          FFR Due Date     FFR Submission Date         Days Late
           06ACHCO001           03/31/10             07/07/10                 98
           09RCHCO002           01/10/10             01/12/10                  2
           09RCHCO002           07/10/09             08/06/09                 27
           09RFHCO001           01/10/10             01/12/10                  2
           09RFHCO001           10/10/10             10/28/10                 18

GCCS acknowledged that one FFR for Grant No. 09RCHCO002 and two FFRs for Grant
No. 09RFHCO001 were submitted late. GCCS representatives stated that it believed the

                                                79
reason the FFR for Award No. 06ACHCO001 was late because its FFR was in close out
status. It made no comments regarding the other late FFR submissions.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
I.5, Final Financial Reports, requires grantees completing the final year of a grant to submit
a final financial report within 90 days after the end of a grant in lieu of the last semi-annual
financial report.

American Recovery and Reinvestment Act, AmeriCorps Grant Provisions, Section III.,
Subsection A.2., Financial Reports, requires grantees to submit financial reports to the
Corporation through the appropriate electronic system no later than 10 days after the end of
each calendar quarter.

Recommendations: We recommend that the Corporation:

  11a.     Require GCCS to strengthen its policies and procedures to ensure that all of its
           subgrantees and subgrantee service locations use sign-in sheets to document
           compliance with AmeriCorps requirements for conducting pre-service orientation
           training;

  11b.     Require GCCS to strengthen its policies and procedures to ensure that all of its
           subgrantees and subgrantee service locations use activity based time sheets and
           develop procedures to demonstrate that no more than 20 percent of the aggregate of
           all AmeriCorps member service hours at each of its subgrantees are spent in training
           and education activities;

  11c.     Require GCCS to strengthen its policies and procedures to ensure that all of its
           subgrantees and subgrantee service locations use activity based time sheets and
           develop procedures to demonstrate that no more than no more than 10 percent of the
           aggregate of all AmeriCorps member service hours at each of its subgrantees are
           spent in fundraising activities;

  11d.     Require GCCS to strengthen its policies and procedures to ensure that all of its
           subgrantees and subgrantee service locations retain all member contracts, use
           member contracts that include all required stipulations, member contracts are signed
           by members and supervisors, and member contract are signed by members before
           starting service;

  11e.     Require GCCS to strengthen its policies and procedures to ensure that all of its
           subgrantees and subgrantee service locations comply with AmeriCorps requirements
           for living allowances and do not pro-rate member living allowance, pay members on an
           hourly basis, and do not increase the incremental living allowance payments of
           members who start service late;

  11f.     Require GCCS to strengthen its policies and procedures to ensure that it submits
           FFRs in accordance with applicable regulation, documents its reasons for late
           submissions; and


                                               80
 11g.    Verify the implementation of GCCS’s strengthened policies and procedures for
         documenting compliance with pre-service orientation requirements, member training
         limitations, member fundraising limitations, member contracts, member living
         allowance requirements, and reporting.

GCCS’s Response:

Pre-Service Orientation Training

GCCS performs yearly monitoring site visits where it verifies the tracking of member
education and training hours. It has ensured that programs had systems to track training
hours in the aggregate but did not require sign-in sheets if individual timesheets recorded
training hours. It addressed this issue at its August 2011 program managers training and it
will require all programs to have a procedure for pre-service orientation and will require sign-
in sheets to be used as a best practice by all programs. It will verify the implementation of
this procedure through continuous program monitoring.

Training and Fundraising

GCCS performs yearly monitoring site visits where it verifies the tracking of member education
and training hours. It has ensured that programs had systems to track training hours in the
aggregate but did not require sign-in sheets if individual timesheets recorded training hours.

GCS stated that although CYCA did not have a specific tracking mechanism, it complied with
Corporation training limits because each member tracks training hours separate from service
hours on their timesheets. CYCA further monitors compliance with this requirement by
conducting member file reviews at their service locations. In addition, it stated that due to the
nature of youth corps service, members do not participate in any fundraising activities.

As a corrective action, GCCS has adopted a statewide, uniform system to ensure compliance
with all timekeeping requirements across all programs and their service locations. Beginning
August 1, 2011, OnCorps became the official timekeeping system of record for the Colorado
AmeriCorps* State program. It would encourage AmeriCorps State programs to use OnCorps
for member timesheets. It will require programs that are unable to use OnCorps effectively due
to logistics to obtain approval for alternative timekeeping methods.

Member Contracts

GCCS did not concur with this finding. Upon review, it determined that the questioned standard
member contracts include all required stipulations. It stated that it appeared that when its
service locations copied the member files, the pages containing the omitted stipulations were
accidently omitted from the member contract placed in the member file provided for review.
It will send copies of original member contracts with all required stipulations to the
Corporation for verification. It is also collecting member contract samples from all programs
and is ensuring that all contracts contain all required stipulations.

Living Allowance

As discussed in Schedule C Note 3 and Schedule D Note 2, GCCS concurred with this
finding. It has taken steps to ensure its programs are in full compliance with AmeriCorps

                                              81
provisions for living allowance and it will send verification of its corrective actions to the
Corporation.

Reporting

GCCS concurred that four FFRs were submitted late but did not concur that the FFR for
Award No 06ACHCO001 was submitted late. It strengthened its internal systems, policies,
procedures, and controls to ensure compliance with all FFR reporting deadlines.

GCCS stated that the final FFR for Award No. 06ACHCO001 was submitted to the
Corporation on October 29, 2009. Additionally, it stated that the Corporation grants officer
started the closeout process in January 2010 and its program officer certified the grant was
ready for closeout in February 2010. Finally, it stated that in July 2010, the FFR was
reopened, after the grants officer noted that the FFR was incorrect and a correction was
needed.

Accountants’ Comments:

Pre-Service Orientation Training

We do not agree with GCCS’s statement that it had ensured, during yearly monitoring visits, that
programs had systems to track training hours in the aggregate. As discussed below, all three
subgrantees visited did not have systems to track training hours in the aggregate. Additionally,
GCCS stated that it did not require sign-in sheets if individual timesheets record training hours.
However, as discussed above, we examined sampled member timesheets to determine if the
members recorded their attendance at pre-service orientation training. We were unable to verify
that 21 sampled MHYC members and 23 sampled CYCA members attended pre-service
orientation because the members did not record their attendance at orientation on their
timesheets.

The Corporation should ensure that this issue was properly addressed at its August 2011
program managers training. It should verify the implementation of its pre-service orientation
procedure and ensure it is working as intended.

Training and Fundraising

We do not agree with GCCS’s statement that it had ensured, during yearly monitoring visits, that
programs had systems to track training hours in the aggregate. All three subgrantees visited did
not have systems to track training hours in the aggregate. In addition, we contend that adding a
procedure to document member fundraising hours and track compliance with Corporation
fundraising limits is more reliable evidence of compliance than a statement that members do not
perform fundraising activities.

GCCS did not explain how the OnCorps timekeeping system would be used to track member
training and fundraising hours or to ensure compliance with Corporation member training and
fundraising limits. The Corporation should verify implementation of this system and it is working
as intended.




                                                82
Member Contracts

The Corporation should ensure that the copies of the original member contracts contain all
required stipulations. Additionally, it should verify GCCS’s monitoring of member contracts.

Living Allowance

GCCS did not explain or provide documentation of the steps it has taken to ensure its programs
comply with AmeriCorps provisions for living allowance. The Corporation should verify its
corrective actions and ensure they are working as intended.

Reporting

GCCS stated that it strengthened its internal systems, policies, procedures, and controls
for FFR reporting. However, GCCS did explain or provide documentation demonstrating
how these systems, policies, procedures, and controls were strengthened. The
Corporation should verify that GCCS’s systems, policies, procedures, and controls have
been strengthened, implemented, and are working as intended.

We do not agree with the GCCS response that the FFR for Award No. 06ACHCO001,
submitted to the Corporation on October 29, 2009, was the final FFR for the following
reasons.

      The October 29, 2009 FFR submitted by GCCS Program officer was identified as a
       semi-annual FFR;

      MHYC’s PY 2008-2009 subgrant did not end until December 31, 2009; and

      The October 29, 2009 FFR was for activity through September 30, 2009. However,
       in December 2009 and January 2010 GCCS’s accounting records show that it
       processed three payments to MHYC and three payments to a subgrantee that was
       not selected for a site visit. Additionally, MHYC’s reimbursement request for
       December 2009 was not processed by GCCS until March 2, 2010.

During fieldwork, we requested that GCCS provide documentation to support that this
FFR was submitted on time. However, GCCS did not provide any documentation.

Finding 12.   GCCS did not demonstrate that unemployment insurance and
              worker’s compensation benefits provided to members were required
              by Colorado state law.

Unemployment Insurance

GCCS provided a copy of an internal document titled AmeriCorps Tips: Unemployment
Insurance that discussed member unemployment insurance. This document stated that
AmeriCorps members are eligible for unemployment insurance, and they should pay
unemployment insurance tax. Further, the Colorado Department of Labor and Employment,
Office of Unemployment Insurance, had ruled that AmeriCorps members are allowed to
apply for unemployment insurance in the State of Colorado, because the Colorado
Employment Security Act, Title 8, Articles 70 to 82, did not have any provisions that
specifically exclude AmeriCorps members from unemployment insurance. We reviewed the
                                             83
applicable articles of the Act. While the Act did not specifically exclude AmeriCorps
members, it did not specifically include AmeriCorps members.

GCCS obtained an opinion on this issue from a Deputy Counsel within the Office of
Governor. The Deputy Counsel cited several sections from the Act, and concluded that
AmeriCorps members met the definition of an employee under the Act, because AmeriCorps
members performed services in the employment of a nonprofit organization. We consider
AmeriCorps members to be volunteers and not employees of the nonprofit organizations.

Because GCCS did not provide documentation of the Colorado Department of Labor
Employment, Office of Unemployment Insurance, decision cited above and only provided
opinions about whether AmeriCorps members were considered employees by the Colorado
Employment Security Act and eligible for unemployment insurance, we concluded that no
state law required unemployment insurance for AmeriCorps members. As discussed in
Schedule A, we questioned the $7,895 of Federal member unemployment insurance costs
claimed by MHYC on Award No. 06ACHCO001.

Criteria

AmeriCorps State and National Policy Frequently Asked Questions C.63, Is an AmeriCorps
member eligible for state unemployment insurance if he or she is released from service?,
states:

           An AmeriCorps member’s eligibility for state unemployment insurance is a matter
           of state law that is determined on a state-by-state basis. AmeriCorps grantees
           should consult their own state unemployment agency to determine the eligibility
           of members in their state for unemployment insurance. Payment into
           unemployment systems is not an allowable cost unless required by state law.

Worker’s Compensation Insurance

GCCS stated that Colorado state law required worker’s compensation taxes for members
but did not have documentation to demonstrate this. To support its statement that Colorado
law required worker’s compensation taxes for member, GCCS emailed the Colorado
Division of Worker’s Compensation for guidance. Division of Worker’s Compensation
representatives did not provide a formal ruling but stated it sounded like AmeriCorps
members fit the broad definition of what constitutes an employee under the worker’s
compensation act and that worker’s compensation insurance would be needed for the
AmeriCorps members. However, the Division of Worker’s Compensation representatives
also stated that such coverage requirements could be fulfilled by procuring coverage from a
private commercial carrier. We interpreted this statement to mean that subgrantees could
purchase Occupational, Accidental, and Death and Dismemberment coverage instead of
worker’s compensation.

GCCS also obtained an opinion on this issue from a Deputy Counsel within the Office of
Governor. The Deputy Counsel stated that the Colorado Worker’s Compensation Act has
specific tests for determining whether an individual is an employee and stated that the Act
defines an employee as an individual performing service for pay. He concluded that
AmeriCorps members met the definition of employees under the Act; in addition, he
concluded that grantees and subgrantees would also be required to participate in the state

                                               84
worker’s compensation program because its AmeriCorps members were determined to be
employees under the Act.

We contend that the AmeriCorps members do not meet the definition of an employee under
the Act because AmeriCorps members do not receive a wage or perform services for pay.
Instead, AmeriCorps members receive a living allowance while participating in the program.
The living allowance is not a wage and is not based on the number of hours served by the
member.

We concluded that there was not a Colorado state law requiring worker’s compensation for
AmeriCorps members because GCCS only offered opinions about whether AmeriCorps
members were considered employees under the Colorado Worker’s Compensation Act and
because Division of Worker’s Compensation representatives stated that coverage
requirements could be fulfilled by procuring coverage from a private commercial carrier.

Coverage for in-service injury would have to be obtained in place of the worker’s
compensation coverage. We did not question the cost of Worker’s compensation.

Criteria

2008 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
F.3.d., Worker’s Compensation, states:

           Some states require worker’s compensation for AmeriCorps members. Grantees
           must check with State Departments of Labor or state commissions to determine
           worker’s compensation requirements. If worker’s compensation is not required,
           grantees must obtain Occupational, Accidental, and Death and Dismemberment
           coverage for members to cover in-service injury or incidents

Recommendations: We recommend that the Corporation:

    12a.      Require GCCS to obtain a formal ruling from the Colorado Department of Labor
              and Employment, Office of Unemployment Insurance about whether AmeriCorps
              members meet the definition of an employee under the Colorado Employment
              Security Act and are eligible for unemployment insurance;

    12b.      Require GCCS to obtain a formal ruling from the Colorado Division of Worker’s
              Compensation about whether AmeriCorps members meet the definition of an
              employee under the Colorado Worker’s Compensation Act and are eligible for
              worker’s compensation taxes;

    12c.      Verify GCCS’s receipt of these rulings;

    12d.      If determined that unemployment insurance is not required by state law for
              members, require GCCS to develop procedures to ensure that its subgrantees
              do not claim unallowable unemployment insurance costs;

    12e.      If determined that unemployment insurance is not required by state law for
              members, calculate and seek to recover all unallowable unemployment
              insurance costs claimed by its subgrantees; and

                                                85
   12f.    If determined that worker’s compensation insurance is not required by members,
           require GCCS to instruct its subgrantees to develop procedures for procuring
           Occupational, Accidental, and Death and Dismemberment coverage from
           vendors and selecting the best choice.

GCCS’s Response: GCCS did not concur with the finding. It will provide the Corporation
with several documents related to member eligibility for unemployment insurance, including
a copy of a letter from the Colorado Department of Labor and Employment that declares
Colorado AmeriCorps members are eligible for unemployment insurance. GCCS is working
with the Colorado Department of Labor and Employment to clarify the requirements for
worker’s compensation.

Accountants’ Comments: GCCS did not provide us with a copy of the ruling it received
from the Colorado Department of Labor and Employment about member eligibility for
unemployment insurance. The Corporation should verify receipt of this ruling. The
Corporation should also verify the receipt of the Colorado Department of Labor and
Employment’s decision about worker’s compensation and ensure that the appropriate
recommendations have been implemented.

Finding 13.    GCCS did not follow its procedures to obtain and review subgrantee
               OMB Circular A-133 audit reports. It did not have procedures to
               reconcile expenditures in subgrantee OMB Circular A-133 audit
               reports, and it did not perform such reconciliations.

GCCS’s policy was to review subgrantee OMB Circular A-133 (Single Audit) reports during
the pre-award review annually, regardless of scheduled site visits, during site visits, and
during the GCCS’s annual risk assessment. In addition, when it received an audit report, its
program officer was required to date stamp the audit report cover and document review
results on its audit report review form.

GCCS did not follow its procedures to obtain and review all Single Audit reports, and it did
not perform reconciliations of subgrantee payments

Obtaining and Reviewing Subgrantee Audit Reports

GCCS did not have procedures to ensure that it received all Single Audit reports from its
subgrantees. It did not ensure that all subgrantees had Single Audits and that it had
received all subgrantee Single Audit reports until November 2010, after the start of the
agreed-upon procedures review. On October 12, 2010, we requested that GCCS provide
copies of subgrantee Single Audit reports for the three most recent fiscal years and
documentation of its reviews. We requested that GCCS provide these items to us by
November 10, 2010. On November 1, 2010, GCCS emailed its subgrantees and asked
them to confirm if their expenditures had exceeded the $500,000 threshold required to
receive a Single Audit and to provide a copy of their most recent audit and management
letters.

On November 10, 2010, GCCS provided copies of the subgrantee audit reports and its audit
report review form. We noted that the GCCS did not provide all of the audit reports for all of
the subgrantees. In addition, many of the audit report reviews were conducted by GCCS in
November 2010. Specifically:

                                              86
      MHYC received Single Audits for the fiscal years ending December 31, 2007,
       and December 31, 2009. GCCS provided a copy of the Fiscal Year 2009 report,
       but did not provide a copy of the 2007 report. Although the Fiscal Year 2009
       report was dated June 15, 2010, it did not request the report from MHYC until
       November 1, 2010 and did not review the report until November 5, 2010.

      SUCAP received Single Audits for the fiscal years ending December 31, 2007,
       2008, and 2009. During its May 2010 site visit to SUCAP, GCCS reviewed the
       audit report for fiscal year ending December 31, 2007 and it requested a copy of
       SUCAP’s most recent audit. At the time of the visit, SUCAP’s most recent Single
       Audit report was for Fiscal Year ending December 31, 2008. However, it did not
       obtain a copy of this report. GCCS received the Fiscal Year 2009 Single Audit
       report dated September 27, 2010 on October 19, 2010, and reviewed it on
       October 20, 2010.

      Mesa State College received a Single Audit for the fiscal year ending June 30,
       2009. Although the Fiscal Year 2009 report was dated December 9, 2009,
       GCCS did not receive this report until November 1, 2010, and reviewed it on
       November 5, 2010.

      The City and County of Denver, Denver Public Schools, and Weld County Board
       of Commissioners subgrantees received annual Single Audits in Fiscal Years
       2007, 2008, and 2009. GCCS, however, only provided copies of the reports for
       Fiscal Year 2009. Although these reports were dated May 27, 2010, June 15,
       2010, and June 14, 2010, it requested these reports from the subgrantees on
       November 1, 2010, and reviewed them on November 3, 2010.

      The Adams County School District 14 subgrantee received Single Audits in
       Fiscal Years 2008 and 2009. GCCS did not, however, provide copies of these
       reports or documentation supporting its review.

      Catholic Charities of the Archdiocese of Denver was a subgrantee in PY 2007-
       2008 and received a Single Audit for the fiscal year ending June 30, 2009. While
       the organization’s subgrantee relationship with GCCS ended in Calendar Year
       2008, $22,589 of its PY 2007-2008 expenditures were included in its June 30,
       2009, OMB Circular A-133 audit. GCCS did not obtain a copy of this report.

GCCS’ representative stated that during planning for the agreed-upon procedures review it
came to its attention that GCCS had an incomplete process for reviewing subgrantee Single
Audits and completing its review forms. Therefore, it implemented revised procedures in
November 2010. As a result, many of the review forms were completed in November 2010.
GCCS’ representatives also stated that the Adams County School District 14 audits were
received after November 10, 2010, but it inadvertently did not provide the reports to us. In
addition, GCCS requested copies of the missing audit reports from MHYC, SUCAP, City and
County of Denver, Denver Public Schools, Weld County Board of Commissioners, and
Catholic Charities of the Archdiocese of Denver.




                                            87
Reconciliations of Subgrantee Payments

GCCS did not have procedures to perform reconciliations of its payments to subgrantees to
expenditures reported by the subgrantees on the Schedule of Expenditures of Federal
Awards (SEFA) included in the subgrantee Single Audit reports. These reconciliations are
necessary to ensure that subgrantees records are complete and accurate and to determine
if GCCS’s records require adjustments.


We noted one instance in which SEFA expenditures were incorrectly reported. In 2009, CYCA
had a Single Audit for the year ending December 31, 2009, and the SEFA in the report showed
expenditures of $65,109 for its AmeriCorps Education Award Recovery Program. In 2009,
however, CYCA’s expenditures of $65,109 were for two separate awards: $27,317 was for its
Education Award Program (Award No. 06ESHCO001) and $37,792 was for its ARRA award
(Award No. 09RFHCO001). Each award should have been listed separately.

Criteria

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D.400 (d), Pass-through entity responsibilities, requires grantees to ensure that
subgrantees undergo audits meeting requirements of the circular.

45 CFR § 2541.260 Non-Federal audit, subsection (b)(4) states that grantees must consider
whether subgrantee audits necessitate adjustment of the grantee’s own records.

Recommendations: We recommend that the Corporation:

    13a.      Verify implementation of GCCS’s procedures for ensuring that all OMB Circular
              A-133 reports and management letters are obtained and reviewed and review
              results documented;

    13b.      Require GCCS to strengthen its monitoring procedures to ensure that all
              necessary reconciliations are performed; and

    13c.      Verify implementation of GCCS’s reconciliation procedures and ensure results
              are documented.

GCCS’s Response: GCCS concurred with this finding. In November 2010, it implemented
corrective actions to improve its policies, procedures, and controls to ensure compliance
with OMB Circular A-133 audit requirements. In addition, since November 2010, GCCS
performed the following corrective action steps:

          It examined all of its subgrantee files and located, reviewed, and filed copies of past
           and current subgrantee audits. It contacted subgrantees and requested responses
           to any findings identified in those reports;

          It updated its policies, procedures, and forms used to document its review of
           subgrantee audit reports. It now requires the GCCS Executive Director to review
           and sign these forms. It also requires confirmation of these reviews during its annual
           monitoring process.

                                                  88
      It adopted a system to review SEFA expenditures and to reconcile these
       expenditures.

Accountants’ Comments: GCCS did not provide us with copies of its strengthened policies
and procedures. The Corporation should verify the implementation of GCCS’s strengthened
policies and procedures and ensure that they are working as intended.




                                           89
                    APPENDIX A

Colorado Governor’s Commissionon Community Service
              RESPONSE TO AUDIT REPORT
----
---        ~ 1, 1O ! 1




---
--
--              ' ! . " Gmonl fa< AIIIIiI

--
           A
           C«ponriaa foI NabaaaI ODd C    -', Sen'i<:e
           1101 ~Yari: A,_ NW. ~ 130
=--
--
--
--         \\,"",i~ .     DC   2O~2 j




---
_
----
-- . --j   Ool><mlfofSt<wCclcndo-(io,,"""". C            i=oae        -ryS<n'i<:e(GCCS).


--
---
_.
--
-,,-
           _

           Pt
               J"'Ilfa<Ihr~"t........-ltoIhrOfliDoofI I <too Gmonl (OIG) _
           _~ r,, !           ',,''''''.    "' ''''' OIGRq>onforlhr!y;r«d_ ~
                   fi>.- Caqxntiao. G.mIs A..... 10 Ihr CoIondo Co
                  t ...                                                   m


           ~r~'"1m_~'...i_~i:::d'";!-.<:=~~~~~~::"~'"
             .r
           N'- _ C
                       'i"ll
                                 Ery S<n'i<:e (OiCS) .. resoh", all is...... We OR do: '
                                   " mpo._1*= ODd .......".
                                                                                          d '"
                                                                               ~ -ooriDf! .J
           iDMmaI JI'='*z<s, poli"';... liliiii umnals Ie> ...... Iba1Ihr GCCS Old ~ pop
           ......... m       ;'-  .ntII.nF.a...J _ ,~ d ..w..,_~ .. ~


                                                                      ui,,! "'" _   "'.,~.




                                                                                         1
FINDING 1--GCCS and three sub-grantees claimed unallowable and unsupported costs.

Commission Response: The table below briefly outlines our comments to the questioned items
identified in Finding 1. In many cases we concur with the findings, and in several instances we
believe that adequate documentation exists to support the questioned costs and to demonstrate
compliance. Detailed comments and corrective action steps are referenced in the related findings.




The Colorado Commission is looking forward to working with the Corporation to ensure full and
complete implementation of the corrective action steps and final resolution of these findings.

FINDING 2—GCCS, sub-grantee, and sub-grantee service location financial management
systems did not account for costs in accordance with Federal and state requirements.

Commission Response: GCCS concurs with this finding regarding the sub-grantee service
location financial management systems and reporting GCCS and sub-grantee match costs. GCCS
has implemented a corrective action plan as outlined below.

With respect to Award No. 09RFHCO001, GCCS concurs with the finding that CYCA did not
establish a unique accounting system for the ARRA award. CYCA has provided alternative
supporting documentation to reconcile claimed costs under the award to verify expenditures.
The expenditures were tracked and documented using systems (timesheets, spreadsheets,
receipts, etc.) in accordance with 45 CFR §2541.200(b)(6) which provides that accounting


                                                                                               2
records must be supported by source documentation, such as payroll and time-and-attendance
records.

Corrective Action:

      GCCS has worked with fiscal staff to establish reconciliation controls to verify and report
       match costs and retain uniform documentation. As a result, GCCS has implemented new
       match tracking system, with new policies, procedures and internal systems controls.
      Beginning August 1, 2011, GCCS is implementing OnCorps reports, a web-based
       software program which will serve as a tool for program reporting and GCCS monitoring.
       This will increase reporting accuracy and the ability to easily assess program information
       and provide our programs with a system that ensures compliance with federal regulations.
      In addition, CYCA has changed its accounting system to allow for more detailed tracking
       of income and expenses using classifications for specific fund sources as needed. CYCA
       has worked closely with their independent auditor, Board of Directors, and bookkeeper to
       implement these changes and train staff. In the future, GCCS will confirm that separate
       accounting systems are in place for any grants that may require a separate system.
      Supporting documentation is being sent to CNCS for verification.

FINDING 3—GCCS and one sub-grantee did not have controls to ensure that claimed Federal
match costs were adequately supported, compliant with applicable regulations, and properly
calculated.

Commission Response:

Commission Administrative Match
While systems, policies and controls have been improved significantly over the past several
years, continued improvements and corrective action implementation steps are needed to ensure
that all claimed state administration match to federal grants comply with required regulations and
OMB costs principles.

Corrective Action: The audit report notes that GCCS relies almost exclusively on in-kind
support to match the state administrative award. With the support of CNCS Office of Grants
Management , the appointed board of Commissioners, the Lt. Governor’s office, state
government agency partners and private sector stakeholders, significant progress has been made,
and continues to be made to ensure that in-kind support is budgeted, captured, documented,
recorded, and verified.

GCCS will continue to work diligently on these efforts to seek in-kind support, and gifts, grants
and donations to meet required match goals. We look forward to working with CNCS to resolve
these issues and to achieve a long-term, sustainable solution..

Sub-grantee claimed Federal and match costs

Corrective Action:


                                                                                                3
      Continuous communication with our programs regarding rules and regulations regarding
       allowable match and acceptable documentation.
      Improved technical assistance, support and updated policies and procedures.
      Improved desk and on-site compliance monitoring.
      Implementing the use of OnCorps system starting August 1, 2011.
      GCCS is including training on rules and regulations related to this finding at the Program
       Manager Institute—― Back to Basics‖ being held August 2011.

FINDING 4—Two sub-grantees did not comply with AmeriCorps requirements for criminal
history checks and National Sex Offender Public Registry (NSOPR) searches.

Commission Response: GCCS supports the request of MHYC and CYCA for reconsideration of
questioned education awards relating to compliance with criminal history checks and NSOPR
searches.

MHYC and CYCA developed and implemented stringent, rigorous and comprehensive
background check programs to comply with existing, known and understood regulations, in an
environment that has been evolving over the past few years.

1. The sub-grantees have always been advised by GCCS that as an eligibility requirement the
    NSOPR check must be completed prior to enrollment. However, guidance regarding the
    timing of the initiation of the criminal history check has changed since becoming law in
    2007.
2. In implementing their background check programs, MHYC, CYCA and its service locations
    acted in good faith by conducting criminal background checks for all participants, and each
    participating youth corps’ member approval guidelines were more stringent than those of the
    Corporation.
3. MHYC completed NSOPR checks on all sampled members and submitted this information to
    the auditors on May 11, 2011. These checks were successfully completed and demonstrate
    that the participants were within the eligibility requirements. MHYC requests that this
    information be documented in the chart on page 53 of the report to reflect that these checks
    were completed. MHYC requests that the final audit report reflect these comments.

GCCS requests clarity respecting NSOPR registry searches of all 50 states. The Federal
regulations from the time of audit require that the NSOPR check be conducted, but the
regulations do not require that system connectivity be functioning for all 50 states when the
NSOPR check is conducted.

Corrective action:

      Continuous communication with our programs regarding rules and regulations with
       improvements in timely technical assistance and training on developing rule.
       Communication includes monthly training and technical assistance conference calls with
       program managers.
      Improved technical assistance, communication and support, with updated policies and
       procedures.

                                                                                                4
      GCCS is including training on rules and regulations related to this finding at the Program
       Manager Institute—― Back to Basics‖ being held August, 2011.

GCCS agrees that comprehensive, rigorous and effective compliance with NSOPR and criminal
history checks by all grantees and all service locations is critically important in the interest of
public safety, the protection of vulnerable populations served by our programs and the reputation
of national service, CNCS and the GCCS. We continue to work with CNCS and our grantees to
ensure policy and procedures are in place. We have improved training and technical assistance to
programs and implemented a rigorous verification and compliance monitoring system.

FINDING 5 –One sub-grantee did not demonstrate that it conducted a criminal history check on
a member, and three sub-grantees did not conduct criminal history and NSOPR searches in a
timely manner.

Commission Response: The Commission concurs with this finding.

Corrective Action:

      Continuous communication with our programs regarding rules and regulations as they
       evolve.
      Monthly training and technical assistance conference calls with program managers.
      Improved technical assistance and support, with updated policies and procedures.
      Improved desk and on-site compliance monitoring.
      GCCS is including training on rules and regulations related to this finding at the Program
       Manager Institute—― Back to Basics‖ being held August, 2011.

FINDING 6—One sub-grantee did not have controls to ensure that members performed
allowable activities.

Commission Response: GCCS concurs with this finding.

Corrective Action: GCCS has strengthened compliance and monitoring procedures to ensure
compliance with all applicable rules and regulations regarding acceptable activities. Beginning
August 15, 2011, programs will be required to list all prohibited activities in the member
contract.

GCCS is including training on rules and regulations related to this finding at the Program
Manager Institute—― Back to Basics‖ being held August, 2011. Training will include ensuring
programs comply with 45CFR § 2520.25 that direct service activities by AmeriCorps members.

FINDING 7—Three sub-grantees did not accurately record all timesheet hours, did not have
procedures to verify member activities and timesheet accuracy, and timesheets did not always
support member eligibility for education awards.

Commission Response: GCCS concurs with the finding of identified weaknesses in how
timesheets are prepared and submitted. MHYC states that two of the four members earned

                                                                                                  5
enough hours to be eligible for his or her education award. The site has confirmed that the
member did complete the questioned hours and the hours are aligned with the member’s
position. Supporting documentation is being sent to CNCS for verification.

Corrective Action: GCCS has adopted a statewide, uniform system to ensure compliance with
all timekeeping requirements across all programs and their service locations. Beginning August
1, 2011, OnCorps will become the official timekeeping system of record for the Colorado
AmeriCorps*State program. GCCS will strongly encourage AmeriCorps*State programs to use
OnCorps for member timesheets. For programs that are unable to use OnCorps effectively due
to logistics, GCCS will require preapproval of those programs’ alternative timekeeping methods.
Programs will be strongly discouraged from using other, supplemental timekeeping methods (i.e.
time clocks or additional site-based timesheets) in addition to OnCorps because of the potential
of contradictory or incomplete timesheets.

FINDING 8—One sub-grantee did not comply with AmeriCorps citizenship eligibility
requirements.

Commission Response: The Commission concurs with this finding.

Corrective Action: GCCS has taken corrective action steps in training, technical assistance and
improved verification during monitoring to ensure that procedures and systems are in place to
verify member citizenship eligibility requirements, to ensure citizenship verification
documentation is retained in the member files, and that all programs are in compliance with
AmeriCorps requirements for citizenship, residency status and acceptable documentation.

GCCS is including these items in the upcoming Program Manager Institute ―    Back to Basics‖
scheduled for August, 2011. All relevant regulations will be reviewed at the training.

FINDING-9 –Three sub-grantees did not demonstrate that some members received performance
evaluations, and some end-of-term evaluations did not meet AmeriCorps requirements.

Commission Response: The Commission concurs with this finding.

Corrective Action: GCCS and sub-grantees have taken corrective action to ensure that programs
comply with the AmeriCorps regulations and provisions. Sub-grantees have begun working with
their service locations to modify final evaluations to comply with AmeriCorps regulations and
provisions. Previously, programs stated that certifications of total hours served was captured on
the AmeriCorps exit paperwork, which is signed by both the member and supervisor.

Training regarding performance evaluation requirement is included in PMI ―  Back to Basics‖
training in August 2011. GCCS has also strengthened both desk and site based monitoring
procedures to ensure compliance and continues to share best practices with the programs.

FINDING 10—Three sub-grantees did not complete all member enrollment and exit forms and
enter them into the My AmeriCorps Portal (Portal) in accordance with AmeriCorps
requirements.

                                                                                                  6
Commission Response: The Commission concurs with the finding.

Corrective Action: GCCS has taken corrective action to ensure program compliance with the
CNCS ―  30-day‖ rule for member enrollment and exit forms. GCCS is also implementing the use
of OnCorps reports beginning August 1, 2011 which includes a member management checklist.

FINDING 11—GCCS and three sub-grantees did not follow certain AmeriCorps requirements.

11a. All three sub-grantees did not have policies and procedures requiring service locations to
use sign-in sheets for pre-service training.

Commission Response: GCCS performs yearly site monitoring visits where tracking education
and training hours is verified. GCCS has ensured that programs have a system in place to track
training hours in the aggregate but did not require sign-in sheets if individual timesheets are
recording training hours.

Corrective Action: GCCS is addressing this issue at the Colorado Program Manager’s Institute
―Back to Basics‖. GCCS requires all programs have a procedure regarding the required pre-
service orientation requirement that sign-in sheets be used as a best practice by all programs.
This will be verified with continuous program monitoring.

11 b-c. Procedures are not in place to ensure that programs track the 20% aggregate total of
member education and training and the 10% aggregate total of member fundraising hours.

Commission Response: GCCS performs yearly site monitoring visits where tracking education
and training hours is verified. GCCS has ensured that programs have a system in place to track
training hours in the aggregate but has not required sign-in sheets if individual timesheets are
recording training hours.

Although CYCA did not have a specific tracking mechanism for all AmeriCorps members, the
program is in compliance with this regulation given that each member tracks training hours
separate from service hours on their individual timesheets. Through member file reviews
conducted at their service locations, CYCA continuously monitors this requirement to ensure
they meet AmeriCorps requirements. Also, due to the nature of youth corps service, members
are not participating in any fundraising activities.

Corrective Action: GCCS has adopted a statewide, uniform system to ensure compliance with all
timekeeping requirements across all programs and their service locations. Beginning August 1,
2011, OnCorps will become the official timekeeping system of record for the Colorado
AmeriCorps*State program. GCCS will strongly encourage AmeriCorps*State programs to use
OnCorps for member timesheets. For programs that are unable to use OnCorps effectively due
to logistics, GCCS will require preapproval of those programs’ alternative timekeeping methods.

11 d. Member contracts—two member contracts were missing required stipulations.



                                                                                                   7
Commission Response: GCCS does not concur with this finding. Upon review, GCCS has
determined that the questioned standard member contracts include all required stipulations.
Unfortunately it appears that when copying the member file the areas in question were
accidentally omitted from the member’s contract. These are two isolated incidents due to human
error and are not reflective of the entire CYCA AmeriCorps program. CYCA provides a standard
member contract, including all required AmeriCorps stipulations. Each service location modifies
the standard contract; ensuring required stipulations are included to meet the individual needs of
their organization. CYCA monitors the modification of these documents by each service location
through annual compliance site visits. Copies of the original member contracts with all required
stipulations will be sent to CNCS to verify compliance.

Corrective Action: GCCS is collecting member contract samples from all programs and is
monitoring that all contracts contain all required stipulations.

11 e. Pro-rated living allowance.

Commission Response: The Commission concurs with this finding.

Corrective Action: GCCS has taken steps to ensure programs are in full compliance with
AmeriCorps Grant Provisions, Section IV Subsection F.1. that: Grantees must not pay a living
allowance on an hourly basis. Grantees should pay the living allowance in regular increments.
Payments should not fluctuate based on the number of hours served in a particular time
period…”.

Verification of the corrective action is being sent to CNCS.

11 f. GCCS did not submit FFR’s in accordance with applicable regulations by submitting five
(5) FFR reports late.

The GCCS concurs with this finding, with exception.

Commission Response: Regarding the FFR for grant No 06ACHCO001, GCCS contends that
this was not a late submission. The GCCS submitted the final FFR for this grant on 10/29/09 as
a final submission. In January 2010, the grants officer started the closeout process. In February
2010, the program officer certified that the grant was ready for closeout. In early July 2010, the
FFR was reopened after the grants officer noted a needed correction.

Corrective Action: GCCS has strengthened internal systems, policies, procedures, and controls
to ensure that compliance with all FFR reporting deadlines.

FINDING 12—GCCS did not demonstrate that Unemployment Insurance and Worker’s
Compensation Benefits provided to members were required by Colorado state law.

Commission Response: The Commission does not concur with this finding. A copy of the
documents related to the ruling that Colorado programs must pay in to Unemployment Insurance
(UI) for their members is being submitted to CNCS for review. These documents include a

                                                                                                     8
directive from the U.S. Department of Labor which defers decisions around UI to states; a
memorandum from the Corporation for National Service regarding the terminology that
members are not employees, but still deferring decisions regarding UI to states; the
determination letter from the Colorado Department of Labor and Employment declares that in
Colorado members are eligible for unemployment.

Workman’s Compensation Insurance: GCCS is working with the Colorado Department of Labor
and Employment to clarify this issue and will take necessary action to instruct grantees
accordingly.

FINDING 13—GCCS did not follow its procedures to obtain and review sub-grantee Office of
Management and Budget (OMB) Circular A-133 audit reports. It did not have procedures to
reconcile expenditures in sub-grantee OMB Circular A-133 audit reports, and it did not perform
such reconciliations.

Commission Response: The Commission concurs with this finding.

Corrective Action: In November, 2010 the Commission implemented immediate corrective
action to improve is policies, procedures and internal controls to ensure full compliance with
OMB Circular A-133 audit review requirements.

To date, the GCCS has taken the following corrective action steps:
    All contract files have been examined; past and current audits have been located,
       reviewed and filed. Grantees have been contacted to respond to any findings.
    The Audit Oversight Policies and Procedures have been updated to improve the system of
       review; forms used, and clarify internal controls and staff roles and responsibilities.
    The Audit Oversight form has been updated to include increased oversight and review,
       with the indication that the audit oversight is to be confirmed by the ED, with ED
       signature attached.
    GCCS’s monitoring policies and procedures have been updated to include confirmation
       of the audit review during the annual monitoring process.
    GCCS has adopted a system to review SEFA and reconcile these with reported
       expenditures. This system will ensure sub-grantee records are complete and accurate.

Verification of action taken is being sent to CNCS for review.




                                                                                                 9
              APPENDIX B

CORPORATION’S RESPONSE TO AUDIT REPORT
                               NATIONAL&:
                               COMMUNITY
                               SERVICE ........

To:

From:

Date:

~ubject:       Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
               Awarded to the Colorado Governor's Commission on Community Service


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to the Colorado Governor's Commission on Community
Service (the Commission). We will work with the Commission to ensure its corrective
action plan adequately addresses the findings. We will respond with our management
decision after we receive the final report and the auditor's working papers and have
reviewed the Commission's corrective action plan.

Cc:     William Anderson, Chief Financial Officer
        John Gomperts, Director of AmeriCorps
        Wilsie Minor, Acting General Counsel
